       REDACTED FOR PUBLIC RELEASE




OVERSIGHT OF INTERGOVERNMENTAL
AGREEMENTS BY THE UNITED STATES
MARSHALS SERVICE AND THE OFFICE
OF THE FEDERAL DETENTION TRUSTEE
        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 07-26
              March 2007



       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


 OVERSIGHT OF INTERGOVERNMENTAL AGREEMENTS BY
THE UNITED STATES MARSHALS SERVICE AND THE OFFICE
        OF THE FEDERAL DETENTION TRUSTEE

                            EXECUTIVE SUMMARY*

       Two Department of Justice (DOJ) components have key roles in the
detention of federal detainees – the Office of the Federal Detention Trustee
(OFDT) and the United States Marshals Service (USMS). The OFDT manages
DOJ’s detention resource allocations, and coordinates DOJ’s detention
activities with the Department of Homeland Security (DHS), Bureau of
Immigration and Customs Enforcement (ICE).1 The USMS is responsible for
housing and transporting federal detainees from the time they are brought
into federal custody until they are either acquitted or incarcerated.2

       As shown in the following graph, due to the severe shortage of
federally owned detention space, the USMS heavily depends on state and
local governments to provide detention space and services:




       1
          Historically, federal detention in the DOJ was the responsibility of both the USMS
and the Immigration and Naturalization Service (INS). As directed by Congress, the initial
objective of the OFDT was to centralize responsibility for detention in order to better
manage and plan for needed detention resources without unwanted duplication of effort or
competition with other DOJ components. In March 2003, the INS was transferred into DHS.
Much of the INS detention responsibilities were included in DHS’s ICE. Although the OFDT
has an Interagency Agreement with ICE, the OFDT stated that ICE infrequently uses OFDT’s
services (e.g., negotiate and manage contracts for private detention beds). According to
the OFDT, it has no leverage to force ICE to use its services.
       2
          Federal detainees are generally individuals housed in jails while awaiting trial or
sentencing. In contrast, federal prison inmates are generally individuals serving a sentence
of imprisonment after conviction for a violation of the federal criminal code. The Federal
Bureau of Prisons (BOP) is responsible for federal prison inmates.

*THE FULL VERSION OF THIS REPORT INCLUDED INFORMATION THAT THE OFFICE OF THE FEDERAL DETENTION
TRUSTEE CONSIDERED TO BE PROCUREMENT SENSITIVE INFORMATION WHICH, IF DISTRIBUTED WIDELY,
COULD COMPROMISE ITS GOAL OF OBTAINING BEDSPACE AT ECONOMICAL RATES. TO CREATE THIS PUBLIC
VERSION OF THE REPORT, THE OIG REDACTED (WHITED OUT) THE PORTIONS OF THE FULL REPORT THAT WERE
CONSIDERED SENSITIVE BY THE OFDT. WHERE SUCH INFORMATION WAS REDACTED IS NOTED IN THE
REPORT.



                                            -i-
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE




      Source: OFDT

       To meet its need for detention space, the USMS has entered into
Intergovernmental Agreements (IGA) with an increasing number of state
and local detention facilities. IGAs are formal agreements between the
USMS and a state or local government in which the state or local
government agrees to house federal detainees at an agreed-upon daily rate
(a “jail-day rate”). As of February 2006, the USMS had approximately 1,600
active IGAs with state and local governments to rent jail space. In fiscal
year (FY) 2005, DOJ spent $750 million of its $1 billion detention budget on
IGAs.

      In our judgment, given the rising federal detainee population and
increasing expense of housing federal detainees, it is critically important that
the USMS has a system in place to ensure that it obtains needed detention
space without overpaying for it.

Funding Detention Growth

        A significant challenge presented by rising detention populations is
DOJ’s ability to obtain affordable bed space for individuals housed in non-
federal facilities. The cost of detention has been rising rapidly, and during
FYs 2003 – 2005 the funds budgeted for the detention of federal detainees
fell short of the amount needed to fully fund detention activities. DOJ
officials attributed the shortfalls to significantly inaccurate budget projections
by the USMS and OFDT. According to these officials, new law enforcement
initiatives, policies, and laws caused an increased number of arrests, which
exceeded the forecasts used to calculate budget requests.



                                      - ii -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

       According to the OFDT, its efforts to reduce detention costs have
focused on decreasing the amount of time individuals spend in detention
after sentencing while awaiting transfer to the BOP. However, we believe
that the OFDT and USMS could realize significant additional cost savings if
they addressed deficiencies in how prices are set in individual IGAs
established with state and local law enforcement agencies for detention bed
space.

Audit Approach

      The objective of the audit was to determine if the USMS and OFDT
employed an effective monitoring and oversight process for IGAs. Appendix
I contains more information on our objective, scope, and methodology.

      Our report contains three main findings. The first discusses a
disagreement between the OFDT and the Office of the Inspector General
(OIG) regarding the recoverability of overpayments identified in past OIG
audits. The second finding concerns the OFDT’s revamping of IGA pricing
through an econometric statistical pricing model. The third finding discusses
needed improvements in the policies and procedures, training, and defining
responsibilities for establishing and monitoring IGAs.

First Finding: Dispute Over Detention Space Overpayments

      Since 1995, the OIG has audited 31 individual IGAs between the USMS
and state and local governments for detention space. These audits often
concluded that the USMS had paid state and local governments significantly
more than the actual and allowable costs for this space. In total, the OIG
reported dollar-related findings of almost $60 million from these 31 IGA
audits. The following are examples of findings from three of these audits:




                                    - iii -
                    REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE



       • [SENSITIVE INFORMATION REDACTED]. Our audit revealed
         that the [SENSITIVE INFORMATION REDACTED] Sheriff’s Office was
         not required to prepare a cost sheet to support its jail-day rate.3
         Further, the audit concluded that [SENSITIVE INFORMATION
         REDACTED] Sheriff’s Office had costs to support a jail-day rate that
         was about $17 less per day than the rate paid, resulting in
         overpayments of almost $1.8 million during calendar years 2000
         and 2001.

       •   [SENSITIVE INFORMATION REDACTED]. Our audit concluded
           that the [SENSITIVE INFORMATION REDACTED] Jail’s FY 2003
           allowable costs supported a jail-day rate of $30.62, resulting in
           overpayments of more than $2.8 million during FYs 2003 and 2004.

       •   [SENSITIVE INFORMATION REDACTED]. Our review of the
           costs and inmate population listed on the cost sheet supported a
           $52.26 jail-day rate, while the USMS paid the [SENSITIVE
           INFORMATION REDACTED] Jail $65 per jail day, resulting in
           overpayments totaling almost $2.9 million for FYs 2004 and 2005.

       However, on March 17, 2006, the OFDT advised the USMS to refrain
from seeking reimbursement of overpayments identified in OIG audits of
individual IGAs.4 As discussed below, the OFDT reasoned that because, in its
view, the audited IGAs were negotiated fixed-price contracts not based
solely on costs, the USMS could not recoup these overpayments. In
contrast, the OIG believes that actual and allowable costs formed the basis
for the jail-day rates contained in the agreements, and that even if the IGAs
are fixed-price agreements as the OFDT contends, it may still be appropriate
to recover overpayments, based on the circumstances of each case.
Accordingly, the OIG believes that the DOJ should individually address each
of the OIG’s prior audits to determine if action on the payments above cost
is appropriate.


       3
         See Appendix III for an example of a cost sheet form and instructions. According
to the USMS Intergovernmental Agreement Program Policies and Procedures Manual (IGA
Manual), if a detention facility is interested in housing federal detainees, it must complete a
Form USM-243 “Cost Sheet for Detention Services” (cost sheet) as part of the application
process. A jail-day rate is the amount paid to a detention facility to house one person
detained for one day and begins on the date of arrival, but does not include the date of
departure.
       4
        See Appendix VI for a copy of the current Detention Trustee’s memorandum,
dated March 17, 2006.

                                            - iv -
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

Negotiated Fixed-Price Contracts (OFDT Position)

      According to the OFDT’s argument, the IGAs at issue were fixed price
agreements that were not specifically limited to the repayment of actual
costs incurred by the contracting state or local government. The OFDT
believes that although cost data provided by a state or local government was
one factor used in reaching the agreed-upon jail-day rate, the USMS
ultimately agreed to a fixed rate and cannot now seek to recover any
payments it may have made above costs.

      To support this conclusion, the OFDT points to a December 2002 legal
opinion from the DOJ’s Office of Legal Counsel (OLC). This opinion
concluded that Section 119 of Public Law 106-553 (also known as the 2001
Department of Justice Appropriation Act) confers authority on the Attorney
General to enter into fixed price detention agreements. Section 119
provides:

            Notwithstanding any other provision of law, including
            section 4(d) of the Service Contract Act of 1965 (41 U.S.C.
            353(d)), the Attorney General hereafter may enter into
            contracts and other agreements, of any reasonable
            duration, for detention or incarceration space or facilities,
            including related services, on any reasonable basis.

      The OFDT therefore concluded that the IGAs do not limit state or local
governments to the reimbursement of costs only. The OFDT further stated
that because the IGAs we audited typically describe the unit price the federal
government will pay as a “fixed rate,” and costs were only one factor
considered in determining this rate, the overpayments identified by the OIG
audits are not recoverable.

      As a result, in its March 17, 2006, memorandum the OFDT “advised
the USMS to refrain from seeking reimbursement of overpayments” found by
the OIG audits. Recently, OFDT obtained an opinion from the General
Counsel of the Justice Management Division stating that the IGAs are “fixed
price agreements that do not contain a basis for the Department to seek
retroactive price adjustment” as a matter of contract law.




                                     -v-
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

Cost-Based Agreements (OIG Position)

       The OIG disagrees with the OFDT’s and JMD’s conclusion that the IGAs
at issue are fixed-rate agreements based on factors other than cost. We do
not dispute that, at least since the passage of Section 119, the USMS has
the authority to enter into IGAs based on other factors, and that accordingly
profit may be included in the calculation of the IGA rate. However, the OIG
does not agree that the USMS exercised its authority to do so for past IGAs,
including the 31 that were the subject of the OIG’s audits.5 Indeed, even
the OLC opinion on which the OFDT relies describes the IGAs that pre-dated
passage of Section 119 as having “typically set compensation for these
services at the cost actually incurred by the provider.” In addition, the OIG
believes that the term “fixed rate” described the unit price to be paid in
IGAs, but that it was calculated based on the state or local government
providing an accurate description of its allowable costs. For example, in
negotiations for the IGAs the local governments were informed that the rate
was based on allowable costs, not any profit, and that the local governments
would be held accountable for any overpayment or audit disallowance. As
we describe below, support for our view is found in: (1) the language of the
agreements, (2) a memorandum, dated August 1, 2002, from the prior
Detention Trustee, and (3) the USMS’ own past practice.

       Language of the Agreements

        The cost sheet instructions that were given to state and local
governments when they sought the IGAs defined an IGA as a formal written
agreement between the USMS and a state or local government to house
federal detainees at a jail-day rate based on actual and allowable costs for
the same level of service provided to state or local prisoners in a specific
facility. The cost sheet instructions also informed the preparer of the
following:

       •   A jail-day rate will be computed on the basis of actual and allowable
           costs associated with the operation of the facility that benefit
           federal detainees during the most recent accounting period.6

       5
        In a memorandum dated June 6, 2006, the OIG discussed the basis for its
disagreement with the OFDT. See Appendix VII for a copy of the memorandum.
       6
          Actual costs refer to costs incurred by a detention facility. According to OMB
Circular A-87, for actual IGA costs to be allowable costs must be: (1) necessary and
reasonable; (2) authorized or not prohibited under state or local laws or regulations; (3) in
conformity with laws, regulations, and terms and conditions of the award; (4) accorded
consistent treatment; (5) in accordance with generally accepted accounting principles;
(6) net of all applicable credits; and (7) adequately documented.

                                            - vi -
                        REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE



       •     “Local Governments shall only request the reimbursement of costs
             to the extent provided for in the latest revision of OMB Circular
             No. A-87.”7

      The cost sheet also contained a certification statement that the
Comptroller or Chief Financial Officer of the local government was required
to sign attesting to the fact that the cost sheet does not include any costs
prohibited by the Circular. According to the cost sheet instructions, Office of
Management and Budget (OMB) Circular A-87 is the criteria used by the
USMS in evaluating whether IGA costs are allowable.

      The USMS IGA Manual states that an IGA analyst at USMS
headquarters is supposed to review the cost sheet for cost allowability and
the accuracy of capacity and average daily population figures. Based on the
cost sheet information, the IGA analyst then calculated a jail-day rate using
the following formula:

                                      Jail-Day Rate Calculation

                       256                               365                93,440
                                           X                      =
             Average Daily Population            Days Per Year             Jail-Days


                   $5,088,716                        93,440                 $54.46
                                           ÷                      =
               Total Operating Cost                 Jail Days           Jail-Day Rate
           Source: USMS IGA Manual

       As detailed in the table, a facility with an average daily population of
256 would equate to 93,440 annual jail days. If the facility’s total annual
operating costs were $5,088,716, this amount would be divided by the
93,440 annual jail days to arrive at a jail-day rate of $54.46. In this
example, the USMS would pay the state or local facility $54.46 to house one
of its federal detainees for one day.8

       7
         OMB Circular A-87 establishes the principles and standards for determining
allowable costs associated with agreements for goods and services obtained by the federal
government from state, local, and federally recognized Indian tribal governments.
       8
           An IGA is usually indefinite in term until it is terminated by either the detention
facility or the USMS.



                                               - vii -
                          REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE

      The IGA Manual also states that the USMS IGA analyst will then
discuss the jail-day rate with the appropriate local official, and prepare a
Record of Negotiation documenting the rationale for the jail-day rate. The
IGAs state that the local governments are responsible for complying with
OMB Circular A-87, and inform the local governments that they will be held
accountable for any overpayment, audit disallowance, or breach of the
agreement that results in a debt owed to the federal government.

      Prior Detention Trustee Memorandum

      In a memorandum to the Deputy Attorney General dated August 1,
2002, the prior Detention Trustee agreed with our position.9 The prior
Detention Trustee noted that most if not all IGAs limited reimbursement to
actual costs or to the same daily costs that state and local authorities incur
to hold their own prisoners. Further, these IGAs did not allow for a payment
of profit to state and local governments. Accordingly, the prior Detention
Trustee concluded:

      [T]he issue of whether the Department may or may not pay a
      profit or fee should not be a contentious item in these audits,
      since the audits were conducted on IGAs where both the
      departmental components and the state or local governmental
      entity agreed to reimbursement of actual costs.

       The prior Detention Trustee therefore drafted a policy that required the
USMS to submit written justification to the OFDT and obtain its written
approval prior to entering into fixed-price IGAs based on factors other than
cost under Section 119. During our audits of the 31 IGAs, we did not
identify any justifications or prior written approvals by the Detention Trustee
that fixed-price detention services were acquired.

      USMS Past Practice

       We also noted that from 1997 to 2005 the USMS IGA Audit Branch
performed its audits in the same manner as the OIG (that is, to determine if
IGA jail-day rates were based on actual and allowable costs). For example,
in a January 1998 audit of the [SENSITIVE INFORMATION REDACTED] Jail in
[SENSITIVE INFORMATION REDACTED], the USMS IGA Audit Branch
determined that a $65 temporary jail-day rate was not supported and that
the operating costs only supported a $37.95 jail-day rate. The USMS Audit

      9
       See Appendix VIII for a copy of the memorandum. The OIG’s response to the
memorandum is contained in Appendix IX.

                                       - viii -
                      REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

Branch recommended that the USMS “negotiate a revised jail-day rate based
on the information contained in this report and actual cost and prisoner
population data” and “remedy the $3,883,433 in questioned costs.”
Similarly, in an October 1999 audit of the [SENSITIVE INFORMATION
REDACTED] City Jail, the USMS IGA Audit Branch reported that the
supportable jail-day rate was $4.22 less per prisoner than the rate that was
in effect and concluded that the USMS had incurred $127,874 in additional
costs during FY 1998. Although no recommendations were developed, the
report stated that the information was provided for use in any future rate
negotiations and any collection efforts deemed appropriate.10

       In addition, we noted that the USMS has recovered overpayments
identified in previous OIG audit reports. For example, the USMS recovered
$156,000 in overpayments from the [SENSITIVE INFORMATION REDACTED]
Sheriff’s Office over an extended period – September 2000 through August
2004 – by reducing the jail-day rate of $32.97 by $1.17, until the $156,963
in overpayments was recouped. Similarly, as a result of our audit report on
the USMS’s IGA with [SENSITIVE INFORMATION REDACTED], the USMS
negotiated a 5-year repayment schedule over which the jail repaid over
$1 million. In addition, the USMS negotiated a reduced future rate.

      Resolution of Remaining OIG Open Audits

       As discussed above, the OFDT believes that the IGAs at issue are
fixed-rate contracts and that, accordingly, there is no basis in the
agreements to force the audited facilities to repay the overpayments
identified by the OIG. The OFDT therefore instructed the USMS not to seek
to recover these overpayments. However, the OIG believes that even if one
accepts the OFDT’s argument, its instruction not to seek the recovery of any
overpayment was overbroad and incorrect. Rather, we believe that the
USMS should address each audit individually and should remedy the
questioned costs identified by the OIG by either collecting overpaid funds;
providing documentation to support the existing IGA rate; adjusting the IGA
rate and offsetting future payments over a reasonable time; or
administratively waiving the questioned costs on a case-by-case basis,
based on the inability to collect the funds or other exigencies such as a lack
of other viable location, security problems, or significantly greater costs that
would result from changing facilities. In addition, the USMS should consider
whether, based on the audit findings, jail-day rates should be reduced
prospectively.

      10
           The USMS significantly decreased the number of audits it performed in 2005 due
to staffing shortages.

                                          - ix -
                       REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

Second Finding: Revamping the IGA Process

      Although this dispute over past IGAs remains unresolved, the OFDT is
now in the process of revising how IGA rates are calculated on the basis of
“price reasonableness” rather than costs. We describe in this section the
OFDT’s new IGA process, called eIGA.

        In April 2005, the OFDT formed an interagency working group to
review the costs associated with the use of state and local detention
facilities, and to standardize the process of entering into IGAs in an attempt
to ensure that the jail-day rates paid by the federal government were fixed,
fair, and reasonable, and would no longer be subject to adjustments based
on the actual costs of providing the service. According to the OFDT, fixing
the price for detention services would also “flatten out” budget predictions
by locking in rate adjustments at a set time, and would provide incentives
for jails to control costs. As a result of the working group’s efforts, the OFDT
has been pursuing changes to the IGA process by developing what it calls
the eIGA system.

      According to the OFDT, eIGA is an attempt to “e-gov” the IGA
application process.11 The OFDT stated that it believes that eIGA will
improve the process of establishing IGAs by providing an automated system
that establishes [SENSITIVE INFORMATION REDACTED] pricing for detention
space and services provided by state and local facilities. The core of eIGA is
an econometric statistical pricing model for determining a fixed-price
[SENSITIVE INFORMATION REDACTED]. The model starts with a
[SENSITIVE INFORMATION REDACTED] core jail-day rate that was calculated
using December 2003 IGA rates.12 That core rate is adjusted based on
various factors to arrive at an adjusted core rate (also known as the “should

       11
           The President’s management agenda includes an initiative to expand Electronic
Government (e-gov). The purpose of e-gov is to use internet-based technology to make it
easier for citizens and businesses to interact with the government.
       12
           As shown in Appendices VII and X, we have expressed concern with the
[SENSITIVE INFORMATION REDACTED] core rate because our individual IGA audits often
note significant variances between [SENSITIVE INFORMATION REDACTED] and the rates
supported by the detention facilities’ allowable costs and average daily populations.
According to the OFDT, the [SENSITIVE INFORMATION REDACTED] rate was used because
it was based on an entire year of data [SENSITIVE INFORMATION REDACTED]. The OFDT
acknowledged that the [SENSITIVE INFORMATION REDACTED] may not accurately reflect
each facility’s costs, but said it is the best data it has available. The OFDT also stated that
the core rate will be assessed and adjusted, if necessary, as eIGA is populated with expense
information.



                                            -x-
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

cost” rate). The adjusted core rate is provided to the USMS analyst, with
[SENSITIVE INFORMATION REDACTED], as shown in the following screen
shot:

                           Screen Shot of Rate Comparison13




       Source: OFDT

       According to the OFDT, once eIGA is operational, detention facilities
will electronically apply for an IGA by completing a short application that
describes the facility’s capacity and staffing, jail operating expense
information, services to be provided, oversight and accreditations, health
care policies, and a proposed IGA rate.

      A major change in this new approach is that unlike cost sheet data
that has been used historically to compute jail-day rates, jail-day rates
established using eIGA will not be based on a detention facility’s cost
information. Rather, the award will be determined by “price
reasonableness,” which will be calculated by comparing a detention facility’s
proposed rate to the adjusted core rate [SENSITIVE INFORMATION
REDACTED] generated by the eIGA model and the established rates of
similar facilities.

       According to OFDT, cost sheet data was not always reliable and did not
address whether a price paid in a geographical area was reasonable
compared to other facilities. For example, OFDT noted that some facility
administrators may pay salaries to individual employees in excess of the
norm for the facility, the county, or salaries generally paid in the correctional
field for such positions.14 Under the process historically used to establish
IGAs, the actual cost of the salaries, even if they are unreasonable in

       13
          In this screen shot, the core rate is presented after adjustments, also known as
the adjusted core rate.
       14
         For purposes of establishing an adjusted core rate, the OFDT said it uses
[SENSITIVE INFORMATION REDACTED].

                                           - xi -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

comparison to other county or correctional salaries in the regional area,
would be allowable on an IGA.

      In addition, according to the OFDT, under the eIGA process, if a jail
proposes a rate that far exceeds the adjusted core rate and the rate of
similar facilities, a USMS IGA analyst could “drill down” into the jail operating
expense information and compare salaries or overtime usage to that of
similar local facilities to determine the possible causes for the excessive
proposed rate. The OFDT believes that comparing proposed rates to the
rates of similar facilities will promote cost efficiencies.

       Under eIGA, although the USMS will negotiate jail-day rates with
individual jails, OFDT will review and approve each jail-day rate before any
rate is finalized. The OFDT intends for a complete record of the negotiation,
including a market comparison of jail rates and life cycle of each IGA, to be
documented in eIGA instead of the USMS’s current paper files.

       In addition, according to OFDT, jail-day rates established through eIGA
will be fixed for 36 months. Historically, jails were allowed to seek increases
to the jail-day rate after 1 year. Therefore, under eIGA jails will have an
incentive to control costs because they will not be allowed to request a rate
increase prior to 36 months unless there were major operational changes
with respect the USMS’s use of the jail. After 36 months, a jail seeking a
rate increase would have to reapply through eIGA.

OIG Concerns with eIGA

       According to the OFDT, the primary benefit of using the new process is
that an IGA analyst can compare the proposed and adjusted core rates to
the rates of similar facilities. The OFDT stated that in determining what is a
similar facility, emphasis will be placed on the relationship of a jail’s expense
information to that of other jails in the area (or within the state) that have a
similar population, security level, size, staffing, and correctional programs
offered. Additionally, when appropriate, a comparison to private and federal
jail-day rates will be performed.

      We believe that the eIGA concept is a positive step to improving the
process historically used to establish jail-day rates. As discussed further in
Finding III of this report, we identified significant deficiencies with how jail-
day rates were established and monitored in the past. However, because
eIGA is not yet operational, we were unable to test how jail-day rates will be
established using eIGA. In addition, the OFDT has not issued guidance on
how jail-day rates will be established using eIGA. According to OFDT, it

                                     - xii -
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

intends to develop a 16-hour training course and handbook on how to use
the system and perform a price analysis. As a result of these factors, it is
difficult to predict how successful eIGA will be once it is operational.

       During the course of this audit, the OIG had expressed concern that
the OFDT’s initial eIGA plan not to require state and local jails to submit
detailed cost information constituted a serious flaw in the OFDT’s revised
process.15 As a result of our concerns, and to adequately address the
applicability of the Service Contract Act, the OFDT added the jail operating
expense information to eIGA.16 With the addition of the jail operating
expense information, eIGA captures many cost sheet categories including
salaries and benefits, consultant and contract services, medical care and
treatment, facility and office, safety and sanitation, and insurance.
However, eIGA does not capture a jail’s average daily population, indirect
costs, or revenue generated from a detention facility’s operation (also known
as credits).

       We believe that the OFDT can improve eIGA to ensure that the USMS
is negotiating the best possible jail-day rates that will help control rising
detention costs by modifying the jail operating expense information to
capture a jail’s average daily population, indirect costs, and credits. In turn,
this information should be used to calculate a jail-day rate, based on costs,
that is presented to the IGA analysts as an additional field in the following
summary screen shot:




       15
          In prior memoranda, the OIG identified its specific concerns with the OFDT’s
proposed plans for revamping the process for establishing jail-day rates. See Appendices
VII and X for a copies of the memoranda.
       16
           The Service Contract Act requires contractors and subcontractors performing
services on prime contracts in excess of $2,500 to pay service employees in various classes
no less than the wage rates and fringe benefits found prevailing in the locality, or the rates
(including prospective increases) contained in a predecessor contractor’s collective
bargaining agreement. The Department of Labor issues wage determinations on a contract-
by-contract basis in response to specific requests from contracting agencies. These
determinations are incorporated into the contract.

                                           - xiii -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



                Summary Screen Shot of Negotiated Rate




        The OFDT stated that these will not be cost-based agreements, and
that cost and average daily population data change daily. As discussed in
Finding I, we recognize that OFDT and USMS may negotiate fixed–price IGAs
not based on costs. However, we believe the true measure of eIGA’s
success will be to compare the rates negotiated through eIGA to a detention
facility’s actual and allowable costs. Presenting the information captured in
the jail operating expense information portion of eIGA as a single rate will
give the USMS more evidence and leverage in its negotiations, and will help
ensure that negotiated jail-day rates are fair and reasonable. Presenting
this data is not difficult, can assist in reducing the jail-day rate paid by the
USMS, and could provide an important check on the price reasonableness
model as demonstrated in our review of jail-day rates that were established
using the eIGA pilot program.

        In addition, as shown by the above screen shot, the [SENSITIVE
INFORMATION REDACTED]. A detention facility potentially could earn
[SENSITIVE INFORMATION REDACTED]. This is possible because detention
facilities could [SENSITIVE INFORMATION REDACTED].

Piloting the Model for Establishing IGAs

       In September 2005, the OFDT and USMS began using the new eIGA
pricing model as part of a pilot process for awarding IGAs. However,
because the eIGA system is not operational, jails have continued applying
for jail-day rates using cost sheets, and the USMS has requested from OFDT
an adjusted core rate, similar to the eIGA rate, that is calculated manually
for each facility.

      USMS IGA analysts then determined price reasonableness by
comparing a requesting jail’s proposed rate to the adjusted core rate
provided by OFDT. Although USMS IGA analysts could have used the cost


                                    - xiv -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

sheets submitted by the jails as part of their analysis in determining price
reasonableness, we found that a cost sheet analysis by the USMS was not
always performed. Further, unlike the planned process for eIGA, a
comparison of proposed rates to similar facilities was not performed during
the pilot. The USMS has also continued to use the standard IGA language it
has used for years (that jail-day rates are established based on actual and
allowable costs associated with operating the facility).

      As of June 2006, the OFDT and USMS had used the model to award
approximately 90 IGAs as part of a pilot project. We judgmentally selected
11 of the 90 IGAs awarded and reviewed detailed documentation from OFDT
and the USMS to determine how the awarded rates compared to the cost-
based rate previously used in awarding IGAs. The following table shows our
results on how the awarded rate compared to the cost sheet rate, the
adjusted core rate, and the [SENSITIVE INFORMATION REDACTED]:




                                   - xv -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE



                      Sampled IGAs Awarded Using the Model17
                             Cost      [SENSITIVE     [SENSITIVE      [SENSITIVE
                Requested   Sheet     INFORMATION    INFORMATION     INFORMATION     Awarded
Facility Name     Rate      Rate18     REDACTED]      REDACTED]       REDACTED]       Rate
                            [SENSITIVE INFORMATION REDACTED]
[SENSITIVE                            [SENSITIVE     [SENSITIVE      [SENSITIVE
INFORMATION                           INFORMATION    INFORMATION     INFORMATION
REDACTED]          $64.32    $64.32   REDACTED]      REDACTED]       REDACTED]         $64.32
[SENSITIVE                            [SENSITIVE     [SENSITIVE      [SENSITIVE
INFORMATION                           INFORMATION    INFORMATION     INFORMATION
REDACTED]          $88.25    $85.52   REDACTED]      REDACTED]       REDACTED]         $85.52
[SENSITIVE                            [SENSITIVE     [SENSITIVE      [SENSITIVE
INFORMATION                           INFORMATION    INFORMATION     INFORMATION
REDACTED]          $75.00    $79.67   REDACTED]      REDACTED]       REDACTED]         $70.00
[SENSITIVE                            [SENSITIVE     [SENSITIVE      [SENSITIVE
INFORMATION                           INFORMATION    INFORMATION     INFORMATION
REDACTED]          $78.06    $68.46   REDACTED]      REDACTED]       REDACTED]         $65.00
                              [SENSITIVE INFORMATION REDACTED]
[SENSITIVE                            [SENSITIVE    [SENSITIVE       [SENSITIVE
INFORMATION                           INFORMATION   INFORMATION      INFORMATION
REDACTED]          $80.00    $76.68 REDACTED]       REDACTED]        REDACTED]         $80.00
[SENSITIVE                            [SENSITIVE    [SENSITIVE       [SENSITIVE
INFORMATION                           INFORMATION   INFORMATION      INFORMATION
REDACTED]          $61.42    $54.13 REDACTED]       REDACTED]        REDACTED]         $54.13
[SENSITIVE                            [SENSITIVE    [SENSITIVE       [SENSITIVE
INFORMATION                           INFORMATION   INFORMATION      INFORMATION
REDACTED]          $60.46    $56.28 REDACTED]       REDACTED]        REDACTED]         $51.16
[SENSITIVE                            [SENSITIVE    [SENSITIVE       [SENSITIVE
INFORMATION                           INFORMATION   INFORMATION      INFORMATION
REDACTED]          $50.00    $38.22 REDACTED]       REDACTED]        REDACTED]         $45.00
                             [SENSITIVE INFORMATION REDACTED]
[SENSITIVE                            [SENSITIVE     [SENSITIVE      [SENSITIVE
INFORMATION                           INFORMATION    INFORMATION     INFORMATION
REDACTED]          $85.00   $102.12   REDACTED]      REDACTED]       REDACTED]         $82.00
[SENSITIVE                            [SENSITIVE     [SENSITIVE      [SENSITIVE
INFORMATION                           INFORMATION    INFORMATION     INFORMATION
REDACTED]          $53.00    $54.28   REDACTED]      REDACTED]       REDACTED]         $44.97
[SENSITIVE                            [SENSITIVE     [SENSITIVE      [SENSITIVE
INFORMATION                           INFORMATION    INFORMATION     INFORMATION
REDACTED]          $77.34    $77.55   REDACTED]      REDACTED]       REDACTED]         $86.00
Source: OFDT and USMS




       17
            As a result of OFDT calculating the adjusted core rates incorrectly, the USMS
believed it was establishing jail-day rates that [SENSITIVE INFORMATION REDACTED] for
the facilities in our sample.
       18
           To arrive at a cost sheet rate, we reviewed the cost sheets and records of
negotiation that were prepared by the USMS IGA analysts. We further adjusted the total
allowable costs as appropriate and divided by the average daily population. In some cases,
the information presented did not provide us with enough information to evaluate the
allowability of costs contained on the cost sheets. Therefore, our calculation could vary
from a jail’s actual and allowable costs.

                                          - xvi -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

       Although eIGA will collect a jail’s cost information that will be used in
analyzing the proposed jail-day rate, the OFDT does not plan on presenting
this information to the IGA analysts as a single rate for comparison to the
proposed rate, adjusted core rate, and the rates of similar facilities. Our
review, however, revealed the benefits of presenting the cost information as
a rate to help establish a reasonable jail-day rate.

      •   [SENSITIVE INFORMATION REDACTED] - The USMS IGA analyst
          used the cost sheet as the basis for negotiations with the Center.
          The cost sheet supported a jail-day rate of $54.13, which was the
          rate offered to and accepted by the Center. The rate [SENSITIVE
          INFORMATION REDACTED] the OFDT provided adjusted core rate of
          [SENSITIVE INFORMATION REDACTED]. The Center had originally
          requested a jail-day rate of $61.42, which [SENSITIVE
          INFORMATION REDACTED] the adjusted core rate. However, the
          cost sheet provided by the Center only supported a rate of $54.13.
          Using this cost information, the USMS negotiated that rate.
          Without cost information, the USMS may have accepted the original
          rate of $61.42 as reasonable, based on the eIGA model, at an extra
          estimated cost to the taxpayer of almost $270,000 per year.

      However, it was not clear to us whether the USMS always analyzed
cost sheets or considered in negotiations for the jail-day rate both the cost
and the model-generated rate, as shown in the following example:

      •   [SENSITIVE INFORMATION REDACTED] - The USMS IGA analyst
          offered the [SENSITIVE INFORMATION REDACTED] $45 because it
          “[SENSITIVE INFORMATION REDACTED] ‘should cost’ rate.” There
          was no indication in the file that the IGA analyst reviewed the cost
          sheet. Our review of the cost sheet revealed that allowable costs
          only supported a rate of $41.64. In addition, the [SENSITIVE
          INFORMATION REDACTED] represented on the cost sheet that its
          average daily population was 660 inmates. However, we noted that
          [SENSITIVE INFORMATION REDACTED] presents an average daily
          jail population on its web site of 719. If the average daily
          population of 719 was used to calculate a jail-day rate, the jail-day
          rate would be $38.22, or 15 percent lower than the $45 jail-day
          rate that was awarded, resulting in possible additional costs to the
          USMS of about $148,000 per year.




                                    - xvii -
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

Third Finding: Improvements Needed in IGA Oversight

       As part of our audit, we also reviewed 34 additional IGAs that were
utilized by the USMS in establishing jail-day rates prior to the piloting of the
eIGA model. For each selected IGA, we reviewed cost sheets, records of
negotiations, and available cost and average daily population data utilized by
the USMS in establishing jail-day rates. For the IGAs we sampled, we found
that USMS IGA analysts generally reviewed cost sheets and documented
their analysis of the costs in establishing jail-day rates. Additionally, the
USMS IGA Audit Branch sometimes performed detailed pre-award reviews of
the detention center’s costs that were used by the USMS IGA analysts to
establish jail-day rates based on actual and allowable costs. For example,
the [SENSITIVE INFORMATION REDACTED] submitted a cost sheet to the
USMS on March 1, 2000, based on FY 1999 costs, requesting a rate of
$103.27. The USMS conducted an audit of the cost sheet and developed an
audited rate of $84.39, which the USMS used in the IGA awarded to
[SENSITIVE INFORMATION REDACTED] in September 2000.

      The USMS pre-award audits also allowed the USMS to identify
unallowable costs and establish jail-day rates based on actual and allowable
costs. However, according to the USMS, a pre-award audit of new IGAs or
rate changes to existing IGAs is not always possible due to staffing and
budget constraints. But in the absence of pre-award audits, we often found
unallowable costs such as transportation salaries and interest; cost sheets
that contained cost and average daily population that did not support the
requested rate; and understated average daily population numbers.

      An example of an IGA that resulted in a jail-day rate that exceeded
allowable costs is [SENSITIVE INFORMATION REDACTED]. The USMS
provided a temporary rate increase to the [SENSITIVE INFORMATION
REDACTED] for $49.84 effective February 1, 2003, pending the results of a
planned USMS audit.19 On May 23, 2003, the USMS issued an audit report
that supported a lower rate of $40.49. Although a lower rate was
recommended, a modification to lower the rate was not implemented until
May 2, 2005. According to the IGA Manual, temporary rates can be in effect
for up to 12 months pending receipt and review of actual cost data.
However, this temporary rate was in effect for 27 months.




      19
           A temporary rate is established when a facility does not have a prior cost history.

                                           - xviii -
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

      USMS officials told us that the lower rate was not immediately
implemented because of a backlog of IGA actions. Further, an IGA analyst
told us that the modification was not immediately implemented because the
U.S. Marshal in this district did not want the lower rate implemented. Based
on the USMS’s use of this jail since the effective date of the rate increase,
we estimate that the USMS may have paid an additional $590,892 for bed
space for FYs 2003 through 2005.

       According to USMS officials we interviewed, detention facilities fight for
every penny when entering into an IGA, especially if they know there is a
limited supply of bed space in their geographical area. Further, a USMS
official stated that the USMS competes with ICE and state governments for
the same bed space, and that ICE pays more and guarantees the use of its
bed space, while the USMS does not. As a result, detention facilities often
give priority to ICE detainees. According to the USMS, jail-day rates that
exceed allowable costs are occasionally established to appease the local
detention officials. Moreover, due to the shortage of federal detention
space, the USMS is under pressure to obtain detention space from state or
local facilities near federal courthouses. Paying a nearby detention facility a
higher rate may appear preferable to the operational and logistical costs of
using a more distant but less expensive facility. However, we believe that
allowing payment for services to appease a state or local jail keeper will
result in similar demands for payment from other localities that in the past
agreed to be reimbursed on the basis of actual costs.

       We recognize that OFDT is revamping the process for procuring
detention space, as described above in the eIGA section. However, we
believe that continued improvements are needed in policies and procedures,
training, and defining responsibilities for establishing and monitoring IGAs,
regardless of the implementation of the new system, for the reasons
described below.

Policies and Procedures

      The guidance available to the IGA analysts and district personnel for
reviewing IGAs include the USMS IGA Manual, the USMS Directives, the
instructions that are provided with the cost sheet, OMB Circular A-87, and an
OFDT memorandum to the Deputy Attorney General on implementing
Section 119, dated August 1, 2002. In our judgment, the OFDT’s and
USMS’s policies and procedures must be an integral part of their financial
and business practices for awarding and monitoring IGAs. They must
contain measures for: (1) protecting resources against waste, fraud, and



                                     - xix -
                     REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE

inefficiency; (2) ensuring accuracy and reliability in financial and operating
data; (3) securing compliance with policies; and (4) evaluating performance.

      Our review found that the OFDT has not yet issued any policies and
procedures related to the new eIGA process. Because the new process
involves significant changes from past practices, we believe that the OFDT
should issue detailed guidance on awarding IGAs through eIGA before it
becomes operational.

      Our review also found that the USMS did not always adequately
document its decisions for establishing jail-day rates. Without adequate
documentation of how a jail-day rate was established, neither the USMS,
OFDT, nor the OIG can determine whether the USMS paid a reasonable jail-
day rate. For example, the IGA Manual does not address how non-cost
factors such as a need to alleviate a critical shortage of jail space in a district
should be valued in establishing jail-day rates.

     We believe the new policies and procedures should include clear
guidance on the following:

      •    how to negotiate with detention facilities;

      •    clearly documenting the basis for negotiated jail-day rates;

      •    evaluating cost and non-cost factors;

      •    when it is appropriate to deviate from the model and how
           deviations will be documented;

      •    defining, evaluating, and documenting the analysis of established
           rates of similar facilities in justifying a jail-day rate; and

      •    limitations on profit that should be included in IGAs.

Training

       Although IGA analysts collectively commit the USMS to pay state and
local detention facilities hundreds of millions of dollars annually, most of the
USMS IGA analysts told us their training was not adequate for their level of
responsibility. USMS IGA analysts play an important role in ensuring that
detention space is obtained at the best jail-day rate possible, and we believe
annual training plans should be developed for them to provide appropriate



                                      - xx -
                      REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

procurement competencies, such as those outlined by the Federal Acquisition
Institute (FAI).20

Defining Responsibilities for Establishing and Monitoring IGAs

     USMS District personnel and the Programs and Assistance Branch
(PAB) at USMS headquarters share responsibility for establishing and
monitoring IGAs. We found that the oversight of IGAs by USMS Districts and
USMS Headquarters was deficient.

       District Responsibilities

       The USMS Directives state that each U.S. Marshal will review the cost
sheets for completeness and accuracy of information (particularly staffing
levels and types of services provided). We interviewed personnel from the
USMS districts of Eastern Virginia, Northern Georgia, Western Texas,
Nevada, and Western North Carolina, and found that four of these five
district offices performed no review of the cost sheets. District officials from
Northern Georgia told us that they reviewed cost sheets, but qualified their
response by saying that they only review the cost sheets for “obvious
errors.”

       In addition, we found that none of the five districts performed post-
award monitoring of detention center costs or expiration dates. As a result,
we queried the USMS’s “Prisoners” database for expired IGAs.21 We
identified 451 IGAs that had expiration dates, of which 330 had expired as of
January 31, 2006. Of the 330 expired IGAs, we identified 157, 216, and 300
IGAs that were expired as of the end of FY 2003, 2004, and 2005,
respectively. We estimated that the USMS made over $175 million in
payments on the expired IGAs during FYs 2003 through 2005.




       20
            In 1976, Congress established FAI under the Office of Federal Procurement Policy.
The General Services Administration acts as its executive agent, providing funding and
support for FAI. The mission of FAI is to foster and promote the development of a
professional acquisition workforce. The FAI details a blueprint for training and development
of skills for procurement officials, such as developing, negotiating, and managing business
deals, communicating effectively, and analyzing and understanding the marketplace.
       21
          “Prisoners” is an Access database that the USMS maintains on detention facilities
used to house detainees. The database includes IGA agreements, private contracts for
prisoner bed space, and federal detention centers.

                                          - xxi -
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

      Programs and Assistance Branch Responsibilities

       The Programs and Assistance Branch (PAB) is the USMS headquarters
section responsible for awarding and overseeing IGAs. Despite the
increasing need for detainee bed space, staff reductions in the USMS’s PAB
has significantly limited the USMS’s ability to review and follow up on IGA
issues. We reviewed PAB staffing reports from 1999 through 2006 and
found that authorized staff levels dropped from 11 full-time equivalents
(FTEs) with 2 vacancies in 1999 to 6 FTEs with 3 vacancies in 2006.
Further, the number of audits performed by the USMS IGA Audit Branch
decreased from 29 audits in 2003, to 16 in 2004, to 1 audit in 2005. While
the PAB was not the only division to lose FTEs due to USMS budget cut
backs, the decline in the number of audits performed by the Audit Branch
placed an increasing burden on IGA analysts to identify unallowable costs
prior to the establishment of a jail-day rate.

      With limited staffing, the PAB had not conducted sufficient post-award
IGA monitoring. According to PAB officials, once an IGA is in place, it usually
remains in place at the initial jail-day rate until the detention center requests
an increase in the rate. As a result, there was no monitoring of IGAs after
award, and an IGA could remain in place indefinitely without the USMS
knowing if a rate change was warranted. Yet, after an IGA is awarded,
conditions may change that warrant a reduction in a jail-day rate. For
example, in our audit of the [SENSITIVE INFORMATION REDACTED], the
original FY 1996 cost sheet was based on an average daily population of
244.22 However, in FY 2004, the average daily population was 877, an
increase of 260 percent. This resulted in an audited rate that was $17 less
than the rate paid by the USMS, for total unallowable and unsupported costs
of over $5 million for 2 years.

       Although PAB officials suggested to us that each district is in the best
position to monitor IGAs, they also told us that districts may not report
issues that could result in the IGA rate decreasing, especially if they believe
the issue may result in the cancellation of an IGA. If a detention center
cancels an IGA, the USM would have to find a new facility to house
detainees, which may be less convenient than the detention center being
used. PAB officials told us that the USMS districts do not want to “stir up the
pot,” especially if they need the bed space.



      22
          Department of Justice, Office of the Inspector General. Audit Report Number GR-
60-06-002, The United States Marshals Service Intergovernmental Agreement for Detention
Services with the [SENSITIVE INFORMATION REDACTED].

                                        - xxii -
                       REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

        We recognize that monitoring IGAs to ensure that the cost and
average daily population continue to reflect an appropriate jail-day rate will
no longer be an issue if all future IGAs are awarded under the eIGA process.
However, districts will continue to play an important role in identifying
detention facilities that meet USMS standards and can support the district’s
detention requirements. We believe district and PAB responsibilities need
clarification on the new process, especially those pertaining to the policies
and procedures for establishing rates and monitoring expiration.

Conclusion

      Rising detention population and costs presents a challenge to the
DOJ’s ability to obtain affordable bed space for individuals not housed in
federal facilities. We recognize that there are significant pressures on the
USMS to obtain detention space through state and local facilities. However,
allowing payment for services that far exceed costs, without adequately
analyzing and documenting price reasonableness and cost, could exacerbate
the continuing escalation in detention costs nationwide. Because DOJ’s
current detention budget exceeds $1 billion, the long-term budget
implications of IGA policies are substantial.

      The OFDT and USMS are moving away from their past policy of
reimbursing state and local jails at a rate based on their allowable costs to a
system that will set a fixed jail-day rate that allows for payments to state
and locals above their allowable costs. To help in setting the new fixed
rates, the OFDT has developed a pricing model that takes into account
certain cost variables. The OFDT stated that the primary benefit of using the
new process is that an IGA analyst will compare the proposed and adjusted
core rates to the rates of similar facilities. We believe that the eIGA concept
is a positive step to improving the process previously used to establish jail-
day rates. Yet, we believe that OFDT can improve eIGA to ensure that
USMS negotiations help control rising detention costs. Although eIGA will
capture many of the cost sheet categories, it will not capture a jail’s average
daily population, indirect costs, or credits, which are needed to compute a
detention facility’s costs. We believe that the OFDT should modify eIGA to
capture this information, and present this information to the IGA analysts as
a cost-based rate because the true measure of eIGA’s success will be to
compare the rates negotiated through eIGA to a detention facility’s actual
and allowable costs. Presenting the cost information as a single rate will
give the USMS more evidence and leverage in its negotiations, and will help
IGA analysts establish fair and reasonable jail-day rates.




                                   - xxiii -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

Recommendations

       As a result of our review, we make 10 recommendations regarding the
OFDT’s and the USMS’s oversight of IGAs. The recommendations include
addressing each open recommendation from prior OIG audits of IGAs, which
collectively contains dollar-related findings of $37 million; modifying eIGA so
that it presents a jail-day rate to the IGA analysts based on the actual and
allowable costs of the jail; developing guidance and training on how jail-day
rates will be established using eIGA; developing guidance that limits the
amount of profit a state or local jail can earn for housing federal prisoners;
and developing annual training plans for IGA analysts that will provide
appropriate procurement core competencies.




                                    - xxiv -
                    REDACTED FOR PUBLIC RELEASE
                           TABLE OF CONTENTS
                                                                               Page
INTRODUCTION.........................................................................1
Role of OFDT ............................................................................ 1
Role of the USMS ...................................................................... 2
Funding Detention Growth.......................................................... 3
Establishing an IGA ................................................................... 5
Prior Audits .............................................................................. 7
Audit Approach ......................................................................... 8
FINDINGS AND RECOMMENDATIONS ........................................... 9
I.    DISPUTE OVER DETENTION SPACE OVERPAYMENTS ................ 9
      OFDT Position................................................................... 10
      OIG Position..................................................................... 11
      Conclusion ....................................................................... 16
      Recommendation .............................................................. 17
II.   OFDT’S NEW IGA PRICING PROCESS ................................... 18
      Revamping the Process for Procuring Detention Space ........... 18
      Establishing IGAs with eIGA ............................................... 22
      OIG Concerns with eIGA .................................................... 24
      Piloting the Model for Establishing IGAs................................ 26
      Conclusion ....................................................................... 29
      Recommendations ............................................................ 30
III. IMPROVEMENTS NEEDED IN IGA OVERSIGHT ....................... 31
      Unsupported Jail-Day Rates................................................ 31
      Policies and Procedures ..................................................... 36
      Training........................................................................... 38
      Defining Responsibilities for Establishing and
      Monitoring IGA Costs......................................................... 40
      Conclusion ....................................................................... 43
      Recommendations ............................................................ 45


                     REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE



STATEMENT ON INTERNAL CONTROLS ....................................... 46
STATEMENT ON COMPLIANCE WITHLAWS AND REGULATIONS ...... 47
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............. 48
APPENDIX II - OFDT FUNCTIONAL AREAS................................... 52
APPENDIX III - IGA-RELATED USMS FORMS ............................... 53
APPENDIX IV - SCHEDULE OF DOLLAR-RELATED FINDINGS FOR
               PRIOR AUDIT REPORTS .................................... 75
APPENDIX V - SUMMARY OF IGA REPORTS ISSUED BY THE OIG .... 77
APPENDIX VI - DETENTION TRUSTEE MEMORANDUM TO OIG
              (MARCH 17, 2006) ............................................. 97
APPENDIX VII - OIG RESPONSE TO THE DETENTION TRUSTEE
               (JUNE 6, 2006)............................................... 102
APPENDIX VIII - PRIOR DETENTION TRUSTEE MEMORANDUM
                (AUGUST 1, 2002) ......................................... 107
APPENDIX IX - OIG RESPONSE TO THE PRIOR DETENTION
              TRUSTEE’S MEMORANDUM
              (SEPTEMBER 18, 2002) .................................... 114
APPENDIX X - MANAGEMENT INFORMATION MEMORANDUM
             PROPOSAL FOR ACQUISITION OF
             DETENTION SPACE ........................................... 119
APPENDIX XI - OFDT RESPONSE TO THE DRAFT AUDIT REPORT .. 122
APPENDIX XII - USMS RESPONSE TO THE DRAFT AUDIT REPORT . 126
APPENDIX XIII - OFFICE OF THE INSPECTOR GENERAL
                ANALYSIS AND SUMMARY OF ACTIONS
                NECESSARY TO CLOSE REPORT ...................... 130




                  REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


                                 INTRODUCTION

       The Department of Justice (DOJ) is responsible for confining federal
detainees awaiting trial and sentencing. Federal detainees are generally
individuals housed in jails while awaiting trial or sentencing. In contrast,
federal prison inmates are generally individuals serving a sentence of
imprisonment after conviction for a violation of the federal criminal code.
According to the DOJ strategic plan, two strategies to achieve DOJ’s
confinement responsibilities are to:

      •    Acquire needed detention space through a multi-pronged approach
           that includes agreements with state and local governments,
           contracts with private vendors, construction and operation of
           federal detention facilities, and the use of alternatives to detention;
           and

      •    Improve management of detention resources through more
           accurate forecasting of detention needs, better coordination,
           strengthened oversight, and other means.

      Two DOJ components have key roles in the detention of federal
detainees – the Office of the Federal Detention Trustee (OFDT) and the
United States Marshals Service (USMS).

Role of OFDT

      Historically, federal detention within DOJ was the responsibility of both
the USMS and the Immigration and Naturalization Service (INS). The OFDT
was created in fiscal year (FY) 2001 to manage DOJ’s detention resources
and coordinate its detention activities.23 In March 2003, the INS was
transferred into the Department of Homeland Security (DHS). Much of the
INS detention responsibilities were included in DHS’s Bureau of Immigration
and Customs Enforcement (ICE). As directed by Congress, the initial
objective of the OFDT was to centralize responsibility for detention in order
to better manage and plan for needed detention resources without unwanted
duplication of effort or competition with other DOJ components.



      23
           The OFDT is authorized 21 employees who are responsible for budget formulation
and execution, information technology, procurement, detention standards, legal advice, and
management and administration. See Appendix II for more information on the OFDT’s six
functional areas.



                                          –1–
                       REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

      Beginning in the spring of 2003, OFDT and ICE officials met to discuss
centralized oversight of detention by the OFDT through the formation of an
Interagency Agreement (IAA), but they could not agree on the terms.
Consequently, in September 2003 the Office of Management and Budget
helped with the negotiations, and in November directed ICE to sign an IAA.
Although the OFDT has an IAA with ICE, the OFDT stated that ICE
infrequently uses OFDT’s services (e.g., negotiate and manage contracts for
private detention beds). According to the OFDT, it has no leverage to force
ICE to use its services.

Role of the USMS

      The USMS is responsible for housing and transporting federal
detainees from the time they are brought into federal custody until they are
either acquitted or incarcerated.24 As shown in the following graph, due to
the shortage of federally owned detention space, the USMS heavily depends
on state and local governments to provide detention space and services:




       24
            The Federal Bureau of Prisons (BOP) plays a supporting role by housing a portion
of the federal detainee population in BOP detention centers and in detention units in other
correctional facilities. The BOP’s primary responsibility is incarceration of inmates serving a
sentence of imprisonment after conviction for a violation of the federal criminal code.
Detention differs markedly from incarceration in terms of population stability. Detention is
temporary in nature and requires the frequent movement of detainees in and out of
facilities, while incarceration is more long-term and involves less movement of individuals.

                                            –2–
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE




      Source: OFDT

      As of February 2006 the USMS had approximately 1,600 active
Intergovernmental Agreements (IGA) with state and local governments to
rent jail space.

Funding Detention Growth

      A significant challenge presented by rising detention populations is
DOJ’s ability to obtain affordable bed space for individuals housed in non-
federal facilities. The cost of detention has been rising rapidly, and during
FYs 2003 – 2005 the funds budgeted for detention fell short of the amount
needed to fully fund the DOJ’s detention activities. DOJ officials attributed
the shortfalls to significantly inaccurate budget projections. According to
these officials, new law enforcement initiatives, policies, and laws caused an
increased number of arrests, which exceeded the forecasts used to calculate
budget requests. The following table compares the detention budget and
average daily population from FY 2002 to FY 2006.25




      25
           Detainee housing and subsistence constitute most of the program costs.

                                          –3–
                        REDACTED FOR PUBLIC RELEASE
                                   REDACTED FOR PUBLIC RELEASE

                         Comparison of Detention Funding and Average Daily Population

                             Additional                         Percent of Initial Budget    Average Daily        Rate of
         Initial Budget                     Total Budget (in
                              Funding                          Increase/(Decrease) over       Population        Population
Fiscal                                          millions)
         (in millions)                                         Previous FY Total Budget                          Increase
Year                        (in millions)                                                   (all Detention)26

2002         $706                                $706                                           40,114

2003         $773               $40              $813                      9                    43,984             10

2004         $805              $109              $914                     (1)                   49,405             12

2005         $874              $184             $1.058                    (4)                   53,446              8

2006        $1.16                                $1.16                    10                    57,000              7

     Source: OFDT

           The table shows that while the detention budget and average daily
     population increased at about the same rate from FY 2002 to FY 2003,
     $40 million in supplemental funding was needed to rectify the shortfall.
     From FY 2003 to FY 2004, the average daily population increased 12
     percent, while the detention budget was initially funded at $8 million less
     than the previous year’s budget including the supplemental funding. As a
     result, in FY 2004 $109 million had to be reprogrammed from other
     Department accounts to fund the detention shortfall. In FY 2005, the
     average daily population increased 8 percent, while the initial detention
     budget decreased 4 percent from total FY 2004 funding. In an effort to
     manage the shortfall, the OFDT imposed a temporary moratorium on new
     IGAs and on rate increases on February 4, 2005. The OFDT lifted the
     moratorium in June 2005, when the FY 2005 shortfall was eliminated with
     the receipt of $184 million in supplemental funding. In FY 2006, the
     detention budget was funded at $1.16 billion, which was a 10 percent
     increase over the total FY 2005 funding.

           Almost 75 percent of the DOJ’s detention budget is spent on IGAs. As
     shown in the following chart, IGA costs rose at a faster rate than the
     average daily population during FYs 2001 – 2004, but slowed during FY 2005
     in part due to the OFDT’s moratorium.




             26
                The average daily population (all detention) represents detainees housed in state
     and local facilities using IGAs, private contractor facilities, and BOP facilities.



                                                         –4–
                                   REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE




       Source: OFDT

       According to the OFDT, its efforts to reduce detention costs focused on
decreasing the amount of time individuals spend in detention after
sentencing. As discussed in this report, we also believe that the OFDT and
USMS could realize significant additional cost savings if they addressed
deficiencies in how prices are set in individual IGAs established with state
and local law enforcement agencies for detention bed space.

Establishing an IGA

       IGAs are initiated by a USMS district office based on the district’s need
for detainee bed space.27 According to a USMS Detention Facility Contracting
Policies and Procedures Directive, each United States Marshal (USM) should
assess their district detention requirements and: (1) identify potential state
or local detention facilities that meet USMS prisoner detention standards and
are willing to support the district's detention requirements; (2) coordinate
with the BOP, the Department of Homeland Security (DHS) Bureau of
Immigration and Customs Enforcement (ICE), and other USMS districts to

       27
          The geographical structure of the USMS mirrors the 94 federal judicial districts of
the United States, including at least one district in each state, the District of Columbia, the
Commonwealth of Puerto Rico, and three territories of the United States – the Virgin
Islands, Guam, and the Northern Mariana Islands.

                                            –5–
                         REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE

see if they have prisoner detention bed space within the district; and
(3) contact facilities by location, capability, and types of detention services
to determine if they are interested in housing federal detainees.

      If a state or local detention facility is interested in housing federal
detainees, the USM will conduct an initial on-site inspection of the facility to
determine compliance with USMS detention standards.28 In addition, the
USM will provide the detention facility with a sample IGA for review, an
instruction booklet on how to complete a Form USM-243 “Cost Sheet for
Detention Services” (cost sheet), and a cost sheet form.29 The USMS also
provides the detention facility with Office of Management and Budget (OMB)
Circular A-87.30 As discussed in Finding II, however, the OFDT is in the
process of developing an automated system known as eIGA that will be used
by state and local governments to apply for an IGA. Using the new system,
state and local governments will no longer apply for an IGA using a cost
sheet.

       According to the current USMS Intergovernmental Agreement Program
Policies and Procedures Manual (IGA Manual), a detention facility interested
in housing federal detainees is supposed to complete a cost sheet as part of
the application process. A cost sheet requests information on actual cost,
prisoner population, the detention facility’s proposed rate (also known as a
jail-day rate), a local government contact, and certification statements. A
jail-day rate is the equivalent of one person detained for one day and begins
on the date of arrival, but does not include the date of departure.

     Once the cost sheet is completed, the detention facility forwards it to
the USMS district office for review. The district office will then submit an
IGA package, which includes a completed Request for Detention Space

       28
          The USMS prisoner detention standards require that the detention facility have
24-hour staffing at the facility, adequate meals, medical coverage, fire and emergency
plans, security, sanitation and hygiene services, and suicide prevention programs.
       29
            See Appendix III for an example of a cost sheet form and instructions.
       30
           OMB Circular A-87 establishes the principles and standards for determining
allowable costs associated with cost-reimbursement contracts and other agreements for
goods and services obtained by the federal government from state, local, and federally
recognized Indian tribal governments. As discussed further in Finding I, the cost sheet
instructions and the IGAs state that OMB Circular A-87 is the criteria used in evaluating
whether IGA costs are allowable and reasonable. In order to obtain needed detention
space, DOJ received an OMB exemption from the Federal Acquisition Regulation (the policies
and procedures for acquisitions by all executive agencies). The exemption covered only the
reimbursement of costs for detention services subject to OMB Circular A-87.

                                            –6–
                          REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

(USM-242), a Detention Facility Inspection Report (USM-218), and the
completed cost sheet (USM-243), to the Programs and Assistance Branch
(PAB) at USMS headquarters for evaluation of costs and average daily
population.

      At the PAB, an IGA analyst reviews the cost sheet for cost allowability,
and accuracy of capacity and average daily population figures. Based on the
cost sheet information, the IGA analyst will then discuss a jail-day rate with
a detention facility official. An IGA is usually indefinite in term until it is
terminated by either the detention facility or the USMS.

       According to a PAB official, however, detention facilities hold out for
higher jail-day rates if they know there is a limited supply of bed space in
their geographical area. Further, this PAB official stated that the USMS
competes with ICE and state governments for the same bed space, and that
ICE pays more and guarantees the use of its bed space, whereas the USMS
does not. This PAB official also stated that detention facilities often give
priority to ICE detainees, and the operational factors do not always lend to
setting rates based on costs.

Prior Audits

       Since 1995, the Office of the Inspector General (OIG) has audited 31
individual IGAs. These audits often concluded that the USMS had
significantly overpaid state and local governments. In total, the OIG
reported dollar-related findings of almost $60 million in these 31 audits. The
following are examples of findings from some of our prior audit work:

      •   [SENSITIVE INFORMATION REDACTED]. Our audit revealed
          that the [SENSITIVE INFORMATION REDACTED] had not prepared a
          cost sheet to support its jail-day rate. Further, the audit concluded
          that [SENSITIVE INFORMATION REDACTED] had costs to support a
          jail-day rate that was about $17 less per day than the paid rate,
          resulting in overpayments of almost $1.8 million during calendar
          years 2000 and 2001.

      •   [SENSITIVE INFORMATION REDACTED]. Although the USMS
          paid the [SENSITIVE INFORMATION REDACTED] a jail-day rate of
          $50, our audit of [SENSITIVE INFORMATION REDACTED] costs
          revealed that the [SENSITVE INFORMATION REDACTED] FY 2003
          allowable costs supported a jail-day rate of $30.62, resulting in
          overpayments of more than $2.8 million during FYs 2003 and 2004.



                                     –7–
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

       •    [SENSITVE INFORMATION REDACTED]. Our review of the costs
            and inmate population listed on the cost sheet concluded that a
            $52.26 jail-day rate was supported, while the USMS paid the
            [SENSITVE INFORMATION REDACTED] $65 per jail day, resulting in
            overpayments totaling almost $2.9 million for FYs 2004 and 2005.

      In addition, the OIG conducted an audit of the OFDT in December
2004 which found that, although the OFDT had been in place for almost 4
years, it had not completed the goal of centralizing and overseeing DOJ’s
detention activities.31 The former INS’s transfer to the DHS in March 2003
and leadership vacancies had complicated the OFDT’s ability to build a firm
foundation with a clearly defined organizational purpose. The OIG report
made 11 recommendations to OFDT to assist in improving its management
of detention activities. Eight of the recommendations are closed, while
corrective action is still in process for the remaining three.32

Audit Approach

      The objective of this audit was to determine if the USMS and OFDT
employed an effective monitoring and oversight process for IGAs. Appendix
I contains more information on our objectives, scope, and methodology.

      Our report contains three main findings. The first discusses a dispute
between the OFDT and the OIG regarding past OIG audits that found
overpayments made to state and local jails for detention space. The second
finding concerns the OFDT’s revamping of IGA pricing through an
econometric statistical pricing model. The third finding discusses needed
improvements in the areas of policies and procedures, training, and defining
responsibilities for establishing and monitoring IGAs.




       31
          Department of Justice, Office of the Inspector General. Audit Report Number 05-
04, Audit of the Department of Justice Office of the Federal Detention Trustee, December
2004.
       32
           The recommendations to DOJ and OFDT that are still open include clearly
identifying the OFDT’s mission and responsibilities, examining the policies and practices
regarding IGAs to develop additional areas in which detention costs can be reduced, and
developing a plan for reviewing and verifying the allowability of costs associated with
individual IGAs.

                                           –8–
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                     FINDINGS AND RECOMMENDATIONS

  I. DISPUTE OVER DETENTION SPACE OVERPAYMENTS

       We believe the OFDT and USMS should individually address each
       of the OIG’s prior audits to determine if the overpayments
       identified by the OIG can be recovered or offset against future
       payments. The OIG has completed 31 individual IGA audits
       since 1995 and reported overpayments totaling almost
       $60 million, of which $37 million remains unaddressed by the
       USMS. In March 2006, the OFDT advised the USMS to not seek
       the recovery of significant overpayments identified by these OIG
       audits. The OFDT’s position is that the IGAs audited by the OIG
       were negotiated using fixed-price contracts that do not have to
       be based solely on costs. In contrast, the OIG concluded the
       audited IGAs were agreements based on actual and allowable
       costs, and that even if the IGAs are fixed-price agreements as
       the OFDT contends, it may still be appropriate to recover
       overpayments based on the circumstances of each case.
       Accordingly, the OIG believes that the OFDT’s instruction to the
       USMS not to do so was overbroad and incorrect.

      The main objectives of the 31 prior IGA audits conducted by the OIG
were to determine whether: (1) information contained in the cost sheet for
detention services was accurate, complete, and supported by adequate
documentation; and (2) the jail-day rate was supported by adequate
documentation and was based on actual and allowable costs in accordance
with applicable laws, regulations, guidelines, and terms and conditions of the
IGA.

       For the IGAs reviewed in these 31 audits, the USMS paid over $182
million to state and local officials to house federal detainees. Our audits
identified approximately $38 million in either unallowable or unsupported
costs, and recommended that about $22 million be put to a better use. Of
these amounts, $37 million remains unaddressed by the USMS.33


       33
           Appendix IV presents our schedule of our dollar-related findings and highlights
the specific audits that remain unaddressed by the USMS. Our presentation of prior audit
results is generally limited to the findings and recommendations pertaining to the USMS. In
addition to the USMS, our individual audits contained an additional $20 million in dollar-
related findings related to the former INS and BOP. Appendix V provides a summary of
each IGA report issued by the OIG.



                                          –9–
                        REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE

       However, on March 17, 2006, the OFDT advised the USMS to refrain
from seeking reimbursement of the overpayments identified in our audits.34
In this section of the audit report, we present the issues involved in the
disagreement between OFDT and the OIG. As discussed below, the OFDT
believes the audited IGAs were negotiated fixed-price contracts that did not
have to be based solely on costs. The OIG believes the audited IGAs were
agreements based on actual and allowable costs and that, even if they are
considered fixed-price contracts, it may be appropriate to recover the
overpayments based on the circumstances of each case.

OFDT Position

       According to the OFDT, the USMS negotiated fixed jail-day rates that
do not limit the state or local government to the reimbursement of actual
costs. The OFDT believes that although cost data provided by a state or
local government was used as the basis for price negotiation, once the USMS
accepted jail-day rates, even if they exceeded costs or resulted in profits for
the state or local government, the fixed rate was established and should not
be recovered based on subsequent audits.

      The OFDT bases its determination that the USMS IGAs are fixed-price
contracts on a legal opinion from the DOJ’s Office of Legal Counsel (OLC).
This opinion concluded that Section 119 of Public Law 106-553 (also known
as the 2001 Department of Justice Appropriation Act) confers authority on
the Attorney General to enter into fixed price detention agreements. Section
119 provides:

             Notwithstanding any other provision of law, including
             section 4(d) of the Service Contract Act of 1965 (41 U.S.C.
             353(d)), the Attorney General hereafter may enter into
             contracts and other agreements, of any reasonable
             duration, for detention or incarceration space or facilities,
             including related services, on any reasonable basis.

      With OLC clarification of the issue, the OFDT concluded that the IGAs
now in place do not limit state or local governments to the reimbursement of
costs. The OFDT further stated that because the IGAs we audited typically
describe the unit price the federal government will pay as a “fixed rate,” and
costs were only one factor considered in determining this rate, the
overpayments identified by the OIG audits are not recoverable. As a result,

      34
         See Appendix VI for a copy of the current Detention Trustee’s memorandum,
dated March 17, 2006.

                                       – 10 –
                      REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

in the May 17, 2006, memorandum the OFDT “advised the USMS to refrain
from seeking reimbursement of overpayments.” In a subsequent
memorandum to the USMS, dated April 26, 2006, the OFDT reiterated its
position that the USMS should refrain from collecting any overpayments
unless the detention facility engaged in fraudulent conduct. In addition, the
OFDT has “directed the USMS to immediately negotiate with the jails to
incorporate core rates which recently have been established as part of an
initiative to implement an indexed fixed-price method for obtaining jail beds
from state and local governments.”

      Recently, in response to a request from the OFDT, the General Counsel
for the Justice Management Division (JMD) reviewed the IGAs audited by the
OIG and issued a legal opinion stating that the IGAs are “fixed price
agreements that do not contain a basis for the Department to seek
retroactive price adjustment. . . ” as a matter of contract law. However, the
JMD General Counsel acknowledged that depending on the circumstances of
each case, the Department may have a legal remedy for recovering
overpayments where a state submitted inaccurate cost information during
the IGA formation process. In addition, he noted that nothing in the
agreements prohibits the DOJ from seeking a prospective rate adjustment.

OIG Position

       The OIG disagrees with the OFDT’s and JMD’s conclusion that the IGAs
at issue are fixed-rate agreements based on factors other than cost. We do
not dispute that, at least since the passage of Section 119, the USMS has
the authority to enter into IGAs based on other factors, and that profit may
be included in the calculation of the IGA rate. However, the OIG does not
agree that the USMS exercised its authority to do so for past IGAs, including
the 31 that were the subject of the OIG audits.35 Indeed, even the OLC
opinion on which the OFDT relies describes the IGAs that pre-date passage
of Section 119 as having “typically set compensation for these services at
the cost actually incurred by the provider.” The OIG believes that the term
“fixed rate” described the unit price to be paid in IGAs, but that it was
calculated based on the state or local government providing an accurate
description of its allowable costs. Moreover, the term was used in the
agreements well before passage of Section 119, and its meaning must be
considered in light of the entire agreement.36 As we describe below, support

       35
         In a memorandum dated June 6, 2006, the OIG discussed its disagreement with
the OFDT. See Appendix VII for a copy of the memorandum.
       36
          For example, the 1984 IGA with the Orleans Parish, Louisiana, Criminal Sheriff’s
Office used the term “fixed rate” to describe the unit price paid.

                                          – 11 –
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

for our view is found in: (1) the language of the agreements, (2) a
memorandum, dated August 1, 2002, from the prior Detention Trustee, and
(3) and the USMS’ own past practice.

       Moreover, regardless of whether one considers the agreements we
have audited to be fixed-rate vehicles based on factors in addition to cost as
asserted by OFDT, or cost-based agreements as we believe, the OIG
disagrees that the USMS can seek the recovery of overpayments only if
“fraudulent conduct” can be proved, as stated in the OFDT’s April 26, 2006,
memo. Not all legal remedies require a showing of fraudulent conduct. For
example, the False Claims Act requires no more than a showing of deliberate
ignorance or reckless disregard for the truth or falsity of information
presented to the government. As a result, if the state or local government
presented inaccurate cost information to the USMS that formed the basis for
the jail-day rate established, the USMS may be able to recover
overpayments even in the absence of “fraudulent conduct” by the state or
local government.

      In addition, the USMS is not limited to strict legal remedies for
recouping overpayments. Rather, it may utilize such methods as offsetting
overpayments against future payments for detention services or negotiating
reduced rates in subsequent years. Indeed, the USMS IGA Manual section 9,
instructs IGA analysts upon receiving an OIG or USMS audit report to
determine the revised amount of the over or underpayment, reduce the over
or underpayment to a revised jail-day rate, negotiate the adjusted jail-day
rate, discuss and agree upon a repayment method, and prepare a
modification showing the adjusted jail-day rate, estimated jail days, and an
estimated pay-off time or repayment schedule. Moreover, as discussed in
more detail below, the USMS has in fact recovered overpayments identified
in past OIG audits using just such means.

Language of the Agreements

        The cost sheet instructions that were given to state and local
governments when they sought the IGAs defined an IGA as a formal written
agreement between the USMS and a state or local government to house
federal detainees at a jail-day rate based on actual and allowable costs for
the same level of service provided to state or local prisoners in a specific
facility.37 The cost sheet instructions informed the preparer of the following:


      37
           See Appendix III for an example of a cost sheet form and instructions.



                                          – 12 –
                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

       •    A jail-day rate will be computed on the basis of actual and allowable
            costs associated with the operation of the facility that benefit
            federal detainees during the most recent accounting period.38

       •    “Local Governments shall only request the reimbursement of costs
            to the extent provided for in the latest revision of OMB Circular
            No. A-87.”

      The cost sheet also contained the following certification statement that
the Comptroller or Chief Financial Officer of the local government was
required to sign attesting to the fact that the cost sheet does not include any
costs prohibited by the Circular:




      The USMS IGA Manual states that an IGA analyst at USMS
headquarters is supposed to review the cost sheet for cost allowability and
the accuracy of capacity and average daily population figures.




       38
           Actual costs refer to costs incurred by a detention facility. According to OMB
Circular A-87, for actual IGA costs to be allowable, costs must be: (1) necessary and
reasonable; (2) authorized or not prohibited under state or local laws or regulations; (3) in
conformity with laws, regulations, and terms and conditions of the award; (4) accorded
consistent treatment; (5) in accordance with generally accepted accounting principles;
(6) net of all applicable credits; and (7) adequately documented.

                                           – 13 –
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

       Based on the cost sheet information, the IGA analyst then calculated a
jail-day rate using the following formula:

                                    Jail-Day Rate Calculation

                     256                              365              93,440
                                         X                      =
           Average Daily Population            Days Per Year          Jail-Days


                 $5,088,716                        93,440              $54.46
                                         ÷                      =
             Total Operating Cost                 Jail Days         Jail-Day Rate
       Source: USMS IGA Manual

       As detailed in the table, a facility with an average daily population of
256 would equate to 93,440 annual jail days. If the facility’s total annual
operating costs were $5,088,716, this amount would be divided by the
93,440 annual jail days to arrive at a jail-day rate of $54.46. In this
example, the USMS would pay the state or local facility $54.46 to house one
of its prisoners for one day.

       In addition, the IGAs state that the local governments are responsible
for complying with OMB Circular A-87. The agreements inform the local
governments that they will be held accountable for any overpayment, audit
disallowance, or breach of the agreement that results in a debt owed to the
federal government.

Prior Detention Trustee Memorandum

      In a memorandum to the Deputy Attorney General dated August 1,
2002, the prior Detention Trustee agreed with the OIG’s position.39 The prior
Detention Trustee noted that most if not all IGAs limited reimbursement to
actual costs or to the same daily costs that state and local authorities incur
to hold their own prisoners. Further, these IGAs did not allow for a payment
of profit or fee to state and local governments. Accordingly, he concluded
the following:




      39
        See Appendix VIII for a copy of the memorandum. The OIG’s response to the
memorandum is contained in Appendix IX.

                                             – 14 –
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE



       [T]he issue of whether the Department may or may not pay a
       profit or fee should not be a contentious item in these audits,
       since the audits were conducted on IGAs where both the
       departmental component and the state or local governmental
       entity agreed to reimbursement of actual costs.

      As part of the August 2002 memorandum, the prior Detention Trustee
attached a policy that required the USMS to submit written justification to
the OFDT seeking prior approval and providing the basis for entering into
fixed-price IGAs under Section 119. During our audit of the 31 IGAs, we did
not identify any justifications or prior written approvals by the Detention
Trustee that fixed-price detention services were acquired. As discussed in
Finding II, the OFDT and USMS plan on exercising their Section 119
authority as part of the revamping of the IGA process.

USMS Past Practice

       We also noted that from 1997 to 2005 the USMS Program and Review
Team (IGA Audit Branch) performed its audits in the same manner as the
OIG (i.e., to determine if IGA jail-day rates were based on actual and
allowable costs). For example, in a January 1998 audit of the [SENSITVE
INFORMATION REDACTED], the USMS IGA Audit Branch determined that a
$65 temporary jail-day rate was not supported and that the operating costs
only supported a $37.95 rate. The USMS Audit Branch recommended that
the USMS “negotiate a revised jail-day rate based on the information
contained in this report and actual cost and prisoner population data” and
“remedy the $3,883,433 in questioned costs.”40 Similarly, in an October
1999 audit of the [SENSITIVE INFORMATION REDACTED], the USMS IGA
Audit Branch reported that the supportable jail-day rate was $4.22 less per
prisoner than the rate that was in effect and concluded that the USMS had
incurred $127,874 in additional costs during FY 1998. Although no
recommendations were developed, the report stated that the information
was provided for use in any future rate negotiations and any collection
efforts deemed appropriate.



       40
           As follow-up to the audit, the USMS revised the jail-day rate to $41.65 based on
the average daily population for FY 1996. In response to the recommendations for the
[SENSITIVE INFORMATION REDACTED], the Eastern District’s Chief Deputy USM signed a
Request for Detention Services to reduce the jail-day rate to $41.65. However, the revised
jail-day rate was never implemented. PAB officials could not tell us why the questioned
costs were not recovered or resolved, or why the jail-day rate was not reduced.

                                          – 15 –
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

      In addition, we noted that the USMS has in fact recovered
overpayments identified in previous OIG audit reports. For example, the
USMS recovered $156,000 in overpayments from the [SENSITIVE
INFORMATION REDACTED] Sheriff’s Office over an extended period –
September 2000 through August 2004 – by reducing the jail-day rate of
$32.97 by $1.17, until the $156,963 in overpayments was recouped.
Similarly, as a result of our audit report on the USMS’s IGA with [SENSITIVE
INFORMATION REDACTED], the USMS negotiated a 5-year repayment
schedule over which the jail repaid over $1 million, as well as negotiated a
reduced future rate.

Conclusion

      In the past, the USMS required detention facilities interested in
housing federal detainees to submit a cost sheet as part of the application
process. The USMS cost sheet requested financial and prisoner population
information, and informed the preparer that the jail-day rate would be
computed on the basis of actual, allowable, and allocable costs associated
with the operation of the facility that benefit federal detainees during the
most recent accounting period. Prior OIG audits often noted jail-day rates
that exceeded the rate supported by a detention facility’s allowable costs
and average daily population.

       The OIG recognizes that there are significant pressures on the USMS
to obtain detention space. From the USMS perspective, not seeking
recovery of overpayments may appear preferable to the operational and
logistical costs of negotiating new jail-day rates and repayment plans or the
risk of having to use a more distant facility because a facility will not accept
a reduced jail-day rate or agree to a repayment plan. However, we believe
the jail-day rates the OIG audited were based on an accurate submission of
allowable costs, and that the USMS should remedy the questioned costs
identified by the OIG by either collecting overpaid funds; providing
documentation to support the existing IGA rate; adjusting the IGA rate and
offsetting future payments over a reasonable time; or administratively
waiving the questioned costs on a case-by-case basis, based on the inability
to collect the funds or other exigencies such as a lack of other viable
location, security problems, or significantly greater costs that would result
from changing facilities. In addition, the USMS should consider whether,
based on the audit findings, jail-day rates should be reduced prospectively.




                                     – 16 –
                     REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE



Recommendation

     We recommend that the USMS:

1.   Address each open audit recommendation from prior OIG audits of
     IGAs, which collectively contain dollar-related findings of $37 million.




                                   – 17 –
                   REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


 II. OFDT’S NEW IGA PRICING PROCESS

      The OFDT is revamping the process for procuring detention space
      using IGAs. At the center of this overhaul is a new pricing model for
      determining the price reasonableness of a jail-day rate called eIGA.
      The pricing model starts with a [SENSITIVE INFORMATION REDACTED]
      core jail-day rate that was calculated based on [SENSITIVE
      INFORMATION REDACTED]. The rate is then adjusted, based on data
      describing various factors such as [SENSITIVE INFORMATION
      REDACTED], to arrive at an adjusted core rate. To assist IGA analysts
      in negotiating jail-day rates, the adjusted core rate is then compared
      to the state or local jail’s proposed jail-day rate and to the rates of
      similar facilities. We believe that eIGA is a positive step to improving
      the process historically used to establish jail-day rates. However, we
      believe the OFDT should modify eIGA to capture a jail’s average daily
      population, indirect costs, and revenue generated from a detention
      facility’s operation (also known as credits). In turn, this information
      should be used to calculate a jail-day rate, based on costs, that is
      presented to the IGA analysts. We believe that presenting cost
      information as a single rate will give the USMS more evidence and
      leverage in its negotiations, and will help ensure that the Department
      negotiates reasonable jail-day rates.

Revamping the Process for Procuring Detention Space

      In our December 2004 audit of the OFDT, we recommended that the
OFDT examine its policies and practices regarding IGAs to develop additional
areas in which detention costs could be reduced, and develop a plan for
reviewing and verifying the allowability of costs associated with individual
IGAs.41

      In addition, one of DOJ’s strategies in its strategic plan for improving
the management of detention resources relies on more accurate forecasting
of detention needs, better coordination with ICE, and strengthened
oversight. OMB Circular A-87 provides federal agencies latitude to work with
states and localities for testing alternatives to cost reimbursement practices.




      41
          Department of Justice, Office of the Inspector General. Audit Report Number 05-
04, Audit of the Department of Justice Office of the Federal Detention Trustee, December
2004.

                                         – 18 –
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

       In April 2005, the OFDT formed an interagency working group
consisting of representatives from the USMS, BOP, and ICE to review the
costs associated with the use of state and local detention facilities.
According to the OFDT, the working group also sought to standardize the
process of entering into IGAs to ensure that the jail-day rates paid by the
federal government were “fixed, fair, and reasonable” and would no longer
be subject to unscheduled, possibly yearly, adjustments based on updated
cost information.42 The OFDT stated that it requested this review because of
previous labor and data intensive process for establishing cost-based jail-day
rates, disparate jail-day rates for similar detention centers, the difficulty in
explaining the causes for disparity in jail-day rates between detention
centers, and the concern that jail-day rates based on historical cost data
may not reflect the current costs of running the detention center. As a
result of the working group’s efforts, the OFDT is developing eIGA.

eIGA

       According to the OFDT, eIGA is an attempt to “e-gov” the IGA
application process.43 The OFDT believes that eIGA will improve the process
of establishing IGAs by providing an automated system that establishes
[SENSITIVE INFORMATION REDACTED] standard pricing for detention space
and services provided by state and local facilities. Within eIGA is an
econometric statistical pricing model for determining a fixed-price range for
jail beds. The model starts with a [SENSITIVE INFORMATION REDACTED]
base or core jail-day rate that was calculated using [SENSITIVE




       42
            According to OMB-87, a cost is reasonable if it does not exceed that which would
be incurred by a prudent person, under the circumstances prevailing at the time the
decision was made, to incur the cost. In determining reasonableness of a given cost,
consideration should be given to: (a) whether the type of cost is necessary for the
operation of the governmental unit or the performance of the federal award; (b) the
restraints or requirement imposed by such factors as sound business practices; arms length
bargaining; federal, state and other laws and regulations; and terms and conditions of the
award; (c) market prices for comparable goods or services; (d) whether the individual
concerned acted with prudence in the circumstances considering their responsibilities to the
governmental unit, its employees, the public at large, and the federal government;
(e) significant deviations from the established practices of the governmental unit which may
unjustifiably increase the federal award’s cost.
       43
           The President’s management agenda includes an initiative to expand Electronic
Government (e-gov). The purpose of e-gov is to use internet-based technology to make it
easier for citizens and businesses to interact with the government.



                                          – 19 –
                        REDACTED FOR PUBLIC RELEASE
                               REDACTED FOR PUBLIC RELEASE

INFORMATION REDACTED].44 [SENSITIVE INFORMATION REDACTED].45
According to OFDT, each of these factors had a statistically significant impact
on the jail-day rate. A schedule of adjustments was developed assigning
values to each factor to aggregate with the [SENSITIVE INFORMATION
REDACTED] core rate, as shown in the samples below:

                        Adjustments for Determining the Applicable Core Per Diem Rate
              Characteristic        [SENSITIVE          [SENSITIVE          [SENSITIVE
                                   INFORMATION         INFORMATION         INFORMATION
                                    REDACTED]           REDACTED]           REDACTED]
            Core Rate                         [SENSITIVE INFORMATION REDACTED]




                                     [SENSITIVE INFORMATION REDACTED]




            Actual Jail-Day           $ 59.00             $ 60.00               $ 52.00
            Rate
            Source: OFDT




       44
           As shown in Appendices VII and X, we have expressed concern with the
[SENSITIVE INFORMATION REDACTED] core rate because our individual IGA audits often
note significant variances between [SENSITIVE INFORMATION REDACTED] and the rates
supported by the detention facilities’ allowable costs and average daily populations.
According to the OFDT, [SENSITIVE INFORMATION REDACTED]. The OFDT also stated that
the core rate will be assessed and adjusted, if necessary, as eIGA is populated with expense
information.
       45
         According to the OFDT, it uses [SENSITIVE INFORMATION REDACTED]
[SENSITIVE INFORMATION REDACTED] for the following reasons: [SENSITIVE
INFORMATION REDACTED]. We discuss the concerns with using [SENSITIVE INFORMATION
REDACTED] further in the Establishing IGAs with eIGA section of this report.

                                                  – 20 –
                               REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

      The model-generated rate, known as the adjusted core rate or the
“should cost” rate, will be provided to the IGA analyst, with [SENSITIVE
INFORMATION REDACTED], as shown in the screen shot below:46

                         Screen Shot of Rate Comparison47




   Source: OFDT

Assessing Model Results

      The OFDT assessed the reliability of the model by comparing a sample
of the adjusted core rates determined through the application of the model
to rates based on actual and allowable costs. The OFDT defined an adjusted
core rate as acceptable if it [SENSITIVE INFORMATION REDACTED] of a jail-
day rate based on actual and allowable costs.

      The OFDT’s assessment revealed that the sampled adjusted core rates
[SENSITIVE INFORMATION REDACTED] for 41 percent of the facilities. For
32 percent of the facilities, the adjusted core rates exceeded by more than
[SENSITIVE INFORMATION REDACTED] jail-day rates based on actual and
allowable costs. For 27 percent of the facilities, the adjusted core rates were
[SENSITIVE INFORMATION REDACTED] less than the rates based on actual
and allowable costs.

      According to the OFDT, departures from the model may be warranted
when the schedule of adjustments do not adequately reflect the facility
characteristics or specialized services provided by the facility. For example,
in some cases a proposed rate may include full medical or transportation
services that the adjusted core rate would not cover. The OFDT stated that

      46
          The [SENSITIVE INFORMATION REDACTED] was derived from regulations
formerly included in the Federal Acquisition Regulation [SENSITIVE INFORMATION
REDACTED].
      47
           In this screen shot, the core rate is presented after adjustments.

                                           – 21 –
                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

departures from the model would be made on a case-by-case basis. In
addition, the OFDT concluded that departures from the model may also be
warranted when discontinuing the use of the facility would substantially
disrupt the operations of the USMS, result in added costs for using
alternative facilities, or otherwise have a substantial programmatic impact
on field operations.

      An example of a justified departure from the adjusted core rate is the
[SENSITIVE INFORMATION REDACTED]. The adjusted core rate for the
[SENSITIVE INFORMATION REDACTED] is $64.22. However, our January
2005 IGA audit of the [SENSITIVE INFORMATION REDACTED] revealed that
the jail-day rate of $93.92 was supported by its actual and allowable costs.
According to the OFDT, the [SENSITIVE INFORMATION REDACTED] provides
a “special mission” that justifies a rate higher than the adjusted core rate.
Specifically, the [SENSITIVE INFORMATION REDACTED] housed [SENSITIVE
INFORMATION REDACTED]. Accordingly, the [SENSITIVE INFORMATION
REDACTED] sometimes incurs extraordinary expenses in security and
overtime [SENSITIVE INFORMATION REDACTED].

Establishing IGAs with eIGA

      The OFDT procurement division and IT division are working on and
testing the automation of the eIGA process. According to the OFDT, the
eIGA system is set to be implemented in the first quarter of FY 2007.

       Once eIGA is operational, detention facilities will electronically apply
for an IGA by completing a short application that captures information on
capacity and staffing, jail operating expense information, services provided,
oversight and accreditations, health care policies, and a proposed jail-day
rate.48 The OFDT has incorporated into eIGA a series of help buttons and
said that it will establish a help desk that jails can telephone if they need
assistance completing the application.



       48
           The eIGA’s jail operating expense information includes many of the cost
categories captured on a cost sheet including a jail’s actual and projected expenses on
personnel salaries and benefits, consultant and contract services, medical care and
treatment, facility and office, safety and sanitation, and insurance. Unlike the cost sheet,
however, the jail operating expense information will not capture average daily population,
indirect costs, or revenue generated from a detention facility’s operation (also known as
credits). In addition, under eIGA a jail will not have to certify that the expense information
provided is accurate as it is currently required to do under the traditional process for
establishing jail-day rates. As discussed later in this report, we are concerned about how
USMS IGA analysts will use the jail operating expense information.

                                           – 22 –
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

        After completing the application, the jail will transmit it to OFDT for a
preliminary review. An OFDT analyst has the option to either forward the
application to the USMS for negotiation or reject the application if it is not
complete or the jail’s proposed rate is excessive. Although the OFDT
believes that very few applications will be rejected upon submission by the
jail, a comment box is available for the OFDT to highlight areas of concern
for the USMS to address during its negotiations.

       Unlike the process historically used to compute jail-day rates, cost
data will not be the basis for awarding IGAs. Rather, the award will be
determined by “price reasonableness,” which will be calculated by comparing
a detention facility’s proposed rate to the adjusted core rate range
generated by the eIGA model and the established rates of similar facilities.
According to OFDT, cost sheet data was not always reliable and did not
address whether a price paid in a geographical area was reasonable
compared to other facilities. For example, OFDT notes that some facility
administrators may pay salaries to individual employees in excess of the
norm for the facility, the county, or salaries generally paid in the correctional
field for such positions. Under the process historically used to establish
IGAs, the actual cost of the salaries, even if it is unreasonable in comparison
to other county or correctional salaries in the regional area, would be
allowable on an IGA. According to the OFDT, under the eIGA process, if a
jail proposes a rate that far exceeds the adjusted core rate and the rate of
similar facilities, a USMS IGA analyst could “drill down” into the jail operating
expense information and compare salaries or overtime usage to that of
similar local facilities to determine the possible causes for the excessive
proposed rate. The OFDT believes that comparing proposed rates to the
rates of similar facilities will promote cost efficiencies.

      Although the USMS will negotiate jail-day rates with individual jails,
OFDT will review and approve each jail-day rate before any rate is finalized.
A complete record of the negotiation, including a market comparison of jail
rates and life cycle of each IGA, will be documented in eIGA instead of the
USMS’s current paper files.

       In addition, according to OFDT, jail-day rates established through eIGA
will be fixed for 36 months. Historically, jails were allowed to seek increases
to the jail-day rate after 1 year. Therefore, under eIGA jails will have an
incentive to control costs because they will not be allowed to request a rate
increase prior to 36 months unless there were major operational changes
with respect the USMS’s use of the jail. After 36 months, a jail seeking a
rate increase will have to reapply through eIGA.



                                     – 23 –
                     REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

OIG Concerns with eIGA

        According to the OFDT, eIGA offers a number of benefits for improving
how jail-day rates are established and monitored. For example, the eIGA
initiative will replace the cumbersome paper-based process historically used
by the USMS; collect actual and projected expense information, while the
cost sheet only captures actual cost information for a single year; USMS IGA
analysts will be able to quickly search the eIGA database and compare jail
rate and expense information; control costs because IGA analysts will
analyze the market of comparable jail-day rates and lock-in fixed jail-day
rates for 3 years; and identify jails that are eligible for rate increases.

      The OFDT stated that the primary benefit of using the new process is
that an IGA analyst will compare the proposed and adjusted core rates to
the rates of similar facilities. According to the OFDT, in determining what is
a similar facility, emphasis will be placed on the relationship of a jail’s
expense information to that of other jails in the area (or within the state)
that have a similar population, security level, size, staffing, and correctional
programs offered. Additionally, when appropriate, a comparison to private
and federal jail-day rates will be performed.

       We received two demonstrations of the OFDT’s plans for how IGAs will
be established using eIGA. Based on these demonstrations, we believe that
the eIGA concept is a positive step to improving the process historically used
to establish jail-day rates. However, as discussed further in Finding III of
this report, we identified significant deficiencies with how jail-day rates have
been established and monitored in the past. Because eIGA is not yet
operational, we were unable to test how jail-day rates will be established
using eIGA. In addition, the OFDT has neither issued guidance nor trained
IGA analysts on how jail-day rates will be established using eIGA.
Therefore, it is difficult to predict how successful eIGA will be once
operational.

       During the course of this audit, the OIG expressed concern that the
OFDT’s initial eIGA plan not to require state and local jails to submit detailed
cost information constituted a serious flaw in the OFDT’s revised process. 49
As a result of our concerns, and to adequately address the applicability of
the Service Contract Act, the OFDT added the jail operating expense


       49
          In prior memoranda, the OIG identified its specific concerns with the OFDT’s
proposed plans for revamping the process for establishing jail-day rates. See Appendices
VII and X for a copies of the memoranda.

                                         – 24 –
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

information to eIGA.50 With the addition of the jail operating expense
information, eIGA captures many cost sheet categories, including salaries
and benefits, consultant and contract services, medical care and treatment,
facility and office, safety and sanitation, and insurance. However, eIGA does
not capture a jail’s average daily population, indirect costs, or credits from a
detention facility’s operations.

      We believe that the OFDT can improve eIGA to ensure that USMS
negotiations help control rising detention costs by modifying the jail
operating expense information to capture a jail’s average daily population,
indirect costs, and credits. In turn, this information should be used to
calculate a jail-day rate, based on costs, that is presented to the IGA
analysts as an additional field in the following summary screen shot:

                  Summary Screen Shot of Negotiated Rate




          The OFDT stated that these will not be cost-based agreements, and
that cost and average daily population data change daily. As discussed in
Finding I, we recognize that OFDT and USMS may negotiate fixed–price IGAs
not based on costs. However, we believe the true measure of eIGA’s
success will be to compare the rates negotiated through eIGA to a detention
facility’s actual and allowable cost. In our judgment, reducing the
information captured in the jail operating expense information portion of
eIGA to a single rate will give the USMS more evidence and leverage in its
negotiations, and will help ensure fair and reasonable jail-day rates.
Presenting this data is not difficult, can assist in reducing the jail-day rate
paid by the USMS, and could provide an important check on the price


       50
           The Service Contract Act requires contractors and subcontractors performing
services on prime contracts in excess of $2,500 to pay service employees in various classes
no less than the wage rates and fringe benefits found prevailing in the locality, or the rates
(including prospective increases) contained in a predecessor contractor’s collective
bargaining agreement. The Department of Labor issues wage determinations on a contract-
by-contract basis in response to specific requests from contracting agencies. These
determinations are incorporated into the contract.

                                           – 25 –
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

reasonableness model as demonstrated in our review of jail-day rates that
were established using the eIGA pilot program.

      In addition, as shown by the above screen shot, [SENSITIVE
INFORMATION REDACTED]. A detention facility potentially could earn at
least a [SENSITIVE INFORMATION REDACTED] profit if its costs are
[SENSITIVE INFORMATION REDACTED] and the jail-day rate is established
at [SENSITIVE INFORMATION REDACTED]. This is possible because
detention facilities could [SENSITIVE INFORMATION REDACTED].

Piloting the Model for Establishing IGAs

       In September 2005, the OFDT and USMS began using the eIGA model
as part of a pilot process for awarding IGAs. However, because the eIGA
system is not operational, jails applying for jail-day rates have continued to
submit cost sheets, and the USMS requested from OFDT a “should cost” rate
for a specific facility based on a manual eIGA process. The OFDT manually
calculated the adjusted core rate and provided it to the USMS.

      USMS IGA analysts then determined price reasonableness by
comparing a requesting jail’s proposed rate to the adjusted core rate
provided by OFDT. Although USMS IGA analysts could have used the cost
sheets submitted by the jails as part of its analysis in determining price
reasonableness, we found that a cost sheet analysis by the USMS was not
always performed. Further, unlike the planned process for eIGA, a
comparison of proposed rates to similar facilities was not performed. The
USMS has also continued to use the standard IGA language it has used for
years (that jail-day rates are established based on actual and allowable costs
associated with operating the facility).

      As of June 2006, the OFDT and USMS had used the model to award
approximately 90 IGAs as part of a pilot project. We judgmentally selected
11 of the 90 IGAs awarded and reviewed detailed documentation from OFDT
and the USMS to determine how the awarded rates compared to the cost-
based rate previously used in awarding IGAs. The following table shows our
results on how the awarded rate compared to the cost sheet rate, the
adjusted core rate, and the [SENSITIVE INFORMATION REDACTED]:




                                   – 26 –
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

                      Sampled IGAs Awarded Using the Model51
                              Cost     [SENSITIVE    [SENSITIVE      [SENSITIVE
                Requested    Sheet    INFORMATION   INFORMATION     INFORMATION     Awarded
Facility Name     Rate       Rate52    REDACTED]     REDACTED]       REDACTED]       Rate
                            [SENSITIVE INFORMATION REDACTED]
[SENSITIVE                           [SENSITIVE  [SENSITIVE         [SENSITIVE
INFORMATION                          INFORMATION INFORMATION        INFORMATION
REDACTED]          $64.32     $64.32 REDACTED]   REDACTED]          REDACTED]         $64.32
[SENSITIVE                           [SENSITIVE  [SENSITIVE         [SENSITIVE
INFORMATION                          INFORMATION INFORMATION        INFORMATION
REDACTED]          $88.25     $85.52 REDACTED]   REDACTED]          REDACTED]         $85.52
[SENSITIVE                           [SENSITIVE  [SENSITIVE         [SENSITIVE
INFORMATION                          INFORMATION INFORMATION        INFORMATION
REDACTED]          $75.00     $79.67 REDACTED]   REDACTED]          REDACTED]         $70.00
[SENSITIVE                           [SENSITIVE  [SENSITIVE         [SENSITIVE
INFORMATION                          INFORMATION INFORMATION        INFORMATION
REDACTED]          $78.06     $68.46 REDACTED]   REDACTED]          REDACTED]         $65.00
                            [SENSITIVE INFORMATION REDACTED]
[SENSITIVE                           [SENSITIVE  [SENSITIVE         [SENSITIVE
INFORMATION                          INFORMATION INFORMATION        INFORMATION
REDACTED]          $80.00     $76.68 REDACTED]   REDACTED]          REDACTED]         $80.00
[SENSITIVE                           [SENSITIVE  [SENSITIVE         [SENSITIVE
INFORMATION                          INFORMATION INFORMATION        INFORMATION
REDACTED]          $61.42     $54.13 REDACTED]   REDACTED]          REDACTED]         $54.13
[SENSITIVE                           [SENSITIVE  [SENSITIVE         [SENSITIVE
INFORMATION                          INFORMATION INFORMATION        INFORMATION
REDACTED]          $60.46     $56.28 REDACTED]   REDACTED]          REDACTED]         $51.16
[SENSITIVE                           [SENSITIVE  [SENSITIVE         [SENSITIVE
INFORMATION                          INFORMATION INFORMATION        INFORMATION
REDACTED]          $50.00     $38.22 REDACTED]   REDACTED]          REDACTED]         $45.00
                            [SENSITIVE INFORMATION REDACTED]
[SENSITIVE                           [SENSITIVE  [SENSITIVE         [SENSITIVE
INFORMATION                          INFORMATION INFORMATION        INFORMATION
REDACTED]          $85.00    $102.12 REDACTED]   REDACTED]          REDACTED]         $82.00
[SENSITIVE                           [SENSITIVE  [SENSITIVE         [SENSITIVE
INFORMATION                          INFORMATION INFORMATION        INFORMATION
REDACTED]          $53.00     $54.28 REDACTED]   REDACTED]          REDACTED]         $44.97
[SENSITIVE                           [SENSITIVE  [SENSITIVE         [SENSITIVE
INFORMATION                          INFORMATION INFORMATION        INFORMATION
REDACTED]          $77.34     $77.55 REDACTED]   REDACTED]          REDACTED]         $86.00
Source: OFDT and USMS



       51
            As a result of OFDT calculating the adjusted core rates incorrectly, the USMS
believed it was establishing jail-day rates that [SENSITIVE INFORMATION REDACTED] for
the facilities in our sample.
       52
           To arrive at a cost sheet rate, we reviewed the cost sheets and records of
negotiation that were prepared by the USMS IGA analysts. We further adjusted the total
allowable costs as appropriate and divided by the average daily population. In some cases,
the information presented did not provide us with enough information to evaluate the
allowability of costs contained on the cost sheets. Therefore, our calculation could vary
from a jail’s actual and allowable costs.

                                          – 27 –
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



        Although eIGA will collect a jail’s expense information that will be used
in analyzing the proposed jail-day rate, the OFDT does not plan on
presenting this information to the IGA analysts as a single rate for
comparison to the proposed rate, adjusted core rate, and the rates of similar
facilities. Our review, however, revealed the benefits of presenting the cost
information as a rate to help establish a reasonable jail-day rate.

      •   [SENSITIVE INFORMATION REDACTED] - The USMS IGA analyst
          used the cost sheet as the basis for negotiations with the Center.
          The cost sheet supported a jail-day rate of $54.13, which was the
          rate offered to and accepted by the Center. The rate [SENSITIVE
          INFORMATION REDACTED]. The Center originally requested a jail-
          day rate of $61.42, which [SENSITIVE INFORMATION REDACTED].
          However, the cost sheet provided by the Center only supported a
          rate of $54.13. Using this cost information, the USMS negotiated
          that rate. Without the cost sheet information, the USMS may have
          accepted the original rate of $61.42 as reasonable based on the
          model, at an extra estimated cost to the taxpayer of almost
          $270,000 per year.

      However, it was not clear to us whether the USMS always analyzed
cost sheets or considered in negotiations for the jail-day rate both the cost
and the model-generated rate, as shown in the following example:

      •   [SENSITIVE INFORMATION REDACTED] - The USMS IGA analyst
          offered the [SENSITIVE INFORMATION REDACTED] $45 because,
          according to the record of negotiation, it “[SENSITIVE
          INFORMATION REDACTED] ‘should cost rate’.” There was no
          indication in the file that the IGA analyst reviewed the cost sheet.
          Our review of the cost sheet revealed that allowable costs divided
          by the average daily population only supported a rate of $41.64. In
          addition, the [SENSITIVE INFORMATION REDACTED] represented
          on the cost sheet that its average daily population was 660
          inmates. However, we noted that [SENSITIVE INFORMATION
          REDACTED] presents an average daily jail population on its web site
          of 719. If the average daily population of 719 was used to calculate
          a jail-day rate, the jail-day rate would be $38.22, or 15 percent
          lower than the $45 jail-day rate that was awarded, resulting in
          possible additional costs to the USMS of about $148,000 per single
          year.




                                     – 28 –
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



Conclusion

       In FY 2006, the DOJ budgeted more than $1 billion on the housing and
subsistence of federal detainees, about 75 percent of which is spent on IGAs.
At a time of rising detention costs, it is critical that the OFDT and USMS
control the amount of profit earned by state and local detention facilities that
house federal detainees. The DOJ is moving away from its past policy of
reimbursing state and local jails at a rate based on their actual and allowable
costs to a system, called eIGA, which will negotiate a fixed jail-day rate
based on an adjusted core rate and the jail-day rates of similar facilities.

      Because eIGA is not yet operational, we were unable to test how jail-
day rates will be established using the new system. In addition, the OFDT
has not issued guidance on how jail-day rates will be established using eIGA.
As a result, it is difficult to predict how successful eIGA will be once
operational.

      We believe that the eIGA concept is a positive step to improving the
process previously used to establish jail-day rates. However, in our
judgment, the OFDT can improve eIGA to ensure that USMS negotiations
help control rising detention costs. The OFDT stated that the primary benefit
of using the new process is that an IGA analyst will compare the proposed
and adjusted core rates to the rates of similar facilities. Although eIGA will
capture many of the cost sheet categories, it will not capture a jail’s average
daily population, indirect costs, or credits, which are needed to compute a
detention facilities costs. We believe that the OFDT should modify eIGA to
capture this information, and present this information to the IGA analysts as
a cost-based rate because the true measure of eIGA’s success will be to
compare the rates negotiated through eIGA to a detention facility’s actual
and allowable costs. Presenting the cost information as a single rate will
give the USMS more evidence and leverage in its negotiations, and will help
IGA analysts establish fair and reasonable jail-day rates. Presenting this
data is not difficult, can assist in reducing the jail-day rate paid by the
USMS, and could provide an important check on the price reasonableness
model as demonstrated in our review of jail-day rates that were established
using the eIGA model.




                                    – 29 –
                     REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE

Recommendations

     We recommend that the OFDT:

2.   Modify eIGA so that it captures average daily population, indirect
     costs, and credits as part of its Jail Operating Expense Information.

3.   Modify eIGA so that it presents a jail-day rate to the IGA analysts
     based on the actual and allowable costs of the jail.

4.   Develop procedures for re-examining the [SENSITIVE INFORMATION
     REDACTED] core rate to ensure that it accurately reflects the
     [SENSITIVE INFORMATION REDACTED] based on actual and allowable
     costs.




                                   – 30 –
                   REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


III. IMPROVEMENTS NEEDED IN IGA OVERSIGHT

      Consistent with our prior IGA audits, our review of 34 sampled
      IGAs during this audit identified jail-day rates that lacked
      adequate supporting documentation. As a result, the USMS did
      not have assurance that the established jail-day rates were
      supported and reasonable. Although the OFDT is revamping the
      process for procuring detention space through eIGA, we believe
      that improvements on the part of the USMS are still needed in
      policies and procedures on awarding IGAs through eIGA, training
      of IGA analysts, and defining responsibilities for establishing and
      monitoring IGAs.

Unsupported Jail-Day Rates

       In the sample of 34 IGAs that we reviewed in connection with this
audit, we found that USMS IGA analysts generally reviewed cost sheets and
documented their analysis of the costs in establishing jail-day rates.
Additionally, the USMS IGA Audit Branch sometimes performed detailed pre-
award reviews of the detention center’s costs that were used by the USMS
IGA analysts to establish jail-day rates based on actual and allowable costs.
For example, the [SENSITIVE INFORMATION REDACTED] submitted a cost
sheet to the USMS on March 1, 2000, based on FY 1999 costs, requesting a
jail-day rate of $103.27. The USMS conducted an audit of the cost sheet
and developed an audited rate of $84.39, which the USMS used in the IGA
awarded to [SENSITIVE INFORMATION REDACTED] in September 2000.

       The USMS pre-award audits allowed the USMS to identify unallowable
costs and establish jail-day rates based on actual and allowable costs.
However, in the absence of pre-award audits we often found during OIG
audits unallowable costs such as transportation salaries and interest; cost
sheets that contained cost and average daily population that did not support
the requested rate; and understated average daily population numbers.
According to the USMS, pre-award audits of new IGAs or rate changes to
existing IGAs are declining due to staffing and budget constraints.53



      53
           For example, the [SENSITIVE INFORMATION REDACTED] Jail requested a jail-day
rate increase from $52 to $94.15 based on its FY 2003 cost sheet. The $52 jail-day rate
was a temporary rate based on FY 2001 costs. The USMS initially planned to audit
[SENSITIVE INFORMATION REDACTED] request for a rate increase, but after providing a
temporary rate increase from $52 to $80, the audit was cancelled. In March 2004, the jail-
day rate was increased to $93.30.

                                         – 31 –
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

        Our review of 34 IGAs also revealed jail-day rates that lacked
adequate supporting documentation, as described below, and that were set
at rates far above actual costs.54 According to a USMS official, detention
facilities fight for every penny they request, and sometimes jail-day rates
that exceed allowable costs are established to appease them.

[SENSITIVE INFORMATION REDACTED]

      In a letter to the USMS dated July 31, 1992, the [SENSITIVE
INFORMATION REDACTED] Superintendent expressed an interest in entering
into an IGA at a rate of $65 per jail day. The Superintendent submitted a
preliminary jail budget since the jail had only been operating during that
month and did not have actual cost data to evaluate.

        In November 1992, the USMS established a temporary jail-day rate
with the [SENSITIVE INFORMATION REDACTED] to house federal detainees
at $65.55 However, the [SENSITIVE INFORMATION REDACTED] budgeted
cost data only supported a jail-day rate of $49. According to the USMS, it
established a rate of $65 based on anticipated savings in transportation and
personnel costs due to the close proximity of the [SENSITIVE INFORMATION
REDACTED] to the federal courthouse, a need to alleviate a critical shortage
of jail space in [SENSITIVE INFORMATION REDACTED], and a comparison of
jail-day rates to house detainees in the SENSITIVE INFORMATION
REDACTED]. The USMS documented that it was paying jail-day rates to
house detainees ranging from $23 to $85 at the 20 jails located in
[SENSITIVE INFORMATION REDACTED]. However, only two of [SENSITIVE
INFORMATION REDACTED] 20 jails had jail-day rates of $85, and those two
jails were located in the high-cost areas of [SENSITIVE INFORMATION
REDACTED]. The jail-day rate charged by two other detention facilities in
the [SENSITIVE INFORMATION REDACTED] area, where [SENSITIVE
INFORMATION REDACTED] is located, averaged $47.




       54
          In addition to the examples provided, we noted deficiencies with the following
IGAs: Floyd County Detention Center, Georgia; Yolo County Jail, California; Orleans Parish
Criminal Sheriff’s Office, Louisiana; and the Albany County Correctional Facility in New York.
       55
          A temporary rate agreement can be effective for up to 12 months pending receipt
and review of actual cost data. It is negotiated when a facility does not have prior cost
history. The [SENSITIVE INFORMAITON REDACTED] temporary rate was only effective for 9
months, at which time the [SENSITIVE INFORMATION REDACTED] was to submit a cost
sheet.

                                           – 32 –
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

      In October 1998, the [SENSITIVE INFORMATION REDACTED]
submitted a cost sheet requesting a jail-day rate of $55. Our review of the
costs and inmate population listed on the cost sheet only supported a
$52.26 jail-day rate. Despite the revised cost sheet, the USMS continued to
pay the [SENSITIVE INFORMATION REDACTED] $65 per jail day, resulting in
overpayments totaling almost $2.9 million for FYs 2004 and 2005.

[SENSITIVE INFORMATION REDACTED]

      In April 2003, the [SENSITIVE INFORMATION REDACTED] submitted a
cost sheet based on FY 2002 costs and requested a jail-day rate of $59.
Based on its desk review, the PAB determined that the cost sheet only
supported a rate of $43.92, and established a temporary IGA rate of $44 for
4 months beginning June 1, 2003.

       As a result of a limited cost review by the USMS audit team, the PAB
issued a modification to increase the temporary jail-day rate to $45.61, with
an expiration date of November 30, 2003. This temporary agreement was
extended twice through February 29, 2004, and subsequently lapsed. On
June 1, 2004, the temporary rate was reinstated and increased to $51.35.
The increase was made retroactive to June 1, 2003 (the effective date of the
temporary IGA increase). As of February 2006, the temporary rate was still
in effect.

      As discussed later in this report, the USMS’s policies are contradictory
with the respect to the retroactive application of rate increases. The USMS
IGA Manual states that retroactive jail-day rates can be approved, but only
under extraordinary circumstances (such as a rate increase request being
delayed due to USMS headquarters backlog or as a result of an audit).
However, USMS Directive 9.26 simply states that rate increases will not be
applied retroactively. In any case, there was no documentation to support
the temporary jail-day rate increase to $51.35, or the retroactive application
of the increase. USMS officials could not provide us with any justification for
the rate increase or for its retroactive application. Additionally, this
temporary rate exceeded the 12–month limit established in the IGA Manual.
Based on the USMS’s use of this jail since the effective date of this rate
increase, we estimate that the USMS may have overpaid $304,668 for
prisoner bed space for FYs 2003 through 2005.




                                    – 33 –
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

[SENSITIVE INFORMATION REDACTED]

       The [SENSITIVE INFORMATION REDACTED] submitted a cost sheet on
June 22, 2004, requesting a rate increase to $60. However, the costs
identified on the cost sheet only supported a rate of $35.23. The USMS
made the temporary rate of $45 permanent on September 1, 2004, even
though the costs identified on the cost sheet did not support the $45 rate.

      Our review of the cost sheet also revealed the following deficiencies:

      •   Total operating costs divided by the average daily population
          equaled $35.23, not the proposed $60 rate;

      •   Salaries for transportation officers were identified as personnel
          costs, even though the USMS was paying separately for
          transportation; and

      •   Four years of depreciation were included on the cost sheet,
          although only 1 year is allowed.

       Despite the cost sheet deficiencies, the USMS IGA analyst
recommended a permanent rate of $45. According to PAB officials
[SENSITIVE INFORMATION REDACTED] is an example of a case where the
USMS set the temporary rate too high and the detention center refused to
accept a lower rate. Additionally, upon closer review of the cost sheet and
the corresponding support, we noted interest expense and depreciation costs
were included in allowable costs twice, as both direct and indirect costs on
the cost sheet. We determined that the cost sheet only supported a $32.50
jail-day rate, rather than $45. Based on the USMS’s use of this jail since the
effective date of the rate increase, we estimate that the USMS may have
paid an additional $264,350 for prisoner bed space for FYs 2004 and 2005.

[SENSITIVE INFORMATION REDACTED]

      The USMS provided a temporary rate increase to the [SENSITIVE
INFORMATION REDACTED] from $42 to $49.39, effective February 1, 2003,
pending the results of a planned USMS audit. On May 23, 2003, the USMS
issued an audit report that supported a lower rate of $40.49. Although the
lower rate was recommended, a modification to lower the rate was not
implemented until May 2, 2005. According to the IGA Manual, temporary
rates can be in effect for up to 12 months pending receipt and review of
actual cost data. However, this temporary rate was in effect for 27 months.



                                     – 34 –
                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

       PAB officials told us that the lower rate was not immediately
implemented because of a backlog of IGA actions, which is discussed later in
this report.56 Further, an IGA analyst told us that the modification was not
immediately implemented because the USM in this district did not want the
lower rate implemented. Based on the USMS’s use of this jail since the
effective date of the rate increase, we estimate that the USMS may have
paid an additional $590,892 for bed space for FYs 2003 through 2005.

[SENSITIVE INFORMATION REDACTED]

       The USMS provided a temporary rate increase from $75 to $80 on
September 1, 2002, to the [SENSITIVE INFORMATION REDACTED]. The
temporary rate was provided pending the results of a planned USMS audit.
On November 5, 2002, the USMS issued an audit report that supported a
lower IGA rate of $73.11. However, rather than reduce the IGA rate, the
$80 rate was extended five times through January 31, 2004 (17 months), to
allow the locality to submit new cost data. A new cost sheet was
subsequently submitted and the PAB analysis of this cost sheet supported a
jail-day rate of $78.48. Despite this analysis, the temporary rate of $80 was
made permanent on February 1, 2004.

      The Acting PAB Chief said that [SENSITIVE INFORMATION REDACTED]
was “fighting for every penny,” and the sheriff would not sign the IGA
agreement for less than the rate he requested; therefore, the temporary
rate was extended even though the USMS audit identified a lower supported
rate. [SENSITIVE INFORMATION REDACTED] was allowed to submit more
current cost data to try to support the higher requested rate. The Acting
Chief also told us that the USMS had “leverage” over this facility to provide
bed space at the lower rate because [SENSITIVE INFORMATION REDACTED]
received funds under the Cooperative Agreement Program (CAP), but the
USMS did not exercise this leverage.57 Based on the USMS’s use of this jail
since the effective date of this rate increase, we estimate that the USMS
may have overpaid $461,127 for bed space for FYs 2003 and 2004.

       56
           IGA actions include establishing a new IGA, revising the jail-day rate; and
establishing a limited or temporary use IGA.
       57
           In locations where detention space is scarce, the USMS provides state and local
governments with funds under the CAP to improve local jail facilities and to expand jail
capacities. In return, the USMS receives guaranteed detention bed space for its federal
detainees. Use of the bed space under a CAP agreement also requires an IGA between the
USMS and the facility. When the USMS uses the bed space guaranteed by the CAP, it pays
a jail-day rate to the facility for each detainee as established through the IGA. The CAPs
state that recipients shall accept a jail-day rate that is supported by actual and allowable jail
operating costs.

                                            – 35 –
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

Policies and Procedures

      The guidance available to the IGA analysts and district personnel for
reviewing IGAs include the IGA Manual, the USMS Directives, the
instructions that are provided with the cost sheet, OMB Circular A-87, and an
OFDT memorandum to the Deputy Attorney General on implementing
Section 119, dated August 1, 2002. The OFDT’s and USMS’s policies and
procedures must be an integral part of their financial and business practices
for awarding and monitoring IGAs. They must contain measures for:
(1) protecting resources against waste, fraud, and inefficiency; (2) ensuring
accuracy and reliability in financial and operating data; (3) securing
compliance with policies; and (4) evaluating performance.

       Our review of the available guidance found that significant
improvements in the guidance provided to IGA analysts are needed as part
of the revamping of the IGA award process. The IGA Manual provides a
general framework of the responsibilities and actions required for the
processing of IGAs. For example, the IGA Manual requires an IGA analyst to
review the cost sheet, calculate a potential jail-day rate, and prepare a
record of negotiation documenting the discussions and rationale for the
established jail-day rate. The USMS Directives provide additional guidance,
but only with respect to district level responsibilities. However, neither the
IGA Manual nor the USMS Directives incorporate the provisions of Section
119 of the 2001 Department of Justice Appropriation Act nor addresses how
non-cost factors, such as a need to alleviate a critical shortage of jail space
in a district, should be considered and valued in establishing jail-day rates.

       The example Record of Negotiation included in the IGA Manual is for a
jail-day rate based only on allowable costs and average daily population and
does not give any guidance on how to consider non-cost factors in
establishing the jail-day rate. The example identifies unallowable costs and
adjustments made to the cost sheet. However, an example for addressing
other factors or awarding a jail-day rate that deviates from the cost sheet is
not provided.

       As stated in 18 U.S.C. § 4013 (a)(4)(C), the jail-day rate charged for
housing federal detainees shall not exceed the allowable costs or “other
conditions” specified in the contract or cooperative agreement. As
previously discussed, the USMS did not always document the basis for its
decisions for establishing jail-day rates that exceeded allowable costs
identified on the cost sheet. Without adequate documentation of how the
jail-day rate was established, we were unable to determine whether the
USMS paid a reasonable jail-day rate. If the USMS considers other

                                    – 36 –
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

conditions, it should specify the other conditions either in the IGAs or record
of negotiation.

      The guidance also does not identify specific types of information USMS
IGA analysts should request to verify cost sheet data. Since IGA analysts
are responsible for verifying cost data in connection with IGAs, we believe
precise instructions should be provided on how to review costs, what
constitutes acceptable documentation to support costs, and when to request
additional information. Without precise instructions, IGA analysts must rely
on their own judgment to determine the types of information to request and
the types of expenditures to question.

       The IGA Manual also specifies that retroactive jail-day rates can be
approved, but only under extraordinary circumstances (such as a rate
increase request being delayed due to USMS headquarters backlog or as a
result of an audit). However, this portion of the IGA Manual appears to
conflict with USMS Directive 9.26, which states that rate increases will not
be applied retroactively. In any case, this policy should be clarified. During
our audit, we identified a jail-day rate increase that was applied retroactively
without a documented reason.58

      As previously discussed, the OFDT is revamping the process for
procuring detention space with the implementation of eIGA. While we
recognize that the law allows the USMS to consider factors other than actual
cost, we believe that the USMS should document the factors that were
considered, and provide an economic analysis of those factors. In addition,
the OFDT should issue guidance that places some reasonable limitation on
the amount of profit allowed. In prior OIG audits, we found profit rates of
63 percent for the [SENSITIVE INFORMATION REDACTED] and 74 percent
for [SENSITIVE INFORMATION REDACTED]. Additionally, during this audit,
we found [SENSITIVE INFORMATION REDACTED] receiving a profit rate of




       58
           As stated earlier, the reasons for the IGA rate increases and the retroactive
application of the rate increases for the [SENSITIVE INFORMATION REDACTED] were not
documented.



                                         – 37 –
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

38 percent.59 Clearly documenting the factors considered in establishing a
jail-day rate, including the intended profit rate, is a prudent and necessary
practice for establishing the reasonableness of a jail-day rate.

      As discussed in Finding II, the OFDT has not yet issued guidance
related to its revamping of the IGA process using eIGA. Because the new
IGA process involves significant changes from past practices, we believe that
the OFDT should expeditiously issue guidance on awarding IGAs through
eIGA before it becomes operational. The policies should include clear
guidance on the following:

       •    how to negotiate with detention facilities;

       •    clearly documenting the basis for negotiated jail-day rates;

       •    evaluating cost and non-cost factors;

       •    when it is appropriate to deviate from the model and how
            deviations will be documented;

       •    defining, evaluating, and documenting the analysis of established
            rates of similar facilities in justifying a jail-day rate; and

       •    limitations on profit that should be included in IGAs.

Training

        Although IGA analysts collectively commit the USMS to pay detention
facilities hundreds of millions of dollars annually, most of the USMS IGA
analysts told us that training was not adequate for their level of
responsibility. IGA analysts were provided only a 2-day training session by
the IGA Audit Branch and took a course on OMB Circular A-87. Further, a
USMS procurement official told us that the IGA analysts on the PAB staff are

       59
           Based on our audit of [SENSITIVE INFORMATION REDACTED], we determined the
jail-day rate based on actual and allowable cost to be $30.62, while the jail-day rate paid to
[SENSITIVE INFORMATION REDACTED] was $50.00 resulting in a profit of $19.38 or 63
percent. In the [SENSITIVE INFORMATION REDACTED] audit, we determined the jail-day
rate based on actual and allowable cost to be $37.36, while the jail-day rate paid to
[SENSITIVE INFORMATION REDACTED] was $65, resulting in a profit of $27.64 or 74
percent. In our current audit, we performed a review of the [SENSITIVE INFORMATION
REDACTED] cost sheet and identified deficiencies. Based on the limited review we
determined the jail-day rate based on actual and allowable cost to be $32.50, while the jail
day rate paid to [SENSITIVE INFORMATION REDACTED] was $45.00, resulting in a profit of
$12.50 or 38 percent.

                                           – 38 –
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

no longer a part of the USMS Procurement Branch. This official stated that
the entire process needs improvement because the number of PAB staff is
limited, and the staff lacks procurement qualifications and formal training.

       The USMS also does not have a formal training program or required
training for its auditors. One auditor indicated that he had annual training to
comply with his Certified Public Accountant license training requirements,
but the other auditors had not received any training. PAB officials told us
that they consider the audit staff to be experienced and therefore may not
need training. However, district personnel responsible for soliciting and
reviewing IGA requests indicated that the bulk of the training they received
was on jail inspections and they received no training on what costs are
allowable on USMS cost sheets when developing an IGA.

       The IGA analysts perform an important function in the acquisition of
detention space, and help ensure that IGAs provide the services the
government needs at a reasonable rate.60 With the conversion to
establishing IGAs through eIGA, the OFDT intends to develop a 16-hour
training course and handbook on how to establish fair and reasonable jail-
day rates using eIGA. In light of this, we believe the USMS should take
additional steps to improve IGA analyst training. The Federal Acquisition
Institute (FAI) details a blueprint for training and development of
procurement officials, as articulated in Section d(3) of the Office of Federal
Procurement Policy Letter No. 97-01.61 The blueprint provides the
foundation for all contract specialist training and developmental activities to
ensure consistency in acquisition activities across federal agencies and
departments. The acquisition career model, as articulated by the FAI, offers
advice on how to develop the skills and capabilities necessary for effective
performance of acquisition roles, including the contract specialist role.

      While all the competencies outlined in the blueprint may not directly
relate to IGAs, the information provides a framework for IGA reviews and a
better understanding of the important role the USMS IGA analyst has in the
procurement process. Further, some of the competencies and training may

       60
           Although the PAB identifies staff as IGA analysts, the IGA Manual still uses the
contract specialist title because IGA analysts were previously considered contract
specialists. Whether staff are identified as contract specialists or IGA analysts, both job
descriptions have similar roles in the acquisition process.
       61
          In 1976, Congress established FAI under the Office of Federal Procurement Policy.
The General Services Administration acts as its executive agent, providing funding and
support for FAI. The mission of FAI is to foster and promote the development of a
professional acquisition workforce into effective business leaders.

                                           – 39 –
                         REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE

directly relate to IGA awards, such as: (1) acquisition planning, (2) price
analysis and negotiations, (3) applying non-price factors,
(4) communications and fact-finding, and (5) conducting
discussions/negotiations.

Defining Responsibilities for Establishing and Monitoring IGA Costs

      As discussed in the Introduction to this report, USMS district personnel
and the PAB share responsibility for establishing and monitoring IGA costs.
We found that the oversight of IGAs by the Districts and USMS Headquarters
was deficient.

District Responsibilities

       The USMS Directives state that each United States Marshal (USM) will
review the cost sheets for completeness and accuracy of information
(particularly staffing levels and types of services provided). Since each
district is responsible for identifying and coordinating its detention needs and
submitting to the Prisoner Service Division (PSD) cost sheets as part of the
IGA package, the PAB, a branch of the PSD, believes the districts are in a
better position to identify and correct deficient cost sheets.

      However, we interviewed personnel from the USMS districts of Eastern
Virginia, Northern Georgia, Western Texas, Nevada, and Western North
Carolina and determined that four of the five district offices performed no
review of the cost sheets. Instead, district level employees only provided
the cost sheet and a point of contact at USMS headquarters for assistance in
helping with cost sheets. District officials from Northern Georgia told us that
they reviewed cost sheets, but qualified their review by saying that they only
review the cost sheets for “obvious errors.”

       In addition, officials at all five districts told us that they are not
involved in the post-award monitoring of detention center costs other than
billing reviews and annual jail inspections. Personnel in two districts
(Western Texas and Northern Georgia) told us that they monitor IGA
expiration dates. In Western Texas, a district representative stated that his
district monitors expiration dates on temporary agreements, but most if not
all of their IGAs do not include expiration dates and have been in effect for
20 years. However, we found that 12 of the 62 active IGAs in Western
Texas had expiration dates, and 5 of the 12 had already expired.
Additionally, in the Northern District of Georgia, the Deputy USM told us that
the district monitors IGA expiration dates on a regular basis and that
recently he noted an agreement was going to expire and started the process


                                    – 40 –
                      REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE

to establish a new agreement. However, when we visited the facility with
the expiring IGA, the facility had not begun the process to secure a new rate
even though the current IGA was set to expire in a month.

       From our review of 34 sampled IGAs, we determined that 6 either had
expired or lapsed for 3 years before being reinstated.62 According to PAB
officials, these IGAs expired because the local governments were not timely
in submitting their cost sheets or other data as required, and districts were
not monitoring expiration dates.

      Based on our review of the 34 IGAs, we queried the USMS’s
“Prisoners” database for additional expired IGAs and identified 451 IGAs that
had expiration dates.63 As of January 31, 2006, 330 of the 451 IGAs had
expired. Of the 330 expired IGAs, we identified 157, 216, and 300 IGAs that
were expired as of the end of FY 2003, 2004, and 2005, respectively. We
estimate that the USMS paid over $175 million on the expired IGAs during
FYs 2003-2005.

Programs and Assistance Branch Responsibilities

       At the Programs and Assistance Branch (PAB), IGA analysts review
cost sheets for cost allowability and accuracy of capacity and average daily
population. Despite the increasing need for prisoner bed space, reductions
in PAB staff limited the USMS’s ability to follow up on cost sheets and
temporary rates and monitor IGAs after rates were established. We
reviewed PAB staffing reports from 1999 through 2006 and found that
staffing levels dropped by approximately 50 percent since 1999 as shown in
the following table:




       62
            The six IGAs that either expired or lapsed were: LaSalle County Regional Jail,
Texas; Randolph County Jail, North Carolina; Allegany County Jail, Maryland; Yolo County
Jail, California; Connecticut Department of Corrections, Connecticut; and Western Tidewater
Regional Jail, Virginia.
       63
          “Prisoners” is an Access database that the USMS maintains on detention facilities
used to house detainees. The database includes IGA agreements, private contracts for
prisoner bed space, and federal detention centers.

                                          – 41 –
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE



                          PAB Authorized Positions
                                and Vacancies
                                  Authorized
                     Fiscal Year   Positions  Vacancies
                        1999          11          2
                        2000           9          1
                        2001           9          1
                        2002           9          1
                        2003           7          2
                        2004           6          1
                        2005           6          1
                        2006           6          3
                    Source: PAB Staffing Reports

      We found that the reduced staffing resulted in a backlog of IGA
actions, such as the establishment of temporary or new jail-day rates, which
needed to be reviewed.

      The PAB uses a report entitled “Request for Detention Space (RDS)” to
track IGA actions.64 We reviewed the June 2005 RDS report and identified
251 backlogged IGA actions, some of which went as far back as FY 2002.

       Further, we noted that the number of audits performed by the USMS
IGA Audit Branch decreased from 29 audits in 2003, to 16 in 2004, to 1
audit in 2005. The decline in the number of audits put an increasing burden
on IGA analysts to identify unallowable costs prior to the establishment of a
jail-day rate.

      With limited staffing and a backlog of IGA actions, the PAB performed
limited post-award IGA monitoring. For example, as previously discussed,
the IGA Manual indicates that a temporary rate should only be effective for
up to 12 months pending receipt and review of actual cost data. However,
the USMS established temporary rates that extended well beyond 12 months
for the [SENSITIVE INFORMATION REDACTED].




      64
          RDS refers to the USM Form-243, “Request for Detention Space,” which is
prepared by the district and submitted to PAB along with the cost sheet and other
supporting materials.



                                        – 42 –
                       REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

       According to PAB officials, once an IGA is in place it usually remains in
effect at the initial jail-day rate until the detention center requests a change.
Because we found limited monitoring of IGAs after an award, an IGA could
remain in place indefinitely without the USMS knowing if a rate change is
warranted. Yet, after an IGA is awarded, conditions may change that
require an IGA to be revised and warrant a reduction in a jail-day rate. For
example, in our audit of the [SENSITIVE INFORMATION REDACTED], the
original FY 1996 cost sheet was based on an average daily population of
244.65 However, in FY 2004 the average daily population was 877, an
increase of 260 percent. This resulted in an audited rate that was $17 less
than the rate paid by the USMS, for total unallowable and unsupported costs
of over $5 million for 2 years.

        Although PAB officials indicated that each district is in the best position
to monitor IGAs, they also told us that districts may not report issues,
especially if they believe the issue could result in the cancellation of an IGA.
If a detention center cancels an IGA, the USMS would have to find a new
facility to house detainees, which may be less convenient than the detention
center being used. PAB officials told us that the USMS districts do not want
to “stir up the pot,” especially if they need the bed space.

       Monitoring IGAs to ensure that the cost and average daily population
continue to reflect an appropriate jail-day rate may no longer be an issue if
all future IGAs are awarded under the revamped process discussed in
Finding II. However, districts will continue to play an important role in
identifying detention facilities that meet USMS standards. We believe
district and PAB responsibilities need clarification, even under the new
process, especially those pertaining to establishing rates and monitoring
expiration.

Conclusion

      Consistent with our prior IGA audits, our review of 34 IGAs as part of
this audit identified jail-day rates that lacked adequate supporting
documentation. Although the OFDT and USMS are pursuing the
implementation of eIGA, as of July 2006 it has remained a pilot program,
and the OFDT has not issued any policies and procedures related to the new
process.



      65
          Department of Justice, Office of the Inspector General. Audit Report Number GR-
60-06-002, The United States Marshals Service Intergovernmental Service Agreement for
Detention Services with the [SENSITIVE INFORMATION REDACTED].

                                        – 43 –
                       REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

       The IGA Manual currently does not address how non-cost factors
should be considered and valued in establishing jail-day rates. Further, the
USMS generally did not document its decisions for establishing jail-day rates
that exceeded allowable costs identified on the cost sheet. Without
adequate documentation of how jail-day rates were established, we were
unable to assess the appropriateness of the jail-day rate paid by the USMS.
If the USMS considered conditions other than cost, it should be required to
specify the conditions either in the IGAs or the record of negotiation.

       In addition, although IGA analysts collectively commit the USMS to
pay detention facilities hundreds of millions of dollars annually, most of the
IGA analysts told us that the training they received was not adequate for
their level of responsibility. We believe annual training plans should be
developed that will provide them procurement core competencies such as
those outlined by FAI.

       Finally, despite the increasing need for detention bed space, staff
reductions in the USMS’s PAB has significantly limited the USMS’s ability to
review and follow up on inadequate cost sheets and USMS audits. We
reviewed PAB staffing reports from 1999 through 2006 and found that
authorized staff levels dropped from 11 full-time equivalents (FTEs) in 1999
to 6 FTEs in 2005. Further, we noted that the number of audits performed
by the USMS IGA Audit Branch decreased from 29 audits in 2003, to 16 in
2004, to 1 in 2005. In our judgment, the decline in the number of audits
performed by the Audit Branch put an increasing burden on IGA analysts to
identify unallowable costs prior to the establishment of a jail-day rate, and
also undermines an important check on rising detention costs.




                                    – 44 –
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE



Recommendations

      We recommend that the OFDT:

5.    Develop guidance and training for the USMS on how jail-day rates will
      be established using eIGA. The guidance and training should include
      how to negotiate with detention facilities, clearly documenting the
      basis for negotiated jail-day rates, evaluating cost and non-cost
      factors, when it is appropriate to deviate from the scheduled
      adjustments to the core rate, how deviations should be documented,
      defining what constitutes an appropriate facility to compare jail-day
      rates, evaluating and documenting the analysis of established jail-day
      rates of similar facilities in justifying a jail-day rate, documenting the
      rationale for any retroactive increase or extension of temporary
      agreements, and ensuring that follow-up on temporary jail-day rates is
      timely.

6.    Develop guidance that limits the amount of profit a state or local jail
      can earn for housing federal prisoners.

      We recommend that the USMS:

7.    Develop annual training plans for IGA analysts that will provide
      appropriate procurement core competencies such as those outlined by
      the Federal Acquisition Institute.

8.    Update policies that clearly describe PAB and USMS responsibilities for
      establishing and monitoring IGAs.

9.    Review all IGAs to ensure that the agreements are current, and
      prepare new agreements for those that have expired.

10.   Ensure adequate resources are provided to oversee IGAs. This
      includes adequate staffing for the review and approval of IGA actions,
      and for the audit of IGAs.




                                    – 45 –
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


              STATEMENT ON INTERNAL CONTROLS

      In planning and performing the audit of the USMS’s and OFDT’s
Oversight of IGAs, we considered the internal control structure for the award
and monitoring of IGAs and payments under those agreements. We focused
on the internal controls related to the determination of the IGA jail-day rate,
amounts and types of payments made to state and local facilities, and
compliance with internal policies concerning IGAs.

      This evaluation was not made for the purpose of providing assurance
on the internal controls over IGAs as a whole. However, we noted certain
matters involving the internal controls that we considered to be reportable
conditions under the Government Auditing Standards. Reportable conditions
involve matters coming to our attention relating to significant deficiencies in
the design or operation of the internal control structure that, in our
judgment, could adversely affect the ability of the USMS and OFDT to use
funds efficiently and effectively. We found that the system for awarding and
monitoring IGAs need vast improvements (see Findings II and III).

      Because we are not expressing an opinion on the USMS’s and OFDT’s
controls over IGAs as a whole, this statement is intended solely for the
information and use of USMS and OFDT management in monitoring the IGA
program. This restriction is not intended to limit the distribution of this
report.




                                    – 46 –
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE



                  STATEMENT ON COMPLIANCE WITH
                      LAWS AND REGULATIONS

      This audit assessed USMS and OFDT’s monitoring and oversight
process for IGAS. In connection with the audit, as required by Government
Auditing Standards, we reviewed management processes and records to
obtain reasonable assurance concerning the USMS’s and OFDT’s compliance
with laws and regulations that, if not complied with, in our judgment, could
have a material effect on USMS and OFDT operations. Compliance with laws
and regulations applicable to the monitoring and oversight of IGAs is the
responsibility of USMS and OFDT’s management.

      Our audit included examining evidence about laws and regulations.
Specifically, we conducted our review against relevant portions of the OMB
A-87. Our audit identified areas where the USMS and OFDT were not in
compliance with OMB A-87.




                                  – 47 –
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


                                                               APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY
      The objective of the audit was to determine if the USMS and OFDT
employed an effective monitoring and oversight process for IGAs. We
conducted our audit in accordance with Government Auditing Standards and
included such tests as were considered necessary to accomplish our
objective. Our audit concentrated on but was not limited to FYs 2001-2005.

       We obtained an understanding of the process to establish an IGA by
interviewing pertinent personnel from the OFDT and USMS staff involved
with finance, budgeting, procurement, auditing, and the prisoner services
group. We also reviewed the policies and procedures used to establish an
IGA, including the USM-243 – Cost Sheet instructions found at the USMS
web site, the USMS Publication number 108 Instructions for Completing
United States Marshals Service Cost Sheet for Detention Services (USM-243)
otherwise known as the “green book” (March 2000), USMS Directives 9.25 –
Housing Prisoners in USMS Custody (October 2003), USMS Directive 9.26
Detention Facility Contracting Policies and Procedures (October 2003), the
USMS Intergovernmental Services Agreement Program Policies and
Procedures Manual, and OMB Circular A-87.

      As part of our audit, we relied on the USMS’s “Prisoners” database to
arrive at the universe of IGAs. “Prisoners” is an Access database that the
USMS maintains on detention facilities used to house detainees. Prisoners
includes IGA facilities, private contract facilities, federal detention centers,
and no-contract facilities. However, it was not always clear to us which were
IGA facilities. The database also contained IGAs using different numbering
formats that hindered our ability to secure information about a specific IGA
since the current IGA number may not be in the database.

       Using the RDS report, we judgmentally selected the following 34 IGA
files for review:




                                    – 48 –
                     REDACTED FOR PUBLIC RELEASE
                  REDACTED FOR PUBLIC RELEASE

                              Sampled IGA Files
Note    USM                       Facility                     IGA       Payments FY
       District                    Name                      Number       2001-2005

        S/TX      LaSalle County Regional Jail, Texas      79-04-0043       2,474,365
        M/FL      Charlotte County Jail, Florida           18-02-0069       4,670,076
         SD       Winner City Jail, South Dakota           73-03-0060         623,050
        M/NC      Randolph County Jail, North Carolina     57-04-0026         989,050
         MD       Allegany County Jail, Maryland           37-01-0020       1,627,130
        M/FL      Hillsborough County Jail, Florida        18-04-0008      25,394,220
         MT       Crossroads Correctional Center,          46-03-0043       2,593,969
                  Montana
         MN       Arrowhead Juvenile Detention Center,     41-02-0070           1,134
                  Minnesota
        N/NY      Washington County Jail, New York         52-04-0033         523,385
         OR       Lane County Adult Correctional           65-02-0033       7,951,994
                  Facility, Oregon
        N/CA      Santa Rita Jail, California              11-03-0047      13,584,609
        E/CA      Yolo County Jail, California             97-00-0002       1,351,558
        S/TX      LaSalle County Jail, LaSalle             79-02-0093      12,701,247
        S/TX      Nueces County Jail, Texas                79-03-0009      20,237,768
        E/LA      St Tammany Parish Jail, Louisiana        34-03-0013       1,537,852
         MD       Charles County Detention Center,         37-95-0047       6,387,318
                  Maryland
         OR       Clackamas County Jail, Oregon            65-99-0193           1,672
        E/TX      Hunt County Jail, Texas                  78-03-0054       1,431,772
        N/NY      Albany County Jail, New York             52-03-0023       7,418,714
         CT       Connecticut Department of Corrections    14-03-0046      10,429,552
         MN       Tri-County Community Corrections,        41-04-0037            114
                  Minnesota
         MN       Sherburne County Jail, Minnesota         41-99-0129      22,496,766
        S/IL      Alton Law Enforcement Center, Illinois   25-04-0041         142,016
 A       DC       D.C. Department of Corrections           16-00-0016      71,089,111
 B      E/VA      Western Tidewater Regional Jail,         83-92-0082       9,658,732
                  Virginia
 C      E/LA      Orleans Parish Community Corrections     J-D34-M-083     12,133,980
                  Center, Louisiana
 D      W/NC      Mecklenburg County Regional Jail,        58-00-0067      60,420,733
                  North Carolina




                                       – 49 –
                  REDACTED FOR PUBLIC RELEASE
                           REDACTED FOR PUBLIC RELEASE

       D          W/NC     Caldwell Detention Center, North         58-99-0210    2,502,315
                           Carolina
       D          N/GA     South Fulton Regional Jail, Georgia      19-01-0006   12,713,773
       D          N/GA     Floyd County Regional Jail, Georgia      19-04-0003     789,007
       D          W/TX     Crystal City Corrections Center, Texas   80-04-0005   28,627,496
       D          W/TX     Wilson County Justice Center, Texas      80-00-0028    6,038,955
       D           NV      Las Vegas City Jail, Nevada              48-99-0084   15,733,308
       D           NV      Washoe County Jail, Nevada               48-00-0136    8,156,347

   A       -   We concurrently audited this IGA, [SENSITIVE INFORMATION REDACTED]
   B       -   We concurrently audited this IGA, [SENSITIVE INFORMATION REDACTED].
   C       -   We issued a report in [SENSITIVE INFORMATION REDACTED]. During our audit,
               the USMS was in the process of following up on our report.
   D       -   We performed field work at these five USMS districts and eight detention
               facilities.

       Our sample included different types of IGA actions that were processed
by the USMS (e.g., establishing a new IGA or increasing an existing IGA
rate) from each USMS IGA analyst (to the extent that each IGA analyst
processed a specific action). Except as noted in the previous table, we did
not select IGAs that the OIG previously audited. For each action selected,
we reviewed the entire IGA file at USMS headquarters to determine the
history of the IGA including the initial award process and the review process
for any subsequent modifications. We reviewed cost sheets, records of
negotiations, and available cost and average daily population data utilized by
the USMS in establishing jail-day rates.

       For eight of the IGAs located in five USMS district offices, as noted in
the table, we interviewed the United States Marshals or their representative
to discuss the IGA monitoring process at that district, and any concerns they
had relative to the specific facilities we would be visiting or the IGA process
in general. We also selected a judgmental sample of high-dollar or high-risk
cost items listed on the state or local cost sheet and verified them to
supporting records located at the detention facility. In addition, we selected
a judgmental sample of USMS payments to tie back to billing statements and
supporting documentation.

      As part of our follow up on the OFDT’s instruction to the USMS and the
revamping of the IGA process, we interviewed personnel from the OFDT and
USMS. We discussed the disagreement and the revamping of the IGA
process through the eIGA system. The OFDT gave us a demonstration of
the eIGA system, and we reviewed documentation pertaining to the
econometric statistical pricing model that the system is based on. However,
we did not audit the appropriateness of the schedule of adjustments, and do

                                               – 50 –
                           REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

not provide assurance that the factors and values used to arrive at the
adjusted core rate are appropriate.

      As of June 2006, the OFDT and USMS used the model to award about
90 IGAs as part of a pilot of the model. We reviewed detailed
documentation from OFDT and the USMS for 11 judgmentally selected IGAs
to determine: (1) whether the awarded rates were within the model’s
[SENSITIVE INFORMATION REDACTED], and (2) how the awarded rates
compared to the cost-based rate previously used in awarding IGAs.

      As a part of the annual financial statement audit, the USMS financial
management systems are reviewed to determine their compliance with the
federal financial management systems requirements, applicable federal
accounting standards, and the United States General Ledger. The FY 2005
independent auditor’s report on compliance reported that the USMS’s
financial management systems did not substantially comply with the
requirements of the Federal Financial Management Improvement Act
(FFMIA) of 1996. Nevertheless, we believe that the data used for our
sampling and testing purposes was reliable to the extent needed.




                                   – 51 –
                    REDACTED FOR PUBLIC RELEASE
                                             REDACTED FOR PUBLIC RELEASE



                                                                                                                       APPENDIX II

                                              OFDT FUNCTIONAL AREAS

 Budget, Finance        Information            Procurement              Detention               General                  Office of
 and Forecasting        Technology                                    Standards and             Counsel                 Management
                                                                       Compliance                                     & Administration


• OFDT budget        • Develop and          • OFDT procurement      • Review, maintain    • Provide legal         • Strategic planning
 formulation and       implement              and oversight and       and coordinate        advice and counsel      (DOJ, OFDT, JPATS)
 execution             enterprise IT          strategic planning      detention
                       solutions                                      standards           • Provide opinion,      • OFDT project and
• Detention budget                          • Acquisition                                   review, and legal       business action plans
 formulation and     • Maintain and           management            • Facility review       interpretation with
 execution             support legacy                                 and compliance        respect to            • External
                       systems              • DOJ component                                 detention               communications
• Cost estimation                             procurement           • Identify and          operations and
                     • Lead, participate      support                 disseminate best      legislation           • Legislative affairs
• Modeling and         in, or collaborate                             practices
 forecasting           with DOJ and         • DHS/ICE                                     • FOIA activities       • OFDT GPRA
                       other detention        procurement           • Apply                                         requirements including
• Research and         agency                 support                 performance-        • Development of          PART
 analysis of           components on                                  based contracting     OFDT regulations
 detention             information          • Contract                standards             and policies          • OFDT administrative
 statistical data      sharing activities     development,                                                          operations, travel, office
                                              negotiation, and      • Subject matter                                budget execution,
• Component cost     • Manage OFDT IT         administration          experts - field                               personnel, training,
 estimates and         infrastructure and                             interface data                                property management,
 billing               programs                                       collection                                    supplies, purchasing,
                                                                                                                    calendar and schedules

                                                                                                                  • Correspondence




                                                                   – 52 –
                                             REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE


                                                         APPENDIX III

                    IGA-RELATED USMS FORMS

     The following pages contain examples of each form listed
below.

     USM-243 – Cost Sheet for Detention Services

     USM-243 Instructions




                                  – 53 –

                   REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 54 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 55 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 56 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 57 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 58 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 59 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 60 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 61 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 62 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 63 –

REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE

                          Instructions for USM-243
              USM-243: Cost Sheet for Detention Services



Information on how to fill out the form, download the form, and assist local
detention facility officials in completing the form:

Click the links below to go to instructions for filling out Form USM-243:


Form USM-243:
SCHEDULE SCHEDULE SCHEDULE SCHEDULE SCHEDULE SCHEDULE E SCHEDULE F SCHEDULE
   A      B - Part I B - Part II C     D                              G
 Summary   (Personnel (Personnel   Consultants   Other        Cost      Equipment      Building
             Costs)    Benefits)      and      Direct Jail Allocation (Depreciation) Depreciation
                                    Contract   Operating Plans/Indirect   Costs
                                    Services     Costs        Cost
                                                           Proposals




What is it?

The Marshals Service is dependent upon state or local governments for the provision
of detention space and services for federal prisoners.

In support of this requirement, Intergovernmental Agreements (IGAs) are
established with those local and state governments willing to provide detention
space for federal prisoners in return for a mutually acceptable fixed per diem rate
based on actual and allowable costs.

To request a per diem rate or an increase to the current per diem rate, the USMS
requires the local governments to complete and submit a Form USM-243, Cost
Sheet for Detention Services, to the local United States Marshal’s office. The local
USMS office will forward the cost sheet to the Prisoner Services Division for review,
evaluation, and approval.

BACKGROUND

Title 18, United States Code (U.S.C.) 4013(a), authorizes the Attorney General to
make payments from the Federal Prisoner Detention Appropriation for the necessary
clothing, medical care, guard services, housing, care, and security of prisoners held
in custody of a United States Marshal pursuant to federal law, under agreements
with state or local units of government.

The United States Marshals Service (USMS) recognizes that the Federal Government
is dependent upon state or local governments for the provision of detention space
and services for federal prisoners held for court appearances or for transport to a
designated facility for service of sentence.


                                                – 64 –

                          REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


In support of this requirement, Intergovernmental Agreements (IGAs) are
established with those local and state governments willing to provide detention
space for federal prisoners in return for a mutually acceptable fixed per diem rate
based on actual and allowable costs.

An IGA is a formal written agreement between the USMS and a state or local
government to house federal prisoners at a fixed per diem rate based on actual and
allowable costs for the same level of service provided to state or local prisoners in a
specific facility. To request a per diem rate or an increase to the current per diem
rate, the USMS requires the local governments to complete and submit a Form USM-
243, Cost Sheet for Detention Services, to the local United States Marshal's office.
The local USMS office will forward the cost sheet to the Prisoner Services Division for
review, evaluation, and approval.

Transportation services of prisoners to and from court and medical facilities, as well
as medical guard services are allowable as a separate line item to the IGA. Other
Department of Justice user components are the Immigration and Naturalization
Service and the Bureau of Prisons.

PURPOSE

The purpose of this guide is to provide clear and consistent guidance for preparation
of Form USM-243, Cost Sheet for Detention Services. Criteria used to evaluate fixed
per diem rates based on actual and allowable costs will be in accordance with the
Office of Management and Budget (OMB) Circular A-87, Cost Principles for State,
Local, and Indian Tribal Governments. OMB Circular A-87 establishes principles and
standards to provide a uniform approach for determining costs and will be strictly
adhered to.


BASIC GUIDELINES

The fixed per diem rate will be computed on the basis of actual, allowable, and
allocable direct and indirect costs associated with the operation of the facility and
that benefit federal prisoners during the most recent accounting period. Accurate
prisoner population data must be submitted for the same accounting period as the
cost data submitted.

The IGAs issued by the USMS are fixed rate, fixed term, and cannot be adjusted
until the rate has been in effect for a period of at least 12 months from the effective
date of the agreement.

The state or local government will submit a written request at least 60 days before
the intended

effective date of any proposed rate changes. Further, the state or local government
must understand that the rate may increase, decrease or remain the same as the
previous IGA rate. Submission of a budget statement by the state or local
government in lieu of the Form USM-243 is not acceptable.


                                           – 65 –

                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


To be allowable, costs must be:

   •   authorized or prohibited under State or local laws or regulations;
   •   in accordance with generally accepted accounting principles;
   •   net of all applicable credits; and
   •   adequately documented.

In determining reasonableness of a given cost, consideration will be given to
whether the cost is generally recognized as ordinary, necessary, and allocable to the
federal award.

   •   A determination will be made whether specific costs benefit federal prisoners.
       If the costs do not benefit federal prisoners, they cannot be claimed on the
       Cost Sheet. Costs not benefiting federal prisoners are identified as individual
       line items throughout this document. Some examples of unallowable costs
       are:
   •   Work Release Program or similar program costs, since USMS prisoners do not
       participate in this program. If the U.S. Bureau of Prisons houses prisoners at
       the detention facility as a user-agency and those prisoners participate in the
       Work Release Program, then the related costs may be allowable;
   •   Off-site medical care costs and prescription costs for local inmates and USMS
       prisoners. when the USMS is billed and pays separately to the medical
       facility; and
   •   Costs to operate other local detention facilities where no USMS prisoners are
       housed. Prisoner population data for the other facilities must not be included
       in Schedule A, Section III.

CREDITS AND OFFSETS TO REPORTED COSTS

Federal grants, services generating revenues, and credits must be offset against the
costs submitted on the Form USM-243. See Schedule D for specific items requiring
offsetting against operational costs.

REQUIRED ADJUSTMENTS TO REPORTED COSTS

Adjustments are required to certain cost categories based on the procedural and
physical operations of the detention facility. Specific items requiring adjustment are
identified throughout this document, and because of their importance, are also listed
below:

If non-detention staff of the sheriff/police department provides services to the
detention facility or if the detention staff provides services to functions of the sheriff
department, their salary and benefit costs of those employees will be prorated based
on the time expended in support of the detention facility. Those costs must be
reasonable and allocable to a cost center. Staff of the sheriff/police department used
to provide transportation/guard services is not to be included in the operating costs.
Guard/transportation services is shown as a separate line item on the IGA. The
composition of cost is based on the average salary and benefits of the staff that will
be used to perform guard/transportation services. The costs are to be provided on a
sheet of letterhead and attached to the costs data.

                                            – 66 –

                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


If the sheriff/police chief allocates their time between the detention facility and other
law enforcement functions of the department, salary and benefit costs must be
prorated based on the amount of time expended in support of the detention facility;

If the detention facility is co-occupied by the sheriff/police department, local courts,
probation or other local government departments, the costs of utilities, insurance,
maintenance, interest and depreciation/use allowance must be prorated based upon
the space occupied by each entity to the total space of the detention facility; and

If there is idle or unused space within the detention facility, the costs of utilities,
insurance, maintenance, interest and depreciation/use allowance must be prorated
based upon the percentage of the idle/unused space to the total space of the
detention facility.

COST SHEET FOR DETENTION SERVICES (FORM USM-243)

The following instructions are provided as a guide to assist in the preparation of the
Form USM-243 and should be used in conjunction with OMB Circular A-87.

SCHEDULE A - Summary

Section I - General Information

Enter the name, phone number, and address of the detention facility in the
appropriate spaces.

Section II - Financial Data Summary

Line A. Time Frame (fiscal year). Enter the most recently concluded fiscal year that
corresponds to the accounting period of the cost submission.

Lines B-H. Enter the computed totals from Schedules B through G.

Line I. Total Operating Costs (Sum of Schedules B-G). Enter the total of Lines B
through H.

Total Actual Operating Costs from Prior Fiscal Year. For the categories reported on
the Cost Sheet, enter the comparable operating costs for the prior fiscal year.

Section III - Prisoner Population Information

Prisoner population data must be submitted for the same accounting period as the
cost data submitted. Enter the total inmate capacity of the detention facility and the
average prisoner population by prisoner type in the appropriate blocks. The average
daily prisoner population data should be verifiable to daily count logs or similar
control documents.

If the detention facility houses local prisoners elsewhere for a fee, related costs of
such an arrangement are not allowable for IGA rate-computation purposes;
therefore, the prisoners boarded out must be excluded from the prisoner population
                                            – 67 –

                         REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


data.

Section IV - Per Diem

Enter the requested per diem day rate to be charged for the housing of federal
prisoners. and the per diem rate paid by other local and state governments for
housing their prisoners.

Section V - Local Government Contact

Enter the name of the individual authorized to represent and to act for the local
government in jail-day rate negotiations.

Section VI - Certification Statement

The Form USM-243 may be prepared by an individual who has knowledge of and
access to the budge and accounting records for which this cost data is based;
however, it must be signed by the Comptroller or Chief Financial Officer of the local
government.

SCHEDULE B - Part I (Personnel Costs)

Regular and overtime salaries of personnel by position that work at the detention
facility on a full-time and part-time basis are allowable as direct operating costs. If
available, a list of these employees (full names, title, and salaries) should be
submitted to support Schedule B.

Full-time and part-time salaries for the following personnel on the detention facility's
payroll are usually allowable in full:

   •    jail management officials, except the sheriffs salary is only allowable based
        on the percentage of time spent managing the detention facility's operations;
   •    administrative support personnel;
   •    detention officers and other uniformed personnel assigned to the detention
        facility;
   •    maintenance personnel;
   •    cooks and aides;
   •    training officers may be claimed as part-time personnel. (If this position is
        responsible for training the entire sheriffs department, then costs must be
        prorated and based on a verifiable method, such as the percentage of
        allowed employees assigned to the detention facility to the sheriffs
        department's total staffing level.);
   •    on-site medical personnel, if services are provided to all prisoners;
   •    religious counselors; and
   •    transportation officers, if they also perform duties as a detention officer.

Guard/transportation services are shown as a separate line item on the IGA as an
hourly rate when the primary duties are to provide guard transportation services.



                                            – 68 –

                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


Salaries of personnel who perform services that do not benefit federal prisoners are
not allowable as follows:

   •   appointed and elected officials; e.g.. mayors. district attorneys, board of
       supervisors, county judges, etc.;
   •   public defenders, probation/parole officers, local prisoners' attorneys and
       other local court personnel;
   •   commissary personnel, if the costs are reimbursed from commissary profits;
   •   staff assigned to the Work Release Program or similar programs that USMS
       prisoners do not participate in. If the U.S. Bureau of Prisons houses prisoners
       at the detention facility as a user-agency and those prisoners participate in
       the Work Release Program, then the related costs may be allowable;
   •   law enforcement personnel assigned to non-detention functions of the
       sheriff/police department such as patrol officers, detectives, and
       investigators;
   •   personnel assigned to local farm operations that support the detention facility
       and that local prisoners participate in; and
   •   transportation officer if they do not transport federal prisoners

SCHEDULE B - Part II (Personnel Benefits)

Generally, all related paid personnel benefit costs are allowable for the positions
stated above. If salary costs were prorated then the benefits must also be prorated.
The following are types of personnel benefits that are allowable:

   •   retirement plan costs;
   •   state and federal (FICA) payroll taxes (limited to a maximum of 7.65
       percent);
   •   life, health, and dental insurance plans;
   •   workman's compensation insurance; and
   •   employee uniforms, including shoes, if not claimed as a direct operating cost
       under Schedule D.

SCHEDULE C - Consultants and Contract Services

Costs for consultant and contract services are allowable to the extent that they
benefit federal prisoners. The following contract services are usually allowable:

   •   in-house medical, dental, and mental health care. Medical co-payments
       charged to local prisoners must be offset against any claimed medical costs.
       Medical co-payments cannot be charged to federal prisoners or the Federal
       Government;
   •   laboratory and x-ray costs provided to federal prisoners if the USMS is not
       billed separately for these services;
   •   custodial and maintenance (prorate if building is co-occupied);
   •   legal services (see unallowable direct costs for exceptions); and
       nondenominational religious services.
   •   The following types of contract costs are usually not allowable:
   •   GED and other educational programs, if the short confinement periods for
       federal prisoners do not allow adequate participation time;
   •   prescription/pharmacy, if the USMS is billed separately for such medication;
                                           – 69 –

                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


       and
   •   electronic monitoring of prisoners and home detention.


SCHEDULE D - Other Direct Jail Operating Costs

The following are examples of cost categories that can be claimed on the Cost
Sheet. Any amounts incurred in support of local court and/or law enforcement
activities are not allowable. All direct costs must be reasonable and allowable under
OMB Circular A-87 guidelines and supported by paid invoices and transaction listing
or general ledger entries. Operating costs of separate detention facilities not utilized
by federal prisoners are unallowable costs including work release facilities.

   •   food and kitchen supplies. Any monies realized from an employee meal
       program in operation at the detention facility must be offset against the
       claimed cost;
   •   inmate clothing;
   •   medical care supplies;
   •   bedding and linen;
   •   toiletries;
   •   recreation and education. If any costs are reimbursed by the Commissary
       fund, the reimbursement must be offset against the claimed cost;
   •   utilities (prorate, if building is co-occupied);
   •   employee uniforms, including shoes (detention facility staff only, and only if
       not included as a personnel benefit);
   •   safety and sanitation supplies and services (prorate if building is co-
       occupied);
   •   maintenance supplies (prorate if building is co-occupied);
   •   office supplies and postage;
   •   telephone and communication (prorate if building is co-occupied);
   •   insurance (prorate if building is co-occupied). Any refunds and earnings or
       investment income on self-insurance reserves must be offset against the
       claimed cost;
   •   employee education, conferences, and subscriptions related to the operation
       of the detention facility;
   •   travel expenses. 4 1 CFR 30 1, Federal Travel Regulation, should be utilized
       as a guide for evaluating the allowableness of travel expense claims;
   •   interest as long as the financing costs were paid or incurred on or after
       September 1, 1995, for new construction, renovation and expansion that was
       completed on or after October 1, 1980 (prorate if building is co-occupied).
       Debt services (principle) is unallowable and any earnings on debt service
       reserve funds and interest earned on the borrowed funds pending payment of
       expenses must be offset against the claimed cost.
   •   current year purchases of equipment costing less than $5,000 (or a lesser
       amount in accordance with the local government's established equipment
       capitalization policy). An inventory list of the equipment must be maintained
       that includes description, date purchased, cost, etc. The cost of equipment
       claimed here cannot be included on Schedule F - Equipment Cost for the
       purpose of computing allowable depreciation charges.




                                            – 70 –

                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


The following direct costs are not allowable:

   •   fees paid to other local governments for the housing of local prisoners.
       Prisoners housed at other facilities should not be included in the prisoner
       population data submitted in Schedule A, Section III, Prisoner Population
       Information;
   •   off-site hospital and medical care for local prisoners and USMS prisoners if
       billed and paid separately by the federal government for similar services;
   •   costs for transporting and producing local prisoners to local court
       proceedings;
   •   alcoholic beverages;
   •   contributions to a contingency reserve or any similar provision, such as for
       future vehicle or equipment purchases, or for any other events the
       occurrence of which cannot be foretold with certainty as to time, or intensity,
       or with an assurance of their happening;
   •   contributions and donations, including cash, property. and services.
       regardless of the recipient;
   •   membership fees in organizations engaged in lobbying;
   •   legal expenses for prosecution of claims against the Federal Government and
       those incurred in connection with any criminal, civil, or administrative
       proceedings commenced by the United States or a state to the extent
       provided in 10 U.S.C. 2324(k);
   •   fines, penalties, damages, and other settlements resulting from violations (or
       alleged violations) of, or failure of the governmental unit to comply with
       federal, state, local, or Indian tribal laws and regulations, except when
       incurred as a result of compliance with specific provisions of the IGA;
   •   costs for entertainment, including amusement, diversion. and social activities
       and any costs directly associated with purchase of tickets to shows or
       sporting events, meals, lodging, rentals, transportation, and gratuities); and
   •   required repayments of unused grant monies to grantors.

SCHEDULE D - "Credits" Line

All revenue generated from the detention facility's operation must be offset against
the direct costs claimed on the Cost Sheet. Examples are:

   •   commissions earned from prisoners' use of long distance telephone services;
   •   insurance rebates, recoveries, or indemnities on losses;
   •   commissary profits, if the funds are not placed in a prisoner's trust account to
       be used solely for the benefit of prisoners;
   •   federal school lunch reimbursements;
   •   employee meal program charges; and
   •   fees, other than prisoner lodging costs. received from other jurisdictions for
       services provided.




                                           – 71 –

                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


SCHEDULE E - Cost Allocation Plans/Indirect Cost Proposals

Generally, other local units of government provide certain services to the detention
facility on a centralized basis. In order for the costs of those units of government to
be included in the IGA rate computation, a central service cost allocation plan is
needed to identify and assign part of those costs to the detention facility's operation
on a reasonable and consistent basis. All costs and other data used to distribute the
cost included in the plan should be supported by formal accounting and other
records that support the propriety of the cost assignments. To include indirect costs
in the IGA rate computation:

   •   The indirect costs or cost allocation plans must be approved by the
       Comptroller or Chief Financial Officer;
   •   The costs must benefit both the IGA and other local government activities,
       must be distributed to all activities in reasonable proportions to the benefits
       received, and must be supported by subsidiary records that allow
       confirmation of the accuracy of the distributions;
   •   Similar or identical costs cannot be charged as direct costs to the IGA. The
       following categories require scrutiny to ensure duplicate or unallowable
       claims are not made: travel expenses, legal expenses, conferences,
       professional services, and miscellaneous expenses; and
   •   The pre-allocation cost basis of each category claimed must be verifiable.
   •   The following are examples of categories of indirect costs, a portion of which
       may be assigned to the detention facility for inclusion in the IGA rate
       computation:
   •   Motor pool operations, fuel, and maintenance provided mileage is not
       included as a separate line item on the IGA; and
   •   ADP, procurement, personnel, administrative, financial, and accounting
       support provided by staff of the local government and/or the non-detention
       operations of the police/sheriffs department.

Local government operating costs not related to the detention facility's operation
cannot be included for daily jail rate computation purposes. For example, costs of a
water treatment facility would not be allowed if the detention facility is not served by
the facility.

SCHEDULE F - Equipment (Depreciation) Costs

Equipment is defined as an article of non-expendable, tangible personal property
having a useful life of more than 1 year and an acquisition cost which equals the
lesser of (a) the capitalization level established by the governmental unit for
financial statement purposes, or (b) $5.000. Cost allowances relating to the use of
fixed assets on hand may be made through depreciation or a use-allowance.

If the depreciation method is used, records indicating the amount of depreciation
taken each period must be maintained. For either method, charges must be
supported by adequate property records, and physical inventories must be taken at
least every 2 years (a statistical sampling approach is acceptable) to ensure that
assets exist and are in use.



                                           – 72 –

                         REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


Without a formalized equipment depreciation policy at the local level, a use-
allowance of 6 2/3 percent with a 15-year write-off period is to be used to compute
allowable equipment use- allowance charges. The following are allowable when
computing equipment depreciation or use- allowance charges allocable to the IGA:

   •   equipment meeting the local government's established capitalization criteria;
   •   equipment used in the general operation of the detention facility; and
   •   equipment used in programs that federal prisoners participate in.
   •   The following are not allowable when computing equipment depreciation or
       use-allowance charges allocable to the IGA:
   •   payments to cash reserves for acquisitions made or planned after the
       accounting period of the cost submission;
   •   The cost of equipment received from the Federal Government through the
       Federal Excess Property Program or similar programs, or purchased with
       funds received from the Federal Government;
   •   The cost of equipment contributed by or for the governmental unit, or a
       related donor organization, in satisfaction of a matching requirement;
   •   The cost of vehicles used for prisoner transportation, if the USMS is not
       provided prisoner transportation services or is billed separately for
       transportation services;
   •   The cost of surplus, idle, fully depreciated, or inappropriate equipment items;
   •   The cost of equipment below the established capitalization threshold; and
   •   The cost of equipment in use in programs that federal prisoners do not
       participate in (e.g.. detention facility farm operations).

SCHEDULE G - Building Depreciation

A depreciation or use-allowance charge is allowed for all buildings utilized in the
performance of the IGA. Without a formal building depreciation policy at the local
level, a use-allowance not exceeding 2 percent of acquisition costs should be used to
compute the allowable building use-allowance charge.

The following are allowable when computing building depreciation or use-allowance
charges allocable to the IGA:

   •   the cost of building additions, renovations, and improvements; and
   •   the cost of land improvements, such as paved parking areas, fences and
       sidewalks.
   •   The following are not allowable when computing building depreciation or use
       allowance charges allocable to the IGA:
   •   the cost of land;
   •   any portion of the cost of buildings borne by or donated by the Federal
       Government such as Cooperative Agreement Program (CAP) funding;
   •   any portion of the cost of buildings contributed by or for the local
       governmental unit, or a related donor organization, in satisfaction of a
       matching requirement;
   •   cost assignable to unused or idle space within the facility;




                                          – 73 –

                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE




•   cost assignable to space occupied by non-detention functions of the local
    government; and interest, as long as the financing costs were paid or
    incurred on or after September 1, 1995, for building acquisition and
    construction, and the related renovation or remodeling was completed on or
    after October 1, 1980 (prorate if building is co-occupied). Debt service is
    unallowable and any earnings on debt service reserve funds and interest
    earned on the borrowed funds pending payment of expenses must be offset
    against the claimed cost.




                                      – 74 –

                    REDACTED FOR PUBLIC RELEASE
                             REDACTED FOR PUBLIC RELEASE


                                                                               APPENDIX IV

       SCHEDULE OF DOLLAR-RELATED FINDINGS FOR PRIOR AUDIT REPORTS
    Report Title     Report Number     Report       Amounts Paid       Questioned     Funds to Better Use67
                                         Date                            Costs66
[SENSITIVE           GR-90-95-002    4/3/1995      $7,800,000      $     133,109.00   $         74,507.00
INFORMATION
REDACTED]
[SENSITIVE           GR-40-95-005    5/17/1995     $3,622,831      $     259,241.00
INFORMATION                                                                                     -
REDACTED]
[SENSITIVE           GR-30-96-007    4/25/1996     $6,599,844      $   1,860,529.00
INFORMATION                                                                                     -
REDACTED]
[SENSITIVE           GR-30-96-008    4/25/1996     $6,700,000      $   1,996,600.00
INFORMATION                                                                                     -
REDACTED]*
[SENSITIVE           GR-40-96-002    4/25/1996     $5,098,238      $     425,769.00   $        508,810.00
INFORMATION
REDACTED]
[SENSITIVE           GR-50-96-004    4/25/1996     $1,400,000      $      98,331.00
INFORMATION                                                                                     -
REDACTED]
[SENSITIVE           GR-80-96-004    4/29/1996     $3,071,570      $   1,186,800.00
INFORMATION                                                                                     -
REDACTED]
[SENSITIVE           GR-30-96-013    9/30/1996     $19,200,000     $   4,224,365.00   $        819,160.00
INFORMATION
REDACTED]*
[SENSITIVE           GR-30-97-002    2/12/1997                     $   1,593,590.00
INFORMATION                                                -                                    -
REDACTED]
[SENSITIVE           GR-40-97-004    4/23/1997                                        $      3,029,022.00
INFORMATION                                                -               -
REDACTED]
[SENSITIVE           GR-80-97-017    9/4/1997      $2,690,986      $     619,795.00   $        619,795.00
INFORMATION
REDACTED]*
[SENSITIVE           GR-50-97-014    9/30/1997                     $     140,667.00   $        118,042.00
INFORMATION                                                -
REDACTED]
[SENSITIVE           GR-90-97-015    9/30/1997     $216,519        $       8,307.00   $         41,390.00
INFORMATION
REDACTED]
[SENSITIVE           GR-90-98-001    10/10/1997    $11,044,049     $   3,705,391.00   $      2,587,903.00
INFORMATION
REDACTED]*
[SENSITIVE           GR-80-98-002    10/10/1997    $700,965                           $             1,395.00
INFORMATION                                                                -
REDACTED]
[SENSITIVE           GR-40-98-003    12/5/1997     $2,174,664                         $         98,350.00
INFORMATION                                                                -
REDACTED]




              66
                Questioned costs are expenditures that do not comply with legal, regulatory, or
     contractual requirements, are not supported by adequate documentation at the time of the
     audit, or are unnecessary or unreasonable.
              67
            Funds put to a better use are future funds that could be used more efficiently if
     management took actions to implement and complete audit recommendations.
                                                  – 75 –

                             REDACTED FOR PUBLIC RELEASE
                                    REDACTED FOR PUBLIC RELEASE


[SENSITIVE                GR-90-98-004        1/1/1998       $1,889,153         $      254,857.00
INFORMATION                                                                                                       -
REDACTED]
[SENSITIVE                GR-70-98-004        3/31/1998
INFORMATION                                                          -                    -                       -
REDACTED]
[SENSITIVE                GR-50-98-023        7/31/1998      $559,650                                  $          245,095.00
INFORMATION                                                                               -
REDACTED]
[SENSITIVE                GR-40-98-027        9/30/1998      $920,000           $      177,934.00      $          287,819.00
INFORMATION
REDACTED]
[SENSITIVE                GR-50-99-001        11/24/1998     $13,576,344        $    4,907,437.00      $        4,516,035.00
INFORMATION
REDACTED]
[SENSITIVE                GR-90-01-006        12/29/2000     $5,566,351         $    2,131,214.00      $        1,065,115.00
INFORMATION
REDACTED]*
[SENSITIVE                GR-70-01-005        6/25/2001      $280,050           $       49,340.00      $          54,108.00
INFORMATION
REDACTED]
[SENSITIVE                GR-60-03-001-R      11/8/2002      $4,345,110         $    1,756,532.00      $         779,585.00
INFORMATION
REDACTED]
[SENSITIVE                GR-30-05-002        1/24/2005      $9,077,291
INFORMATION                                                                               -                       -
REDACTED]
[SENSITIVE                GR-30-05-004        3/17/2005      $6,671,600         $    2,833,937.00      $        1,416,969.00
INFORMATION
REDACTED]
[SENSITIVE                GR-40-05-011        9/1/2005       $5,458,157         $    1,231,502.00      $          703,196.00
INFORMATION
REDACTED]
[SENSITIVE                GR-60-06-002        10/18/2005     $13,822,008        $    5,231,812.00      $        3,237,721.00
INFORMATION
REDACTED]
[SENSITIVE                GR-30-06-001        12/5/2005      $17,781,769        $    2,862,349.00      $        1,618,129.00
INFORMATION
REDACTED]
[SENSITIVE
INFORMATION               GR-30-06-002        03/16/2006     $26,025,630                  -                       -
REDACTED]
[SENSITIVE                GR-70-06-007        03/28/2006     $6,142,702         $      202,354.00
INFORMATION                                                                                                       -
REDACTED]
Totals                                                         $182,702,481           $37,891,762                $21,822,146
The highlighted audits are those that remain unaddressed by the USMS.
* - Denotes audits that were previously referred to the Department of Justice Audit Resolution Committee. The Audit Resolution
Committee was established to resolve significant disagreements between the OIG and the Departmental component regarding
audit findings and recommendations or corrective actions taken.




                                                           – 76 –

                                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                                                                          APPENDIX V

           SUMMARY OF IGA REPORTS ISSUED BY THE OIG

[SENSITIVE INFORMATION REDACTED]
Report No. GR-90-95-002, April 1995

       For the audit period of January 1992 through December 1994,
[SENSITIVE INFORMATION REDACTED] billed the USMS for 125,575 jail
days at $61.80 per day for a total of about $7.8 million. Our audit
determined that [SENSITIVE INFORMATION REDACTED] included
unallowable costs totaling $929,147 in its cost sheet for calculating a daily
jail rate as follows:

       •    The rate included 100 percent of the utility expenses ($243,898) for
            the sheriff’s training academy located adjacent to the [SENSITIVE
            INFORMATION REDACTED]. If the training academy utility costs
            were allocated based on departmental payroll costs, as are all other
            training academy costs, the [SENSITIVE INFORMATION REDACTED]
            would have been charged only $87,515. Thus, the proposal
            contained $156,383 in unallowable costs (other operating costs).

       •    Jail staff uniform costs ($175,670) were double-counted on the cost
            sheet as other operating costs and employee benefits.

       •    The building use allowance stated in the cost sheet included
            $597,094 charged for idle capacity and is therefore not an allowable
            cost (Indirect Costs).68

      As a result of these unallowable costs being included on the cost sheet,
the daily jail rate should have been $60.74 instead of the $61.80 charged by
[SENSITIVE INFORMATION REDACTED]. Therefore, the USMS was
overcharged $133,109.




       68
           OMB Circular A-87 states that depreciation and use allowances are means of
allocating the cost of fixed assets to periods benefiting from asset use. Charges for use
allowances or depreciation must be supported by adequate property records.
                                          – 77 –

                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

[SENSITIVE INFORMATION REDACTED]69
Report No. GR-40-95-005, May 1995

      Our audit disclosed the following unallowable costs were included in
the jail-day rate: interest, management fee, donations, contingency
accruals, and bad debt write-offs. In addition, the following unallowable
indirect costs totaling $443,806 were also included in the jail-day rate:

      •    accruals for contingencies and consulting for New Mexico related
           activity;

      •    consultant charges for work with the Texas State legislature,
           consulting firm charges for work with the Louisiana State
           Department of Education, and consulting charges associated with
           activities in New Mexico;

      •    law firm charges for developing marketing opportunities in Texas;

      •    general entertainment charges and sponsorship of a golf
           tournament; and

      •    entertainment expenses, a going away gift for one individual, and
           cookies in gift packages for at least 100 individuals or
           organizations.

      Our audit determined that for the periods October 1990 through July
1991 and October 1993 through September 1994, the USMS overpaid
[SENSITIVE INFORMATION REDACTED] $259,241. We further determined
that the allowable costs only supported a jail-day rate of $45.23, instead of
the $51.30 rate that the USMS paid.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-30-96-007, April 1996

     The USMS established an $83.64 jail-day rate with the [SENSITIVE
INFORMATION REDACTED]. Our audit noted that this rate was based on
estimates. On several occasions the USMS requested the [SENSITIVE
INFORMATION REDACTED] to provide an operational budget for establishing

      69
           In June 1990, the USM in the Western District of Tennessee requested an IGA be
issued to [SENSITIVE INFORMATION REDACTED] for the housing of federal prisoners. In
July 1990, [SENSITIVE INFORMATION REDACTED] subcontracted with CCA to provide the
detention services. CCA is a private provider of detention and corrections services for
federal, state, and local governments.
                                         – 78 –

                       REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

a new jail-day rate, although the [SENSITIVE INFORMATION REDACTED]
had not complied with the request. The [SENSITIVE INFORMATION
REDACTED] continued to use the original preliminary jail-day rate.

      Our audit found that the actual allowable costs only supported a jail-
day rate of about $60. We took exception to the following costs:

      •   accrued salary and fringe benefit expenses in excess of actual
          (salaries and fringe benefits);

      •   salary expenses for transportation guards, when the USMS had a
          separate transportation guard rate in effect (salaries);

      •   contribution to five guards for their participation in the [SENSITIVE
          INFORMATION REDACTED] Centennial parade (salaries);

      •   costs incurred for a change order with North Carolina to house its
          prisoners (other direct costs);

      •   costs incurred for corporate meals and entertainment, holiday
          parties, donations, and contributions (general and administrative);
          and

      •   transportation guard rate in excess of actual costs.

     As a result of these cost exceptions, we found that USMS
overpayments to the [SENSITIVE INFORMATION REDACTED] totaled over
$1.8 million during 1994 and 1995.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-30-96-008, April 1996

      Our audit determined that USMS overpaid [SENSITIVE INFORMATION
REDACTED] a total of $1,996,600 during FY 1995. This resulted from
[SENSITIVE INFORMATION REDACTED] including in the jail-day rate
unallowable salaries, fringe benefits, and costs related to criminal
investigators that do not benefit the needs of the USMS. We also took
exception to other costs including:

      •   Outside medical services provided to inmates because these costs
          were paid directly by the USMS ($358,035) (contracts);



                                     – 79 –

                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

     •   The detention facility entered into a Memorandum of Understanding
         (MOU) in which it agreed to pay the Town of [SENSITIVE
         INFORMATION REDACTED] $400,000 annually for a period of 30
         years. The MOU mentioned no service or product for this annual
         payment. Further, neither the detention facility nor the Town
         employees were able to identify any service that was provided for
         this payment (administrative);

     •   Equipment purchased that should have been depreciated instead of
         expensed (equipment); and

     •   Incurred cost totaling over $9 million to recover the cost of
         financing the new jail. The USMS did not take issue with the debt
         service during its review of the cost sheet. However, we reported
         that the substance of the $9 million transaction was the recovery of
         financing, and was unallowable under OMB Circular A-87 (debt
         service).

[SENSITIVE INFORMATION REDACTED]
Report No. GR-40-96-002, April 1996

      Our audit of [SENSITIVE INFORMATION REDACTED] County’s actual
costs revealed that the jail-day rate included the following unallowable
costs:

     •   Medical costs totaling over $1 million that did not benefit federal
         prisoners (consultants and contracts);

     •   Legal fees pertaining to settlements of claims filed by inmates
         against the [SENSITIVE INFORMATION REDACTED] County Sheriff’s
         Office (consultants and contracts); and

     •   Capital costs for an above ground fuel tank improperly classified as
         an expense. The cost should have been capitalized and depreciated
         (other direct operating).

     As a result, the USMS overpaid [SENSITIVE INFORMATION REDACTED]
County $6.97 a day for its 61,086 jail days, for an overpayment of $425,769
from May 1, 1995 to February 29, 1996.




                                    – 80 –

                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

[SENSITIVE INFORMATION REDACTED]
Report No. GR-50-96-004, April 1996

       Our audit revealed that the cost sheet submitted by the [SENSITIVE
INFORMATION REDACTED] County Jail sought an increase in the jail-day
rate from $60.81 to $68.66. The USMS established a rate of $67.74.
However, our audit revealed that the jail-day rate included the following
unallowable costs:

      •   medical costs totaling over $4,000 that did not benefit federal
          prisoners (consultants and contracts),

      •   routine maintenance of Sheriff’s Department motor vehicles totaling
          over $11,000 that were not used for USMS prisoners (other direct
          operating), and

      •   over $8,000 for the repair of accident damage to a Sheriff’s
          Department vehicle that was not used for USMS prisoners (other
          direct operating).

      In addition, our audit noted that the jail was given CAP funding for the
construction of the jail and this amount was not subtracted from the total
construction cost before figuring depreciation (building depreciation costs).
Our audit determined that from October 1, 1994 to January 31, 1996, the
USMS overpaid the [SENSITIVE INFORMATION REDACTED] County Jail
$98,331. In addition, our audit determined that the [SENSITIVE
INFORMATION REDACTED] County Jail only had costs to support a jail-day
rate of $62.93.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-80-96-004, April 1996

       In May 1990, the USMS established a temporary rate of $55 per day
with the City of [SENSITIVE INFORMATION REDACTED]. The agreement
also included separate off-site guard services at $18 per hour. In 1994, the
City of [SENSITIVE INFORMATION REDACTED] submitted a cost sheet that
only supported a rate of $52.76. However, the City of [SENSITIVE
INFORMATION REDACTED] and the USMS negotiated a final jail-day rate of
$55 per day in December 1994.

       We determined that the City of [SENSITIVE INFORMATION REDACTED]
included unallowable and unsupported costs in calculating the jail-day rate
as follows:

                                    – 81 –

                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



      •   annual bond debt payments of $589,398 per year instead of
          allowable depreciation costs (equipment and building depreciation
          costs), and

      •   unsupported indirect costs totaling over $55,000.

      The City of [SENSITIVE INFORMATION REDACTED] also failed to
consider telephone revenue in the cost sheet. The jail receives revenue
payments from telephone long-distance carriers for collect calls made by
inmates using the jail-owned telephone system. OMB Circular A-87 requires
that credits that reduce expense items be used to reduce related
expenditures in determining the rates or amounts applicable to a given
contract.

      As a result of our audit, we determined that the City of [SENSITIVE
INFORMATION REDACTED] overbilled the USMS $1,186,800 in FY 1995. In
addition, our audit determined that the City of [SENSITIVE INFORMATION
REDACTED] Law Enforcement Center Jail only had costs to support a jail-day
rate of $34.26.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-30-96-013, September 1996

      During the audit period of January 1, 1993, through December 31,
1995, (fiscal years 1993, 1994 and 1995), [SENSITIVE INFORMATION
REDACTED] County billed the USMS $6.4 million per year, which comprised
83,950 jail days at $76.60 per day. The IGA was signed in March 1990, and
was in effect during the entire audit period.

       We determined that [SENSITIVE INFORMATION REDACTED] County
included unallowable and unsupported costs in calculating the jail-day rate
as follows:

      •   medical, dental, radiology, and ambulance services billed separately
          to the USMS (contracts); and

      •   indirect costs that were unallocable and unallowable per OMB
          Circular A-87 (indirect costs).

       As a result of these unallowable costs being included in the daily jail
rate, the USMS overpaid [SENSITIVE INFORMATION REDACTED] County by
$1,598,408 in FY 1993, $1,475,002 in FY 1994, and $1,150,955 in FY 1995.

                                    – 82 –

                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE



       Our audit also determined that [SENSITIVE INFORMATION REDACTED]
County only maintained records of the number of prisoners detained, not the
number of jail days per prisoner. As a result of a contract administration
oversight, the USMS issued Modification 3 in the form of payment for
guaranteed daily bed space. Therefore, [SENSITIVE INFORMATION
REDACTED] County billed the USMS for 230 prisoners per day (83,950
prisoners annually) at the daily rate of $76.60 for each fiscal year. However,
[SENSITIVE INFORMATION REDACTED] County housed less than the annual
total in FYs 1993 and 1994. This resulted in the USMS expending $819,160
that could have been better used had the Modification included provisions for
[SENSITIVE INFORMATION REDACTED] County being reimbursed for actual
prisoner days.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-30-97-002, February 1997

      [SENSITIVE INFORMATION REDACTED] County submitted a cost sheet
that estimated annual costs based on incurred costs from January 1, 1995,
through September 30, 1995, but offered no specific period of performance
at that time. The proposed costs resulted in a jail-day rate per inmate of
$185.98. This rate was based on the care and feeding of 1,520 inmates.
Although the county based its cost estimate on incurred costs from January
1, 1995, through September 30, 1995, it based its estimate of the average
daily prisoner population on the average prisoner population during January
and February 1996.

      Our audit determined that [SENSITIVE INFORMATION REDACTED]
County’s expenses used to calculate the jail-day rate were overstated by
$7.7 million, resulting in a supported jail-day rate of $142.32. In addition,
the estimated average daily population increased from 1,520 to 1,838.
Therefore, the USMS overpaid [SENSITIVE INFORMATION REDACTED]
County by almost $1.6 million in FY 1996.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-40-97-004, April 1997

      On November 7, 1996, the City of [SENSITIVE INFORMATION
REDACTED] submitted a proposal to increase the jail-day rate from $40 to
$49.54. This rate was based on [SENSITIVE INFORMATION REDACTED]
computation of operating costs for January 1, 1995, through December 31,
1995.


                                    – 83 –

                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

      Our audit determined that the proposed jail-day rate included the
following unallowable costs:

      •   Employee health insurance costs were double-counted as jail
          employee benefits and indirect costs (benefits);

      •   Medicare expenses that were not incurred (benefits);

      •   Unsupported use allowance for the Annex because the Department
          of Correction could not provide documentation to support the
          construction costs (equipment and building depreciation costs); and

      •   Unallowable indirect costs including a business strip to South Africa,
          golf and tennis tournaments, and the cost to settle a sexual
          harassment lawsuit (indirect costs).

     The costs claimed that were unallowable or unsupported totaled
$875,944. Also, [SENSITIVE INFORMATION REDACTED] under-reported the
average daily population for 1995 by 57 inmates. As a result, [SENSITIVE
INFORMATION REDACTED] costs only supported a jail-day rate of $44.93,
which could save the USMS up to $504,795 annually.

      Our audit also determined that [SENSITIVE INFORMATION REDACTED]
proposed to recover costs of building the new [SENSITIVE INFORMATION
REDACTED] City Detention Center through a capital cost recovery surcharge
of $23.05 per jail day. The City of [SENSITIVE INFORMATION REDACTED]
calculated a pro-rata share of the total cost to design, build, and finance 300
bed spaces to replace those provided to the USMS at the Annex under a CAP
award. The USMS made no formal agreement to pay for the replacement
bed spaces at the new Detention Center. Since the federal prisoners are
housed in the Annex, the USMS could save more than $2.5 million annually
by disallowing the surcharge.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-80-97-017, September 1997

      The USMS awarded [SENSITIVE INFORMATION REDACTED] County an
IGA effective December 15, 1990, for the detention of federal prisoners.
[SENSITIVE INFORMATION REDACTED] County, in turn, contracted with
[SENSITIVE INFORMATION REDACTED] to provide jail services at its
[SENSITIVE INFORMATION REDACTED] County Detention Facility. For the
calendar year 1996, [SENSITIVE INFORMATION REDACTED] County billed
the USMS for 43,303 inmate days, at a rate of $62 per jail-day, for a total of

                                     – 84 –

                     REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE

$2,690,986. After reviewing the direct and indirect costs for the [SENSITIVE
INFORMATION REDACTED] facility for 1996, we determined that [SENSITIVE
INFORMATION REDACTED] County only had allowable costs to support a rate
of $47.72. Our audit determined that the jail-day rate included the following
unallowable costs:

       •    Interest on funds invested in the [SENSITIVE INFORMATION
            REDACTED] facility making funds unavailable for other purposes
            ($856,079);

       •    Liability insurance to cover the self-insured retention provision of its
            insurance policy ($500,000). The expense was not incurred;70 and

       •    Indirect costs ($18,398) and a management fee (profit) ($199,513)
            that was not allocable to the detention facility.

      As a result, the USMS paid $619,795 in unallowable and unsupported
costs in FY 1996. If this rate were applied in 1997, assuming the same
number of inmate days, the USMS would save an additional $619,795.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-50-97-014, September 1997

      The IGA was initially approved in 1984 at a jail-day rate of $65, and
later modified to $75 per jail day. Since the IGAs inception in 1984,
[SENSITIVE INFORMATION REDACTED] County did not submit a cost sheet,
or any other cost data to support its rates. Instead, the rates were based
solely on [SENSITIVE INFORMATION REDACTED] County Board resolutions.

       We reviewed the County’s actual jail costs for two fiscal years, 1990
and 1996. We selected 1990 because it was the last full year that the $65
jail-day rate was in effect, and 1996 because it was the last full year of the
$75 jail-day rate. At the time of our audit, the $75 jail-day rate was still in
effect.


       70
           Each [SENSITIVE INFORMATION REDACTED] facility is covered by one corporate-
wide general liability insurance policy. [SENSITIVE INFORMATION REDACTED] allocates a
share of the general policy’s cost to each facility based on a percentage of its rated capacity
to total [SENSITIVE INFORMATION REDACTED] capacity. However, [SENSITIVE
INFORMATION REDACTED] also included an annual charge of $500,000 for this facility to
cover the self-insurance provision (i.e., deductible). According to [SENSITIVE
INFORMATION REDACTED] officials, in order to comply with the terms of the liability
insurance policy, [SENSITIVE INFORMATION REDACTED] must pay the first $500,000 per
claim, per facility, per year.
                                           – 85 –

                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

       After performing tests of selected FY 1990 and 1996 costs, we found
that [SENSITIVE INFORMATION REDACTED] County overbilled the USMS a
total of $140,667. For 1990, we determined that the cost data supported a
rate of $57.69, which was $7.31 less than the rate of $65 that was being
paid at that time. For 1996, we determined that the cost data supported a
rate of $69.20, which was $5.80 less than the rate of $75 that was being
paid at that time. If the $69.20 rate was applied in 1997, the USMS could
have saved an additional $118,042.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-90-97-015, September 1997

       After analyzing [SENSITIVE INFORMATION REDACTED] County’s direct
and indirect costs, we determined that direct costs associated with “Victim
Notification” ($40,194) and indirect costs associated with “Victim
Notification” ($12,273) and “Equipment Use Allowance” ($12,000) were
unallowable. [SENSITIVE INFORMATION REDACTED] County’s allowable
costs only supported a rate of $58.90 instead of the $61.25 rate the USMS
paid. As a result, the USMS overpaid [SENSITIVE INFORMATION
REDACTED] County $8,307 during FY 1996. If the USMS implemented the
$58.90 rate for FY 1997, the USMS could have saved $41,390.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-90-98-001, October 1997

      The USMS awarded [SENSITIVE INFORMATION REDACTED] County an
IGA in April 1994 for the detention of federal prisoners. Effective October 1,
1994, the USMS modified [SENSITIVE INFORMATION REDACTED] County’s
agreement to include [SENSITIVE INFORMATION REDACTED] facility at a
temporary rate of $61.25 per day per prisoner. In addition, the modified
agreement included a provision for transport and guard services to and from
medical appointments at a rate of $13.50 per hour to be reimbursed to the
County by the USMS. However, our audit noted that the jail-day rate of
$61.25 already included the transportation and escort services to and from
the courthouse for federal prisoners.

      Our audit also identified the following unallowable and unsupported
costs:

      •   Interest expense of over $4.6 million. [SENSITIVE INFORMATION
          REDACTED] stated that this interest expense was not an out-of-
          pocket expense, but rather, the cost of [SENSITIVE INFORMATION


                                   – 86 –

                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

         REDACTED] investing its funds in the detention facility, making the
         funds unavailable for other purposes;

     •   Liability insurance to cover the self-insured retention provision of its
         insurance policy ($500,000). The expense was not incurred;

     •   Administrative fee of $884,750 based upon [SENSITIVE
         INFORMATION REDACTED] contract with [SENSITIVE
         INFORMATION REDACTED] County. The contract provides that “the
         county will pay to [SENSITIVE INFORMATION REDACTED] all funds
         received by the county pursuant to the IGAs, less an administrative
         fee of $2.00 per inmate housed per day . . . .” The audit of
         [SENSITIVE INFORMATION REDACTED] County determined that the
         county did not claim any expense nor did we identify any expense
         for the administration of this contract in our audit. In addition, this
         fee did not in any way benefit the IGA. To the contrary, its effect
         was to cost the USMS an additional $2.00 per prisoner for which the
         USMS received no actual goods or services in return;

     •   Management fee of $1,576,729, which [SENSITIVE INFORMATION
         REDACTED] defined as its profit on the operation of detention
         facilities;

     •   Depreciation expense that was overstated by over $1.3 million; and

     •   Indirect costs in excess of $98,000.

       For calendar year 1996, [SENSITIVE INFORMATION REDACTED]
County billed the USMS for 180,331 jail days, at a temporary rate of $61.25
per jail day for a total of $11,044,049. After reviewing the direct and
indirect costs, we determined that the USMS overpaid [SENSITIVE
INFORMATION REDACTED] by over $3.7 million. Our audit also determined
that if the USMS implemented the audited rate of $40.70 for 1997, it could
save an additional $2,587,903.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-80-98-002, October 1997

      The USMS awarded [SENSITIVE INFORMATION REDACTED] County an
IGA that established a jail-day rate of $45. [SENSITIVE INFORMATION
REDACTED] County, in turn, contracted with [SENSITIVE INFORMATION
REDACTED] to provide jail services at the [SENSITIVE INFORMATION
REDACTED] County Jail/Juvenile Center. Our audit of [SENSITIVE

                                    – 87 –

                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

INFORMATION REDACTED] County’s costs revealed that for 1996,
[SENSITIVE INFORMATION REDACTED] County costs supported a rate of
$62.22, despite claiming in its jail-day rate $626,521 in unallowable and
unsupported costs. Unallowable expenditures included gifts, donations,
entertainment costs, medical expenses for non-federal prisoners, interest,
management fee (profit), and double-counting salaries and benefits of four
full-time transportation officers that were billed to the USMS under a
separate transportation and guard rate.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-40-98-003, December 1997

     In December 1995, the USMS signed an IGA with the [SENSITIVE
INFORMATION REDACTED]. The base for the [SENSITIVE INFORMATION
REDACTED] cost proposal included $528,561 in unallowable costs and
$547,572 in unsupported costs, including the following:

     •   Temporary housing units used prior to the new jail being occupied.
         These costs were no longer being incurred, and as such, did not
         benefit the USMS ($347,867) (consultant and contract services);

     •   Use allowance of $40,000 because the base included $2 million,
         which the USMS provided toward construction of the jail under a
         CAP with Forsyth County; and

     •   Indirect costs of almost $400,000 that were unsupported.

      Our audit determined that the jail-day rate was overstated by $5.62
per jail day. This overstatement resulted in overpayments of as much as
$184,920 between December 1, 1995 and August 31, 1997. Also, based on
actual federal prisoner jail days for September 1996 through August 1997,
the USMS could have saved about $98,350 annually by reducing the jail-day
rate by $5.62.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-90-98-004, January 1998

      Two detention facilities were used to satisfy the requirements of this
IGA, the [SENSITIVE INFORMATION REDACTED] County Detention Center,
and the [SENSITIVE INFORMATION REDACTED]. Our audit determined that
the jail-day rates included unallowable and unsupported costs totaling over
$5.6 million, which resulted in the USMS overpaying the [SENSITIVE


                                   – 88 –

                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

INFORMATION REDACTED] County Sheriff’s Office over $254,000 during FY
1990.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-70-98-004, March 1998

     We determined that the negotiated jail-day rate was reasonable and
based on allowable and allocable costs.

[SENSITIVE INFORMATION REDACTED]
Report Number GR-50-98-023, July 1998

       In January 1997, the [SENSITIVE INFORMATION REDACTED] County
Jail requested a jail-day rate increase from $41.50 to $50.24 per prisoner.
However, upon the USMS’s review of the cost sheet, the USMS established a
rate of $52.50.

      We determined that the cost sheet supporting the rate increase was
improperly completed. The jail did not provide actual costs as required. The
IGA modification stipulated that actual costs from the latest accounting
period be used to determine the jail-day rate instead of estimates.
According to the USMS’s negotiation records, 1996 actual costs were used to
prepare the cost sheet. However, we determined that various budget
estimates were actually used to prepare the cost sheet.

       As a result of using budget estimates instead of actual costs, our audit
identified unsupported and unallowable costs in the jail-day rate including
attorney expenses also claimed as an indirect cost, and more than $744,000
claimed for housing non-federal inmates in another detention facility. Our
audit also revealed that the prisoner days claimed by the jail were
understated (439,483 as opposed to the 417,925 jail days claimed). This
resulted in a jail-day rate of $42.92, which is $9.58 less than the rate of
$52.50. Assuming that the federal government uses about the same
amount of jail days in 1998 as it did in 1997, the USMS could have saved
about $245,095.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-40-98-027, September 1998

      For the FY 1997, the [SENSITIVE INFORMATION REDACTED] billed
the USMS for 23,229 jail days at a rate of $39.61 per day, for a total of
about $920,000. Our audit determined that the [SENSITIVE INFORMATION
REDACTED] included over $1.4 million in unsupported and unallowable costs

                                    – 89 –

                    REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

in its jail-day rate. Unallowable costs included not subtracting from the
construction costs CAP funds in calculating the use allowance, and medical
expenses for non-federal inmates. As a result, the [SENSITIVE
INFORMATION REDACTED] overbilled the USMS $177,934 during FY 1997.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-50-99-001, November 24, 1998

      The USMS and [SENSITIVE INFORMATION REDACTED] were operating
under an interim letter contract effective December 29, 1997. Our review of
the contract proposal and interim letter contract revealed that [SENSITIVE
INFORMATION REDACTED] overstated its quotes. In 1997, [SENSITIVE
INFORMATION REDACTED] billed the USMS for 109,855 jail days at an
average cost of $76.40 per day, for a total of $8,415,334. In addition,
through July 31, 1998, [SENSITIVE INFORMATION REDACTED] billed the
USMS a total of $5,161,010 for 64,650 jail days at $79.83 per day plus an
additional $20,170 for other contracted services. Our audit of the jail-day
rate revealed that [SENSITIVE INFORMATION REDACTED] allowable
expenses only supported a rate of $49.13. The original rate accounted for
over $1.9 million in unallowable costs, such as management fees and
indirect costs. Consequently, we concluded that the USMS overpaid
[SENSITIVE INFORMATION REDACTED] by about $3 million for detention
services in 1997. Also, the USMS overpaid [SENSITIVE INFORMATION
REDACTED] about $1.9 million under the letter contract through July 31,
1998, and could realize savings of about $4,516,035 for the remainder of
1998 through December 1999 by implementing the revised jail-day rate.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-90-01-006, December 2000

      The USMS entered into an IGA with [SENSITIVE INFORMATION
REDACTED] Department of Corrections (DOC) to ensure adequate detention
space was available.71 Further, in exchange for guaranteed bed space, the
USMS awarded $3 million in CAP funding. The IGA was modified, effective
October 1997, to reduce the jail-day rate from $130 to $97.71. The
reduction was based upon the result of a USMS audit of costs incurred by
the DOC and the total jail days used in FY 1997.

      Our audit revealed that the jail-day rate included the following
unallowable costs:

       71
           The former Immigration and Naturalization Service (INS) also had an IGA with the
DOC, which was included in the scope of our audit. However, for purposes of this report we
did not include findings that pertained to INS.
                                         – 90 –

                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE



       •    salaries and related benefits of personnel in the Parole Services
            Division, and three federally funded positions in the Forensics Unit
            (personnel);

       •    medical services provided off-island to local prisoners that did not
            benefit federal detainees (medical); and

       •    food and supplies provided for the Governor’s house (food and
            kitchen supplies);

      In addition, we determined that [SENSITIVE INFORMATION
REDACTED] received almost $500,000 in offsetting credits resulting from
rental income associated with the prison commissary and federal grants. As
a result of our audit, we determined that the USMS overpaid [SENSITIVE
INFORMATION REDACTED] $2,131,214 from October 1, 1998 through
September 30, 2000.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-70-01-005, June 2001

       During 2000, the USMS paid $280,050 to house an average of 17
detainees per day. Our audit of [SENSITIVE INFORMATION REDACTED]
actual costs and average daily population during this period revealed that
the USMS overpaid York $7.93 a day for its average daily population of 17
detainees, for an overpayment of $49,340.72 Our report noted the following
exceptions: (1) salaries, fringe benefits, and trailer rent related to an
Outmate Program that did not benefit federal prisoners; and (2) revenue
accounts for the Outmate Program and food rebates were not offset from
total operating costs of the prison.73 As part of our audit, we also calculated
that the USMS could have saved $54,000 in 2001 by implementing the
audited rate.




       72
          The former INS also had an IGA with the [SENSITIVE INFORMATION REDACTED]
County Prison, which was included in the scope of our audit. However, for purposes of this
report we did not include findings that pertained to INS.
       73
          [SENSITIVE INFORMATION REDACTED] Outmate Program permits county
prisoners, but not federal detainees, to work full-time through work release.

                                         – 91 –

                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

[SENSITIVE INFORMATION REDACTED]
Report No. GR-60-03-001-R, November 2002

      During 2000 and 2001, the USMS paid the [SENSITIVE INFORMATION
REDACTED] $4.3 million. Our audit revealed that the [SENSITIVE
INFORMATION REDACTED] had not prepared a cost sheet to support the
current jail-day rate. Our audit of the [SENSITIVE INFORMATION
REDACTED] actual costs and average daily population also revealed that the
USMS overpaid the [SENSITIVE INFORMATION REDACTED] by about $17 a
day for its average daily population of 6,100 in 2000 and 5,700 in 2001, for
an overpayment of $976,947 in 2000, and $779,585 in 2001.74 Our report
noted the following exceptions: (1) state-certified deputies earned an
additional $150 per pay period in state supplemental pay, which was not a
direct labor cost for the [SENSITIVE INFORMATION REDACTED]; (2) the
criminal sheriff was an elected official whose salary was an unallowable
expense; (3) salaries and fringe benefits of employees patrolling the
[SENSITIVE INFORMATION REDACTED]; (4) employee health insurance and
workmen’s compensation not paid by the [SENSITIVE INFORMATION
REDACTED] were unallowable; (5) salaries related to the Criminal District
Court and Clerk of the Court were unallowable; (6) unsupported costs
related to legal and legal settlement costs classified as liability and property
damage; (7) an extravagant cell phone expense; (8) unallowable costs
associated with the Sheriff’s travel and the purchase of a Chevrolet
Suburban assigned to the Sheriff; and advertising, cabling, video, boat slip
rental, drug grant expenses and supplies that were not related to the
housing of federal inmates; and (9) capital outlays that should have been
depreciated.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-30-05-002, January 2005

      Our audit of actual costs and daily population revealed that the
Sheriff’s Office’s records supported the rate paid by the USMS.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-30-05-004, March 2005

      The USMS established an IGA for detention services with the
[SENSITIVE INFORMATION REDACTED] in 1991. In accordance with the
IGA, the [SENSITIVE INFORMATION REDACTED] submitted a cost sheet for

      74
          The former INS also had an IGA with the [SENSITIVE INFORMATION REDACTED],
which was included in the scope of our audit. However, for purposes of this report we did
not include findings that pertained to INS.
                                        – 92 –

                       REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

detention services based on estimated FY 1991 costs. Although the cost
sheet only supported a rate of $36.64, the USMS agreed to a $50 jail-day
rate. In 1999, the USMS added a transportation guard rate of $16.25 per
hour plus mileage for transporting federal detainees to court and medical
appointments.

       At our request, the [SENSITIVE INFORMATION REDACTED] submitted
a new cost sheet in August 2004. Although the new cost sheet proposed a
jail-day rate of $55, the cost sheet figures only supported a proposed rate of
about $45. According to the USMS, in order to maintain the relationship
with the [SENSITIVE INFORMATION REDACTED], the Assistant Director of
the Prisoner Services Branch recommended that the [SENSITIVE
INFORMATION REDACTED] withdraw its request for a rate increase, and the
USMS would take no action to reduce [SENSITIVE INFORMATION
REDACTED] rate.

       Our audit of [SENSITIVE INFORMATION REDACTED] costs revealed
that the [SENSITIVE INFORMATION REDACTED] FY 2003 allowable costs
only supported a jail-day rate of $30.62. Applying these rates to jail days
incurred in FYs 2003 and 2004, we determined that the USMS overpaid
[SENSITIVE INFORMATION REDACTED] more than $2.8 million. Our report
noted the following exceptions: (1) the [SENSITIVE INFORMATION
REDACTED] included an unallowable accumulated leave liability that included
the liability for leave for the past several years – perhaps as far back as
1991 (personnel); (2) salaries for transportation guards that were
reimbursed under a separate transportation rate (personnel); (3) capital
equipment (equipment with a cost of more than $5,000) was captured as
Other Direct Costs in addition to depreciation being taken on the equipment
(other direct costs); (4) unallowable premiums for hospitalization insurance
for state and local inmates (other direct costs); (5) unsupported costs due to
an error by the [SENSITIVE INFORMATION REDACTED] independent
financial auditors (other direct costs); (6) non-capital equipment was
captured as Other Direct Costs in addition to depreciation being taken on the
equipment (equipment depreciation); and (7) revenue accounts for inmate
telephone calls and the commissary were not offset from total operating
costs of the prison (credits). In addition, we determined that the USMS
could have saved over $1.4 million by implementing our audited rate in FY
2005.




                                   – 93 –

                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

[SENSITIVE INFORMATION REDACTED]
Report No. GR-40-05-011, September 2005

      The USMS entered into an IGA Agreement with [SENSITIVE
INFORMATION REDACTED] on September 24, 1999, for a temporary jail-day
rate of $45. The temporary rate was made permanent on October 1, 2004,
and remains in effect until September 30, 2006. Our audit questioned the
following unallowable and unsupported costs:

     •   salaries of part-time employees and a training supervisor that were
         not properly supported;

     •   utility costs that were not properly supported;

     •   medical costs that either did not benefit USMS detainees or the
         same types of costs were paid separately by the USMS for its
         detainees;

     •   interest costs because the allocation method was not supported;
         and

     •   depreciation costs because the base for the depreciation overstated
         the building’s construction costs and included unallowable
         equipment.

      In addition, our audit found that the cost sheet did not reflect all
offsetting credits and income as required. For example, commissary income
was understated by $18,685 and revenue from a workers release program
was not reported to offset the facility’s operating costs. As a result, the
USMS overpaid [SENSITIVE INFORMATION REDACTED] County over
$1.2 million from July 1, 2002 through May 30, 2005.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-60-06-002, October 2005

      Our audit determined that the USMS overpaid the [SENSITIVE
INFORMATION REDACTED] by over $5 million for FYs 2003 and 2004. The
USMS established a jail-day rate of $59.91 with the [SENSITIVE
INFORMATION REDACTED]. However, the [SENSITIVE INFORMATION
REDACTED] accounting records for FYs 2003 and 2004 did not support this
rate. Instead, the records for FY 2003 supported an audited rate of $42.39,
and the records for FY 2004 supported an audited rate of $32.43. The large
discrepancies in the jail-day rates were primarily due to the following:

                                   – 94 –

                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



      •   Increases in Occupancy. The original cost sheet, which was
          prepared in FY 1996, was based on an average daily population of
          244, while the average daily population for FY 2004 increased 260
          percent to 877.

      •   Large Offsetting Revenues. Beginning in FY 2004, additional
          offsetting revenue of over $2 million for federal reimbursements
          from the State Criminal Alien Assistance Program (SCAAP) and the
          Southwest Border Prosecution Initiative (SWBPI) were applied.

      •   Overall Cost Control by Facility Management. Total allowable
          operating costs for the cost sheet were calculated at $5.3 million as
          compared to $10.3 million for FY 2004. As of the end of FY 2004,
          this represented spending increases of about 95 percent, while
          occupancy increased by 260 percent.

      We disallowed inmate medical services because these charges were for
services provided outside the facility and were paid for directly by the USMS.
In addition, we disallowed care of prisoner costs because these charges were
for security related to emergency medical care and court appearance and
were addressed separately in the IGA with a fixed hourly rate and mileage
rate.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-30-06-001, December 2005

      In November 1992 the USMS established a temporary IGA with the
[SENSITIVE INFORMATION REDACTED] to house federal detainees at a jail-
day rate of $65. Our audit also determined that the [SENSITIVE
INFORMATION REDACTED] accounting records for FYs 2004 and 2005 did
not support the jail-day rate of $65. Our audit determined that the USMS
paid the WTRJ $65 even though the most recent cost sheet, dated October
1998, only supported a rate of $52.26. Further, the cost sheet was based
on an average daily population of 353. However, the average daily
population for FYs 2004 and 2005 were 667 and 655. The increase in
average daily population represents an 89-percent increase for FY 2004 and
an 85 percent increase for FY 2005. Salaries and fringe benefits represented
the main area where unallowable costs were noted as follows:




                                    – 95 –

                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

      •   Five guards are dedicated solely to the work release program. The
          salaries and fringe benefits of the guards are not allocable to the
          calculation of the federal jail-day rate because federal detainees do
          not participate in the program; and

      •   Transportation costs that were reimbursed under the transportation
          rate of the IGA were also included in the jail-day rate.

     Our audit determined that the USMS overpaid the [SENSITIVE
INFORMATION REDACTED] by more than $2.8 million.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-30-06-002, March 2006

      Our audit of actual costs and daily population revealed that the records
of the [SENSITIVE INFORMATION REDACTED] Department of Correction
supported the rate paid by the USMS.

[SENSITIVE INFORMATION REDACTED]
Report No. GR-70-06-007, March 2006

       Our audit determined that while the jail-day rates used by the
[SENSITIVE INFORMATION REDACTED] were supported from January to
June 2003, the rate was not fully supported from July 2003 through
December 2004. As a result, the USMS overpaid [SENSITIVE INFORMATION
REDACTED] $202,354 for housing federal inmates. The jail-day rate was not
fully supported for this period due to increases in the prisoner population at
the jail. As the prison population increased over the 26 percent, the cost per
prisoner decreased, including the cost per federal detainee.




                                     – 96 –

                     REDACTED FOR PUBLIC RELEASE
      REDACTED FOR PUBLIC RELEASE


                                    APPENDIX VI

DETENTION TRUSTEE MEMORANDUM TO OIG
           (MARCH 17, 2006)




                 – 97 –

      REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 98 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




           – 99 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 100 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 101 –

REDACTED FOR PUBLIC RELEASE
      REDACTED FOR PUBLIC RELEASE



                                    APPENDIX VII

OIG RESPONSE TO THE DETENTION TRUSTEE
            (JUNE 6, 2006)




                – 102 –

      REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 103 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 104 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 105 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 106 –

REDACTED FOR PUBLIC RELEASE
      REDACTED FOR PUBLIC RELEASE



                                    APPENDIX VIII

PRIOR DETENTION TRUSTEE MEMORANDUM
          (AUGUST 1, 2002)




                – 107 –

      REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 108 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 109 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 110 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 111 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 112 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 113 –

REDACTED FOR PUBLIC RELEASE
          REDACTED FOR PUBLIC RELEASE


                                        APPENDIX IX

OIG RESPONSE TO THE PRIOR DETENTION TRUSTEE’S
      MEMORANDUM (SEPTEMBER 18, 2002)




                    – 114 –

          REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 115 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 116 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 117 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 118 –

REDACTED FOR PUBLIC RELEASE
           REDACTED FOR PUBLIC RELEASE


                                         APPENDIX X

MANAGEMENT INFORMATION MEMORANDUM – PROPOSAL
      FOR ACQUISITION OF DETENTION SPACE




                     – 119 –

           REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 120 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 121 –

REDACTED FOR PUBLIC RELEASE
       REDACTED FOR PUBLIC RELEASE


                                     APPENDIX XI

OFDT RESPONSE TO THE DRAFT AUDIT REPORT




                 – 122 –

       REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 123 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 124 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 125 –

REDACTED FOR PUBLIC RELEASE
       REDACTED FOR PUBLIC RELEASE


                                     APPENDIX XII

USMS RESPONSE TO THE DRAFT AUDIT REPORT




                 – 126 –

       REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 127 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 128 –

REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE




          – 129 –

REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


                                                            APPENDIX XIII

    OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
   SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT

        The OIG provided a draft of this audit report to the USMS and the
OFDT for their review and comment and their responses are incorporated as
Appendices XI and XII of this final report. The OFDT and USMS concurred
with 6 of our 10 recommendations, but continued to disagree that they
should attempt to recoup millions of dollars in overpayments to state and
local detention facilities. The OFDT also disagreed to modify eIGA to
maintain data on indirect costs and revenue generated from a detention
facility’s operation, have eIGA present a cost-based jail-day rate to IGA
analysts in their negotiations with state and local jails, or limit the amount of
profit that a state or local jail may earn for housing federal detainees.

       The OIG recognizes that there are significant pressures on the USMS
to obtain detention space but, as explained below, we disagree with the
OFDT’s and USMS’s position on these issues. Rising detention population
and costs present a challenge to DOJ’s ability to obtain affordable bed space
for individuals not housed in federal facilities. In the past, the USMS
required detention facilities interested in housing federal detainees to submit
a cost sheet as part of the IGA application process. The USMS cost sheet
requested financial and prisoner population information, and informed the
preparer that the jail-day rate would be computed on the basis of actual,
allowable, and allocable costs associated with the operation of the facility
that benefit federal detainees during the most recent accounting period.
Prior OIG audits often noted jail-day rates that exceeded the rate supported
by a detention facility’s allowable costs and average daily population. We
believe that not collecting or using cost data when negotiating an IGA rate,
and therefore potentially allowing payment of a rate that far exceed costs,
will exacerbate the continuing escalation in detention costs nationwide.
Because DOJ’s current annual detention budget exceeds $1 billion, the long-
term budget implications of IGA policies are substantial.

      This appendix presents our analysis of the USMS’s and OFDT’s
disagreements with our recommendations to try and recoup millions of
dollars in overpayments to state and local detention facilities, and expand
the information collected by eIGA and used by IGA analysts in their
negotiations with state and local jails. A summary of actions necessary to
either resolve or close each of the report’s 10 recommendations is provided
after our analysis of the OFDT’s and USMS’s general comments.

                                    – 130 –

                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

Recouping Overpayments

      The OIG has completed 31 individual IGA audits since 1995 and
reported overpayments totaling almost $60 million, of which $37 million
remains unaddressed by the USMS. However, the OFDT and USMS assert
that because IGAs are negotiated, fixed price agreements they cannot collect
the overpayments identified by the OIG in these audits. In its response to
this draft audit report, the USMS stated that OFDT has instructed it to refrain
from efforts to collect what the OIG determined to be overpayments. The
USMS response stated:

      OFDT believes that, in the absence of fraud, the agreements are
      not subject to retroactive adjustment. Once the USMS and the
      state or local government negotiated and reached an agreement
      on a price for the services, that price was fixed and the parties
      were bound. OFDT believes that the Government cannot, years
      later, reexamine the state or local government’s costs and
      prisoner population for the period in question and seek to
      recover an amount by which, in hindsight, appears to have
      exceeded those costs.

      The OFDT further stated that it “supports the continued use of fixed-
price agreements, with the reasonableness of the rate being determined by
price analysis, not cost analysis.”

      Recently, OFDT obtained an opinion from the General Counsel of the
Justice Management Division stating that the IGAs are “fixed price
agreements that do not contain a basis for the Department to seek
retroactive price adjustment” as a matter of contract law.

      As noted in the report, we do not agree with the contention that the
IGAs in question were fixed-price contracts that are not adjustable in the
absence of fraud by the state or local facility. Rather, the agreements were
cost-based, meaning that costs were the basis of the award amount and that
cost analysis rather than price analysis was used to establish the jail-day
rate.

        As detailed in our report, the USMS has consistently requested that
detention facilities complete a cost sheet as part of the IGA application
process. The cost sheet instructions state that the jail-day rate is based on
actual and allowable costs subject to Office of Management and Budget
(OMB) Circular A-87. As shown below, the cost sheet requires the detention
facility to certify that the costs included are accurate, complete, current, and

                                    – 131 –

                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

do not contain any unallowable or unallocable costs prohibited by OMB
Circular A-87. The detention facility also must certify that its records can be
audited to verify the jail-day rate.




      Moreover, even if the IGAs in question were negotiated, fixed-price
agreements, as the OFDT and USMS contend, that does not mean that the
specified price could not be subject to adjustment by the operation of the
clauses in the agreements that specifically address re-pricing or recoupment
of amounts disallowed by audits. For example, the agreements provide
that:

      •   Jails are responsible for complying with OMB Circular A-87 and
          28 CFR, Part 66, and the allowability of the costs covered in its
          submitted cost sheets. To avoid possible subsequent disallowance
          or dispute based on unreasonableness or unallowability under the
          specific cost principles, recipients must obtain prior approval on the
          treatment of special or unusual costs;

      •   Jails shall notify the USMS of any significant change in the facility,
          including significant variations in inmate populations, which cause a
          significant change in the level of services. The notification shall be
          supported with sufficient cost data to permit the USMS to equitably
          adjust the jail-day rate included in the IGA. Depending on the size
          of the facility, for the purpose of assessing changes in the
          population a 10 percent increase or decrease in the prison
          population is considered significant;

      •   The USMS will hold jails accountable for any overpayment, audit
          disallowance, or any breach of the IGA that results in a debt owed
          to the federal government. The USMS may apply interest,
          penalties, and administrative costs to a delinquent debt owed by a
          debtor pursuant to the Federal Claims Collection Standards; and


                                    – 132 –

                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

      •   Jails are responsible for the management and fiscal control of all
          funds. Responsibilities include the accounting of receipts and
          expenditures, cash management, the maintaining of adequate
          financial records, and the refunding expenditures disallowed by
          audits.

      In our judgment, these facts contradict the USMS and OFDT
contention that IGAs are negotiated, fixed-price agreements that are not
subject to recovery of overpayments in the absence of fraud.

      In addition, the USMS acknowledged in its response to the draft audit
report that it has in the past recovered (either by collection or offsets on
future rates) a portion of funds identified as overpayments. It also
acknowledged that in other circumstances, overpayments have been
forgiven in accordance with DOJ procedures. Further, the JMD General
Counsel acknowledged that depending on the circumstances of each case,
the Department may have a legal remedy for recovering overpayments
where a state submitted inaccurate cost information during the IGA
formation process. He also noted that nothing in the agreements prohibits
the DOJ from seeking a prospective rate adjustment.

Modifying eIGA

       As detailed in our report, the OFDT is revising the process of how it
calculates IGA rates. As part of this process, the OFDT and USMS agreed to
develop guidance for establishing IGAs, ensure adequate resources are
provided to oversee IGAs, and devise training plans for IGA analysts. We
believe that eIGA is a positive step to improving the process historically used
to establish jail-day rates. However, we believe that OFDT should improve
eIGA by expanding the information eIGA collects to include indirect costs
and revenue generated from a detention facility’s operation (also known as
credits). In turn, this information should be used to calculate a cost-based
jail-day rate for consideration by IGA analysts.

      Our audit identified significant deficiencies with how jail-day rates have
been established and monitored in the past. Because eIGA is not
operational, and the OFDT has neither issued guidance nor trained IGA
analysts on how jail-day rates will be established using eIGA, we are unable
to predict how successful eIGA will be. However, one critical issue is how
the rates negotiated through eIGA compare to rates that would have been
established using a detention facility’s actual and allowable costs. Moreover,
we believe that, as we demonstrated in our review of jail-day rates that
were established using the eIGA model, providing cost information to the

                                    – 133 –

                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

IGA analysts will give the USMS more leverage in its negotiations, help
control rising detention costs by reducing negotiated jail-day rates, and
provide an important check on the price reasonableness model.

       In its response, the OFDT noted that eIGA already collects information
pertaining to a jail’s average daily population, and that the Jail Operating
Expense Information already incorporates substantial expense information.
The OFDT stated that it does not intend to increase the burden placed on
jails by requiring them to submit the additional information suggested by the
OIG. In support of this position, OFDT points to the language of Federal
Acquisition Regulation (FAR) 15.402 stating that “contracting officers must
not require unnecessarily the submission of cost or pricing data because it
leads to increased proposal preparation costs, generally extends acquisition
lead time, and consumes additional resources of contracting parties.”

      We disagree with the OFDT’s suggestion that the submission of the
additional data is unnecessary in this case. First, Section 15.403 of the FAR
states that cost or pricing data shall not be required in the following
circumstances:

      (1)   Prices are based on adequate price competition
      (2)   Prices agreed upon are based on prices set in law or regulation
      (3)   Commercial item is being acquired
      (4)   A waiver has been granted
      (5)   When modifying a contract or subcontract for commercial item

      None of these circumstances describe the IGA process. For example,
detainee bed space is not a commercial item and IGAs are not competitively
awarded.

      Second, FAR 15.404-1 states that contracting officers are “responsible
for evaluating the reasonableness of the offered prices.” That provision
further provides that “[t]he complexity and circumstances of each acquisition
should determine the level of detail of the analysis required.” For the
reasons stated in our report, we believe that cost data is necessary to any
evaluation of price reasonableness in the IGA context.

      We also disagree that the eIGA method is a true price analysis as the
OFDT asserts. The FAR defines price analysis as “the process of examining
and evaluating a proposed price without evaluating its separate cost
elements and proposed profits.” FAR 15.404-1(b). In contrast, cost
analysis is defined as “the review and evaluation of the separate cost
elements and profit in an offeror’s . . . proposal . . . and the application of

                                    – 134 –

                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

judgment to determine how well the proposed costs represent what the cost
of the award should be, assuming reasonable economy and efficiency.” FAR
15.404-1(c). Contrary to its argument that it is performing a strict price
analysis, the OFDT is requesting and taking into account certain types of
cost information (labor and fringe benefits by position, consultant and
contractual services, utilities, telephone, equipment, and insurance to name
some of the categories) as part of the revised eIGA process, and therefore
should request and consider in its negotiations the other categories of data.

      In a demonstration of eIGA that OFDT provided to us in October 2006,
average daily population, indirect costs, and credits were not captured in
eIGA. At that time, the OFDT stated that these elements would not be
included because they varied daily. In our judgment, however, indirect
costs and credits are no more variable than labor, fringe benefits,
equipment, or utilities, all of which eIGA collects. Further, by asking for
telephone costs without asking for the telephone credits, the information
obtained is inaccurate and does not provide an adequate basis for the costs
of the jail, the level of profit it would obtain under eIGA, or a fair and
reasonable price.

      We also do not concur with the OFDT’s assertion that historical rates
from the 1,800 IGAs that have been awarded by DOJ and ICE provide a
reasonable basis to justify prices on new awards. This assertion assumes
that historical rates were reasonable. However, our prior audits have
questioned millions of dollars of payments associated with these agreements
because of jail-day rates that included unallowable or unsupported costs and
inaccurate or unsupported jail population figures. In addition, because OFDT
has yet to establish policies or procedures regarding how similar facilities will
be identified and compared, and has acknowledged the difficulty in
comparing facilities in the same geographic area (San Francisco and
Modesto) as well as between geographic areas (Northeast versus
Southwest), we are concerned about how this data will be used to establish
price reasonableness.

      The OFDT also disagreed with our recommendation to develop
guidance that would limit the amount of profit a state or local jail may earn
for housing federal prisoners. In its response, the OFDT referred to a March
1999 opinion from OMB and stated that fixing a fee or profit would only be
applicable in a cost-reimbursement type of agreement.




                                    – 135 –

                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

       Our report does not recommend that the OFDT and USMS establish
jail-day rates using a cost reimbursement type of arrangement. However,
we continue to believe that whatever contract model is used, the OFDT and
the USMS must ensure that the rates paid are reasonable. We do not
believe that they can effectively do so without considering the amount of
profit state and local facilities are earning and ensuring that such profit is
kept within reasonable limits.

      The USMS also included a series of comments that are unrelated to the
reports specific recommendations. We address these comments in the
following paragraphs.

       The USMS stated that our observation on the reduced number of
onsite audits failed to recognize the number of desk audits that were
conducted beginning in FY 2005. As part of our audit, we requested a listing
of all audits conducted by the USMS. Our analysis of the number of audits
was based on the information supplied by the USMS. Thus, the reason any
such audits were not referred to in our report was that the USMS did not
disclose this practice. Nevertheless, we also note that the number of onsight
audits performed by the USMS decreased by almost 50 percent from FYs
2003 to 2004, before the practice of conducting desk audits was
implemented in FY 2005.

       The USMS did not agree with our classification of over $37 million in
questioned costs based on the definition noted in Appendix IV. Appendix IV
is a compilation of prior OIG audit findings. The questioned costs are
computed by adding together the expenditures that either did not comply
with legal, regulatory, or contractual requirements, are not supported by
adequate documentation at the time of audit, or are unnecessary or
unreasonable and multiplying that figure by the average number of jail days.
We believe the term questioned cost and the definition of questioned cost in
the appendix is accurate.

      The USMS stated that some of the audits listed in Appendix IV were
referred to the Department of Justice Audit Resolution Committee, where no
action has been taken to date, and that almost $1.8 million in overpayments
was recently forgiven in accordance with DOJ procedures for [SENSITIVE
INFORMATION REDACTED]. We accordingly revised Appendix IV to identify
audits that were referred to the Department of Justice Audit Resolution
Committee and changed the status of [SENSITIVE INFORMATION
REDACTED] as an audit that no longer needed to be addressed by the USMS.



                                   – 136 –

                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE

      The USMS commented that $2.5 million identified as funds to put to
better use in the [SENSITIVE INFORMATION REDACTED] audit represented
an unsupportable capital cost recovery proposal that was neither endorsed
nor considered by the USMS in the development of the jail-day rate. Our
audit report stated that the USMS could save more than $2.5 million
annually by disallowing the proposed capital cost recovery surcharge of
$23.05 per jail day. Since Appendix V discusses the issue in detail, we do
not believe that clarification of this matter is warranted.

      Finally, the USMS commented that of the nearly $38 million in
overpayments identified in Appendix IV, over $9.5 million represented audits
covered by the OFDT’s March 17, 2006, memorandum in which the
Detention Trustee advised the USMS not to collect overpayments. Since our
report discusses at length the basis of our disagreement with OFDT, and
includes the Detention Trustee’s memorandum in Appendix VI, we did not
revise the Appendix to identify audits covered by the memorandum.

Summary of Necessary Actions

     Based on the OFDT and USMS responses, we consider the report
unresolved. The following is a summary of actions necessary by each
component to either resolve or close the recommendations.

1. Unresolved (USMS). In consultation with the OFDT, the USMS
   disagreed with this recommendation. The OFDT and USMS believe that in
   the absence of fraud, the agreements are not subject to retroactive
   adjustment. The USMS stated, however, that it will review each audit on
   a case-by-case basis to make a final decision as to a remedy. This
   recommendation can be closed when the USMS adequately addresses
   each open recommendation.

2. Unresolved (OFDT). As previously discussed, the OFDT did not agree
   to modify eIGA so that it captures information on ADP, indirect costs, and
   credits. This recommendation can be resolved when the OFDT either
   agrees to modify eIGA to capture this information or proposes an
   alternative corrective action.

3. Unresolved (OFDT). As previously discussed, the OFDT did not agree
   to modify eIGA so that it presents a jail-day rate to the IGA analysts
   based on the actual and allowable costs of the jail. This recommendation
   can be resolved when the OFDT either agrees to modify eIGA to present a
   jail-day rate based on actual and allowable costs or proposes an
   alternative corrective action.

                                  – 137 –

                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



4. Resolved (OFDT). The OFDT stated that, in concert with eIGA, it will
   collect and analyze detailed data describing detention facility
   expenditures; identify additional factors, where possible, that are
   predictive of detention facility expenditures on a per capita basis; assess
   the impact of inflation on per capita detention expenditures; and evaluate
   the reliability of the current pricing model, including re-specification of
   model parameter estimates, where necessary. Because detailed financial
   data is necessary to support this project, it is not anticipated that any
   substantial work will begin until eIGA has been implemented and 12
   months of data have been collected to support the quantitative analysis.
   This recommendation can be closed when the OFDT provides
   documentation showing that it adequately re-examined the core rate.

5. Resolved (OFDT). The OFDT agreed to develop guidance and training
   for the USMS on how jail-day rates will be established using eIGA.
   Additionally, OFDT stated that it is funding Federal Acquisition Institution-
   mandated training for USMS IGA Analysts through an outside vendor.
   This recommendation can be closed when we review the guidance and
   training material on how jail-day rates will be established using eIGA.

6. Unresolved (OFDT). As previously discussed, the OFDT did not agree
   to develop guidance that limits the amount of profit a state or local jail
   can earn for housing federal prisoners. This recommendation can be
   resolved when the OFDT either agrees to develop guidance that limits the
   amount of profit a state or local jail can earn for housing federal prisoners
   or proposes an alternative corrective action.

7. Resolved (USMS). The USMS agreed to develop annual training plans
   for all staff working in the Programs and Assistance Branch. This
   recommendation can be closed when we review guidance for
   implementing annual training plans for staff working in the Programs and
   Assistance Branch and approved first year training plans.

8. Resolved (USMS). The USMS agreed with the recommendation and
   estimated that updated policies can be developed 6 months after the
   OFDT provides information required under Recommendations 5 and 6.
   The USMS also anticipated that a comprehensive overhaul of the policies
   related to IGAs will be necessary based on the implementation of eIGA.
   This recommendation can be closed when we are provided with the
   USMS’s revised IGA policies.



                                    – 138 –

                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE

 9. Resolved (USMS). The USMS agreed with the recommendation.
    According to the USMS, 99 percent of identified expired permanent IGAs
    have been extended, and the remaining expired IGA will be extended by
    January 31, 2007. In addition, the USMS stated that beginning in
    calendar year 2007 the Programs and Assistance Branch staff will issue a
    memorandum to the field, under the Assistant Director’s signature, on a
    monthly basis identifying usage of expired IGAs and require they
    discontinue use until a new agreement is established. This
    recommendation can be closed when we are provided documentation on
    the extended IGAs, as well as the formal policy on the USMS’s new
    procedures.

10. Resolved (USMS). The USMS agreed with the recommendation.
    According to the USMS, additional staffing for review, approval, and audit
    of IGAs is critical to the successful operation of the program. Upon
    implementation of eIGA, a workgroup will be convened to discuss staffing
    and needed resources for the Programs and Assistance Branch.
    Completion of this step is estimated at no longer than six months after
    eIGA is implemented. This recommendation can be closed when we
    review the documentation detailing the agreed upon resources for
    adequately overseeing IGAs.




                                    – 139 –

                     REDACTED FOR PUBLIC RELEASE
